<html>
<title> - S. 809, PRIVACY PROTECTION ACT OF 1999</title>
<body><pre>[Senate Hearing 106-1044]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1044

             S. 809, ONLINE PRIVACY PROTECTION ACT OF 1999

=======================================================================

                                HEARING


                               BEFORE THE

                     SUBCOMMITTEE ON COMMUNICATIONS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 1999

                               __________


    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


71-813              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Policy Director
                  Martha P. Allbright, General Counsel
     Ivan A. Schlager, Democratic Chief Counsel and Staff Director
               Kevin D. Kayes, Democratic General Counsel
                                 ------                                

                     Subcommittee on Communications

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
SLADE GORTON, Washington             DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN F. KERRY, Massachusetts
JOHN ASHCROFT, Missouri              JOHN B. BREAUX, Louisiana
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
SPENCER ABRAHAM, Michigan                Virginia
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SAM BROWNBACK, Kansas                RON WYDEN, Oregon
                                     MAX CLELAND, Georgia


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held July 27, 1999.......................................     1
Statement of Senator Bryan.......................................     4
Statement of Senator Burns.......................................     1
Statement of Senator Dorgan......................................    25
    Prepared statement...........................................    25
Statement of Senator Kerry.......................................     3
Statement of Senator Rockefeller.................................    26
Statement of Senator Stevens.....................................     5
Statement of Senator Wyden.......................................    24

                               Witnesses

Anthony, Sheila F., commissioner, Federal Trade Commission.......    26
    Prepared statement...........................................    29
Lesser, Jill, vice president, Domestic Public Policy, America 
  Online.........................................................    46
    Prepared statement...........................................    48
Mulligan, Deirdre, staff counsel, Center for Democracy and 
  Technology.....................................................    52
    Prepared statement...........................................    54
Pitofsky, Robert, chairman, Federal Trade Commission.............     5
    Prepared statement...........................................     7
Rotenberg, Marc, director, Electronic Privacy Information Center.    64
Swindle, Orson, commissioner, Federal Trade Commission...........    29
    Prepared statement...........................................    31
Thompson, Mozelle W., commissioner, Federal Trade Commission.....    32
Varney, Christine, senior partner, Hogan & Hartson, on behalf of 
  the Online Privacy Alliance....................................    66
    Prepared statement...........................................    68

                                Appendix

Center for Democracy and Technology prepared statement...........    87

 
                 S. 809, PRIVACY PROTECTION ACT OF 1999

                              ----------                              


                         TUESDAY, JULY 27, 1999

                               U.S. Senate,
                    Subcommittee on Communications,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Conrad Burns, 
chairman of the subcommittee, presiding.
    Staff members assigned to this hearing: Robert Taylor, 
Republican counsel; Moses Boyd, Democratic senior counsel; and 
Al Mottur, Democratic counsel.

            OPENING STATEMENT OF HON. CONRAD BURNS,
                   U.S. SENATOR FROM MONTANA

    Senator Burns. We will call the committee to order this 
morning. I will tell you, it has been a long day already. I 
started off at Bethesda Naval Hospital this morning, and we 
chaired and then completed a MILCON appropriations, now we have 
got this, and I will have all my work done by noon, and then I 
am going to go to the golf course. [Laughter.]
    Today's hearing concerns a topic of critical importance to 
today's increasingly digital world, the protection of online 
privacy. The recent growth of the Internet has been nothing 
short of breathtaking. The number of Internet users in the 
United States is now approaching 100 million. The number of 
online consumers is now over 30 million. Clearly, the Internet 
has become a staple of everybody's life.
    The tremendous reach of the Internet does pose challenges 
as well as opportunities. Just as the revolution in 
communications technology has allowed individuals to gain 
access to nearly limitless information, unfortunately digital 
technologies can also be used by bad actors to collect nearly 
limitless information on individuals with out their knowledge.
    I would like to thank my good friend and colleague, Senator 
Wyden, for his vision and hard work in working with me on the 
Online Privacy Protection Act of 1999, which will ensure the 
safety net for privacy for online consumers.
    I have worked closely with Senator Wyden in a bipartisan 
manner on numerous high tech issues, and we continue to do 
that. I know he shares my hesitation to engage in any sort of 
regulation of the Internet, but nonetheless we see a problem 
looming on the horizon. I have stated on many occasions that 
nothing happens until a sale is made and the intent of this 
bill is to foster, not impede, the tremendous growth in 
electronic commerce.
    This bill was a product of many discussions with both 
industry and privacy groups, and represents a balanced measured 
approach to the issue. We are very fortunate to have the entire 
Federal Trade Commission here today. I would especially like to 
thank the chairman for altering his very demanding schedule to 
be here today. I have worked very closely with the chairman on 
matters of Internet privacy in the past, and last year the 
Children's Online Privacy Protection Act, which I supported, 
drew heavily from the recommendations and the findings of the 
FTC's June 1998 report on Internet privacy.
    The 1998 report found that 89 percent of children's Web 
sites collected personal information, while only 10 percent of 
the sites provided for some form of parental control over the 
collection and use of that information.
    Thanks to the recommendations of the FTC and the work of 
Senator McCain and Senator Bryan and other members of the 
Commerce Committee, the Children's Online Privacy Protection 
Act, which requires the FTC to come up with some rules that 
would provide notice of Web sites personal information 
collection, passed into law in the 105th Congress.
    Now, given this background, I have to say that I am very 
puzzled by the FTC's recent report to Congress on Internet 
privacy. The report acknowledged that fewer than 10 percent of 
the Web sites meet basic privacy protections, but called for no 
Federal legislation to address this critical situation.
    The report pointed to the recent Georgetown study that 
shows that nearly two-thirds of Web sites now post privacy 
policies as proof of industry progress and a reason for 
legislation inaction. I applaud the increase in posting privacy 
policies, but what about the other kinds of Web sites that fail 
to inform the consumers?
    Also, I have examined several of these policies. Many of 
them seem to have the purpose of exempting Web sites from 
liability, rather than informing consumers of their rights. The 
fact that many of these policies require a law degree to 
decipher, not to mention a magnifying glass, given that they 
are in microscopic type, does not lead me to the conclusion 
that no Federal action is necessary to protect online privacy.
    I find the dissenting opinion of Commissioner Anthony in 
the report very compelling. She rightly states that the 
legislation is necessary to at least ensure a minimum of 
consumer privacy protection in the digital era. In her opinion, 
her expression concerns that the absence of effective privacy 
protections will undermine consumer confidence and hinder the 
advancement of electronic commerce and trade, and I could not 
agree more.
    In fact, several recent studies reveal that the single 
greatest reason consumers do not buy goods online is because of 
the concerns of privacy. Unfortunately, these fears have been 
proven to be well-based. As the communications revolution 
alters every aspect of our personal and economic lives, now is 
no time for delay or inaction.
    I continue to move forward with this critical bill to make 
sure that consumers can feel confident in the safety of their 
personal information in the digital age. It is nice to work 
with Senator Wyden and my colleagues on the committee to ensure 
this bill moves to markup and passage by the full Senate as 
quickly as possible.
    I see my good friend from Massachusetts here this morning, 
and thank you for coming, Senator, and we look forward to your 
statement.

         STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR 
                       FROM MASSACHUSETTS

    Senator Kerry. Thank you very much, Mr. Chairman. I will be 
very brief. I can only stay for a portion of the hearing, but I 
wanted to first of all thank you for having this hearing. This 
is a complex and very important issue to all of us, and I will 
just be very, very brief, as I said.
    A lot of us have been taking time to meet with a lot of the 
companies and begin to understand better what is happening in 
the marketplace. I think we are beginning to get that sense. It 
strikes me that obviously privacy is going to grow. I think 
most people I have talked with in the industry are aware of 
that, it will grow as an issue and be vital to the capacity of 
many companies to be able to market and to grow. I think people 
understand that.
    I have looked at the FTC's report on privacy, and generally 
agree with most of the majority view, though I think, as you 
just said, Mr. Chairman, that Commissioner Anthony's warnings 
and observations are not to be discounted.
    Many Web sites are currently taking steps to notify users 
of their privacy programs, and I think we are at significantly 
enough of a nascent stage of development here that I am wary of 
regulation at this point in time. I do not think it is the 
right time to regulate the industry. I think, however, the FTC 
may have somewhat overstated to some degree the progress that 
is currently being made.
    There is a marked improvement in the number of sites 
posting privacy disclosure, but disclosure is different from 
the set of choices sites have with respect to all the things 
they could do to protect privacy.
    The studies that you referenced, and that the report 
references, show that only 10 percent of the sites are 
currently addressing the four principles of notice, choice, 
access, and security. I think that 10 percent figure should 
concern all of us, but again, that is different from whether or 
not at this point in time we ought to step in and actually 
regulate.
    I think it probably concerns a lot of other people, too, 
and we ought to simply hold out our own notice to all of the 
participants that we are going to be watching very closely. We 
should set high standards at this point in time as a goal for 
them to achieve.
    But again, I think self-regulation is the more important 
way to proceed at this point in time. I am not sure that we or 
the FTC could write a law or regulation that will sufficiently 
allow for all the changes in technology that are taking place, 
and again, I am absolutely convinced that the companies 
understand that protecting consumer privacy is in their best 
interests, and with the level of competition on the Web right 
now, I think we would be well-advised to allow that to sort of 
percolate a little bit and perhaps see where we are.
    So that said, Mr. Chairman, I think if self-regulation is 
not working, and the surveys continue to show only minimal 
compliance with the core privacy principles, we certainly have 
ample opportunity to step in at that time, and I thank you 
again, Mr. Chairman, for setting us down this road.
    Senator Burns. Thank you, Senator Kerry.
    Senator Bryan.

  STATEMENT OF HON. RICHARD H. BRYAN, U.S. SENATOR FROM NEVADA

    Senator Bryan. Thank you very much, Mr. Chairman. Let me 
first preface my comments by commending you for holding this 
hearing and the leadership that you and our colleague, Senator 
Wyden, have provided on this issue.
    I think Business Week magazine summed it up best in its 
July 26 article:

    ``George Orwell's vision of Big Brother was Government run 
amok, but it is not Government that threatens privacy today, it 
is Internet commerce.''

    That is a Business Week publication.
    Internet commerce is evolving to the point where you could 
be browsing a Web page for mutual funds at one moment and 
seconds later get a call from a telemarketer with a targeted 
mutual fund sales pitch. As online commerce grows, the value of 
personal information for direct marketing will skyrocket. As 
Business Week put it, all over the Web a data gold rush is on. 
The incredible communications and computing power of the 
Internet is handing companies an unprecedented opportunity to 
collect and analyze information.
    As some of you will recall, I became involved in the 
Internet privacy issue in the last session of Congress, working 
with the chairman of the committee, Senator McCain, on the 
Child Online Privacy Protection Act. Working with the FTC, 
private sector groups as well, we were astonished to learn that 
Web sites that focused on children's issues, and there were 
some 90 percent or more who were collecting personal and 
private data, only about 1 percent of those actually gave 
parents an opportunity to in effect have an informed consent.
    Working with the private sector and the FTC, we have now 
developed the Child Online Privacy Protection Act. The 
rulemaking process is continuing, but the issue before us today 
is whether or not we should expand those privacy protections to 
the adult Internet population.
    I have not rushed to judgment as the FTC reviews this 
issue, but, Mr. Chairman, let me express my concern. I think 
the privacy issue is very deep and very fundamental, and the 
American public is just beginning to grasp how threatened their 
concept of privacy is.
    Although the industry needs to be commended for the strides 
it has made in setting up mechanisms to protect consumers' 
privacy, I continue to be concerned about several practices. 
There appears to be an agreement that the biggest impediment to 
commerce on the Internet is the public concern about privacy, 
and so you have on one hand an issue in which the public is 
concerned about the loss of privacy, the business community, 
which is interested in expanding the potential for e-commerce, 
is impeded because of those customers' concerns that the 
transaction over the Internet will invade their privacy to an 
extent that they do not feel comfortable with.
    Of the top 100 Web sites, 99 collect personal information, 
but only 22 meet the fair information practice standards that 
have been outlined. While we are focusing on privacy protection 
for information consumers voluntarily give to the Web sites, 
that is when they have a transaction much like an individual 
who walks into a retail establishment and produces his or her 
credit card or pays in cash, there is a record of that 
transaction. I think all of us understand that concept.
    But a device known as cookies, cookies I think is something 
that would shock people. That is, it is now possible through 
this amazing technology for a Web site to know when it has been 
visited, not when a transaction has occurred, but when a Web 
site has been visited, that information collected and made 
available for direct marketers without the knowledge or the 
consent of the consumer.
    That, Mr. Chairman, in my judgment raises significant 
concerns, so it is my hope that the industry and the regulators 
will be able to work out something that will protect this 
privacy. I must tell you, I am not persuaded at this point that 
that is the case. I know the FTC has urged caution and 
restraint at this moment.
    Mr. Chairman, I commend you again for your leadership in 
moving this ball forward. I think there is a significant issue 
there, and that we may, indeed, have to resort to a legislative 
solution if we are not able to reach an agreement very soon in 
terms of how we protect adult users of the Internet, and I 
thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Bryan.
    Senator Stevens.
    Senator Stevens. No opening statement.
    Senator Burns. Well, we welcome the Federal Trade 
Commission this morning, and the chairman, and we will hear 
first from the chairman, Mr. Robert Pitofsky, and we welcome 
you this morning and thank you for coming en masse, we might 
add. We like that idea.

  STATEMENT OF HON. ROBERT PITOFSKY, CHAIRMAN, FEDERAL TRADE 
                           COMMISSION

    Mr. Pitofsky. Thank you very much, Mr. Chairman, and 
members of the committee. It is truly a pleasure to meet with 
this group that is so knowledgeable about the problems that we 
are going to address, the development of the Internet and 
privacy issues on the Internet.
    Let me try to focus the discussion in this way. Members of 
the FTC are unanimous, and I believe the members of this 
committee are probably unanimous, that it is absolutely 
intolerable for sellers on the Internet to gather personally 
identifiable information and sell it or otherwise transfer it 
without the buyer's permission. We are all there. The question 
is, what is the best way to ensure that that kind of behavior 
does not occur?
    My own view is that there are always going to be four 
different elements to a regulatory program of this sort. One, 
case by case enforcement based on statutes already existing, 
like our own statute that outlaws deception; new legislation, 
consumer education, and self-regulation. The question is, what 
is the right mix to get to the goal line?
    The FTC has taken a leadership role in this area. We have 
brought a number of cases challenging violations of consumer 
privacy on the Internet. We sued Geo Cities, one of the biggest 
cases that we have seen in this area, and we have brought other 
suits. We have supported legislation. Indeed, we worked with 
this committee and particularly the chairman and Mr. Bryan on 
the Children's Online Privacy Act, which was put through the 
Congress in the most efficient and prompt way that I think I 
have ever seen.
    We last week unanimously testified in favor of legislation 
that would protect the privacy of financial records, because 
financial records are different and deserve a heightened level 
of privacy protections. I would say the same thing about 
medical records.
    But the issue remains, what do we do about all the rest of 
the invasions of privacy that adults may encounter when they do 
business on the Internet, and to address that, let me talk a 
little bit about history. The FTC got out in front of this 
issue with hearings that were held 3 years ago examining 
questions of the extent of invasions of privacy and what to do 
about it. We then did a study at the request of Senator McCain, 
addressing questions such as what are the levels of invasion of 
privacy, and what are the existing protections. In the summer 
of 1998 we put out a report.
    We submitted a report to the Congress that said that, even 
though practically everyone was collecting personally 
identifiable information, only 14 percent posted any sort of 
notice, and only 2 percent touched all the bases--that is: 
notice, consent, access, and security, and we said at that time 
as politely as we knew how that this was a very disappointing 
performance by the private sector.
    Industry then agreed with that assessment, and the most 
responsible companies in this country working on the Internet 
said, give us a chance to solve this problem through self-
regulation, and they have put in considerable time and effort 
and resources to accomplish that.
    Georgetown University then ran a study about a year later, 
and found that the 14 percent policy disclosures had become 66 
percent. I myself was astonished that in 1 year, disclosures 
increased from 14 percent to 66 percent. Indeed, a second study 
which looked only at the most frequently used Internet sites 
had the disclosure polices up around 80 or 81 percent.
    Still, only 10 percent, another study said 20 percent, but 
I say only 10 percent touched all the bases, and therefore 
while you have notice and opportunities to opt out, you do not 
have the access issue taken care of, and you do not have the 
security issue taken care of.
    The question is, what do we do now? We are at a very 
important crossroads point in time as to what is the best way 
to address these questions. One is to let self-regulation 
proceed, and industry is following up to improve their 
performance. For example, I know they sent a letter to the 34 
percent of the sites on the Internet that did not have privacy 
policies, asked them why, and urged them to change their 
policies. If the private sector were to have anything like the 
success this year that I had last year with self-regulation, 
you would be up around 90 or 95 percent of disclosure of policy 
and remember, once they disclose their policies, if they do not 
abide by their own policy, that is deceptive under our statute 
and we can challenge their behavior under section 5 of the 
Federal Trade Commission Act.
    Of course, we could now move to a law, and I must say that 
if we were to move to a law, the direction described in S. 809, 
not every single word in the statute, of course, but the 
direction seems about right to me. By the way, S. 809 pretty 
much reflects the direction that the business community has 
itself agreed to. That is to say, it calls for notice, consent, 
access, security, and safe harbors for those responsible 
companies that behave in the appropriate way.
    A majority of the commission believes that we ought to let 
a little time go by, and I really mean a little time. There has 
been such progress, we challenged them so directly, and they 
came through in improving self-regulation so substantially that 
we ought to let a little time go by and see if they really get 
to the goal line.
    If they do, then we have solved the problem without the 
necessity of legislation in an area that is so dynamic that one 
can only worry that the legislation will be outstripped by 
technological developments.
    If they do not, if the progress does not proceed, then I 
would be the first to be up here recommending that legislation 
is necessary to accomplish what we agree is a necessary 
protection for consumers. So in the end consumers must be 
protected. It is just an issue of how you get there.
    Now, a large part of the complexity of this depends on the 
following. Do you look at the 66 percent, say the glass is more 
than half full, and we are going in the right direction, or do 
you look at the disappointing 10 or 20 percent that have not 
touched all the bases?
    I feel you should look at both. I do not think notice and 
opt-out is a successful addressing of this problem, but I will 
point out that Alan Weston, one of the most respected advocates 
for privacy policy in this country, released the results of a 
new study just about a week or 10 days ago. It showed that 85 
percent of consumers principally or exclusively care about 
notice and consent, the 66 percent, and they really are not 
nearly as concerned, or not concerned at all, about, touching 
all four bases of security and access.
    So while I think consumers are entitled to more than 
notice, it may be that many consumers really do not regard that 
as a priority issue for themselves, and it makes sense, because 
if you opt out, why do you have to worry about access? You are 
out of the system. If you opt out, why do you have to worry 
about security? The information gatherer cannot use your 
personal data, and if they do, after you have opted out, that 
would be a violation of our statute.
    Thank you very much, and let me turn the program over to my 
colleagues.
    [The prepared statement of Mr. Pitofsky follows:]

       Prepared Statement of Robert Pitofsky, Chairman, Federal 
                            Trade Commission

    Mr Chairman and members of the Subcommittee, I am Robert Pitofsky, 
Chairman of the Federal Trade Commission (``FTC'' or ``Commission''). I 
appreciate this opportunity to present the Commission's views on the 
progress of self-regulation in the area of online privacy.<SUP>1</SUP>

                     I. INTRODUCTION AND BACKGROUND

    The FTC's mission is to promote the efficient functioning of the 
marketplace by protecting consumers from unfair or deceptive acts or 
practices and to increase consumer choice by promoting vigorous 
competition. As you know, the Commission's responsibilities are far-
reaching. The Commission's primary legislative mandate is to enforce 
the Federal Trade Commission Act (``FTCA''), which prohibits unfair 
methods of competition and unfair or deceptive acts or practices in or 
affecting commerce.<SUP>2</SUP> With the exception of certain 
industries, the FTCA provides the Commission with broad law enforcement 
authority over entities engaged in or whose business affects commerce 
<SUP>3</SUP> and with the authority to gather information about such 
entities.<SUP>4</SUP> Commerce on the Internet falls within the scope 
of this statutory mandate.<SUP>5</SUP>
    In June 1998 the Commission issued Privacy Online: 24 Report to 
Congress (``1998 Report''), an examination of the information practices 
of commercial sites on the World Wide Web and of industry's efforts to 
implement self-regulatory programs to protect consumers' online 
privacy.<SUP>6</SUP> Based in part on its extensive survey of over 1400 
commercial Web sites, the Commission concluded that effective self-
regulation had not yet taken hold.<SUP>7</SUP> The Commission 
recommended that Congress adopt legislation setting forth standards for 
the online collection of personal information from children; and 
indeed, just four months after the 1998 Report was issued, Congress 
enacted the Children's Online Privacy Protection Act of 
1998.<SUP>8</SUP> As required by the Act, on April 20, 1999, the 
Commission issued a proposed Children's Online Privacy Protection Rule, 
which will implement the Act's fair information practices standards for 
commercial Web sites directed to children under 13, or who knowingly 
collect personal information from children under 13.<SUP>9</SUP> 
Commission staff is reviewing comments on the proposed rule and will 
issue a final rule this fall.
    When the 1998 report was released, there were indications that 
industry leaders were committed to work toward self-regulatory 
solutions. As a result, in Congressional testimony last July the 
Commission deferred judgment on the need for legislation to protect the 
online privacy of consumers generally, and instead urged industry to 
focus on the development of broad-based and effective self-regulatory 
programs.<SUP>10</SUP> In the ensuing year, there have been important 
developments both in the growth of the Internet as a commercial 
marketplace and in consumers' and industry's responses to the privacy 
issues posed by the online collection of personal information. As you 
know, on July 13, 1999, the Commission issued a new report on these 
developments, Self-Regulation and Online Privacy: A Report to Congress 
(June 1999) (``1999 Report'').<SUP>11</SUP>
    The 1999 Report notes that, while industry leaders have 
demonstrated substantial effort and commitment to privacy protections 
online, much remains to be done to ensure the widespread adoption and 
implementation of fair information practices. As a result, the 
Commission has developed an agenda for the coming months to assess the 
progress of self-regulation in greater detail. For these reasons, the 
Report concludes that legislation to address online privacy is not 
appropriate at this time. Nonetheless, I want to briefly present the 
Commission's views on S. 809, entitled the ``Online Privacy Protection 
Act of 1999,'' which sets out one model to consider if there were to be 
legislation in the future.
    S. 809 would require commercial Web sites to implement a framework 
of privacy protections that reflects the core fair information 
practices of notice, choice, access, and security. The bill combines 
government enforcement with incentives for effective self-regulation to 
protect consumers' online privacy.<SUP>12</SUP> It encourages industry 
participation in the process of developing information practice 
standards. The bill's safe harbor provision allows industry groups the 
flexibility to craft information practice guidelines that are sensitive 
to sector-specific concerns and technological developments, and to 
submit those guidelines for government approval. Once guidelines are 
approved, companies adhering to the guidelines are deemed in compliance 
with the bill's requirements as well. Because it reflects fair 
information practices and contains significant incentives for self-
regulation, S. 809 would be a useful template for any online privacy 
legislation. We are pleased to work with the Committee as it continues 
to examine online privacy protections.

           II. THE CURRENT STATE OF ONLINE PRIVACY REGULATION

    The Commission's 1999 Report assesses the progress made in self-
regulation to protect consumers' online privacy since last June and 
sets out an agenda of Commission actions in the coming year to 
encourage industry's full implementation of online privacy protections. 
I am pleased to present the 1999 Report's findings to the Committee.
    The Commission believes that self-regulation is the least intrusive 
and most efficient means to ensure fair information practices online, 
given the rapidly evolving nature of the Internet and computer 
technology. During the past year the Commission has been monitoring 
self-regulatory initiatives, and the Commission's 1999 Report finds 
that there has been notable progress. Two new industry-funded surveys 
of commercial Web sites suggest that online businesses are providing 
significantly more notice of their information practices than they were 
last year. Sixty-six percent of the sites in the Georgetown Internet 
Privacy Policy Survey (''GIPPS'') <SUP>13</SUP> post at least one 
disclosure about their information practices.<SUP>14</SUP> Forty-four 
percent of these sites post privacy policy notices.<SUP>15</SUP> 
Although differences in sampling methodology prevent direct comparisons 
between the GIPPS findings and the Commission's 1998 
results,<SUP>16</SUP> the GIPPS Report does demonstrate the real 
progress industry has made in giving consumers notice of at least some 
information practices. Similarly, 93% of the sites in the recent study 
commissioned by the Online Privacy Alliance (``OPA Study'') provide at 
least one disclosure about their information practices.<SUP>17</SUP> 
This, too, represents continued progress since last year, when 71% of 
the sites in the Commission's 1998 ``Most Popular'' sample posted an 
information practice disclosure.<SUP>18</SUP>
    The new survey results show, however, that, despite the laudable 
efforts of industry leaders, significant challenges remain. The vast 
majority of the sites in both the GIPPS and OPA surveys collect 
personal information from consumers online.<SUP>19</SUP> By contrast, 
only 10% of the sites in the GIPPS sample,<SUP>20</SUP> and only 22% of 
the sites in the OPA study,<SUP>21</SUP> are implementing all four 
substantive fair information practice principles of Notice/Awareness, 
Choice/Consent, Access/Participation, and Security/
Integrity.<SUP>22</SUP> In light of these results, the Commission 
believes that further improvement is required to effectively protect 
consumers' online privacy.
    In the Commission's view, the emergence of online privacy seal 
programs is a particularly promising development in self-regulation. 
Here, too, industry faces a considerable challenge. TRUSTe, launched 
nearly two years ago, currently has more than 500 licensees 
representing a variety of industries.<SUP>23</SUP> BBBOnLine, a 
subsidiary of the Council of Better Business Bureaus, which launched 
its privacy seal program for online businesses last March, currently 
has 54 licensees and more than 300 applications for 
licenses.<SUP>24</SUP> Several other online privacy seal programs are 
just getting underway.<SUP>25</SUP> Together, the online privacy seal 
programs currently encompass only a handful of all Web sites. It is too 
early to judge how effective these programs will ultimately be in 
serving as enforcement mechanisms to protect consumers' online privacy.

                            III. CONCLUSION

    The self-regulatory initiatives discussed above, and described in 
greater detail in the 1999 Report, reflect industry leaders' 
substantial effort and commitment to fair information practices. They 
should be commended for these efforts.
    In addition, companies like IBM, Microsoft and Disney, which have 
recently announced, among other things, that they will forgo 
advertising on sites that do not adhere to fair information practices 
should be recognized for their efforts, which we hope will be emulated 
by their colleagues. Similarly, the Direct Marketing Association (DMA) 
is now requiring its members to follow a set of consumer privacy 
protection practices, including providing notice and an opportunity to 
opt-out, when identifying information is shared with other marketers, 
and to use the DMA's two national services for removing consumers' 
names from marketing lists.I11Enforcement mechanisms that go beyond 
self-assessment are also gradually being implemented by the seal 
programs. Only a small minority of commercial Web sites, however, have 
joined these programs to date. Similarly, although the results of the 
GIPPS and OPA studies show that many online companies now understand 
the business case for protecting consumer privacy, they also show that 
the implementation of fair information practices is not widespread 
among commercial Web sites.
    As stated previously, the Commission believes that legislation to 
address online privacy is not appropriate at this time. Yet, we also 
believe that industry faces some substantial challenges. Specifically, 
the present challenge is to educate those companies which still do not 
understand the importance of consumer privacy and to create incentives 
for further progress toward effective, widespread implementation.
    First, industry groups must continue to encourage widespread 
adoption of fair information practices. Second, industry should focus 
its attention on the substance of web site information practices, 
ensuring that companies adhere to the core privacy principles discussed 
earlier. It may also be appropriate, at some point in the future, for 
the FTC to examine the online privacy seal programs and report to 
Congress on whether these programs provide effective privacy 
protections for consumers.
    Finally, industry must work together with government and consumer 
groups to educate consumers about privacy protection on the Internet. 
The ultimate goal of such efforts, together with effective self-
regulation, will be heightened consumer acceptance and confidence. 
Industry should also redouble its efforts to develop effective 
technology to provide consumers with tools they can use to safeguard 
their own privacy online.
    The Commission has developed an agenda to address online privacy 
issues throughout the coming year as a way of encouraging and, 
ultimately, assessing further progress in self-regulation to protect 
consumer online privacy:
    <bullet> The Commission will hold a public workshop on ``online 
profiling,'' the practice of aggregating information about consumers' 
preferences and interests gathered primarily by tracking their 
movements online. The workshop, jointly sponsored by the U.S. 
Department of Commerce, will examine online advertising firms' use of 
tracking technologies to create targeted, user profile-based 
advertising campaigns.
    <bullet> The Commission will hold a public workshop on the privacy 
implications of electronic identifiers that enhance Web sites' ability 
to track consumers' online behavior.
    <bullet> In keeping with its history of fostering dialogue on 
online privacy issues among all stakeholders, the Commission will 
convene task forces of industry representatives and privacy and 
consumer advocates to develop strategies for furthering the 
implementation of fair information practices in the online environment.

         LOne task force will focus upon understanding the costs and 
        benefits of implementing fair information practices online, 
        with particular emphasis on defining the parameters of the 
        principles of consumer access to data and adequate security.
         LA second task force will address how incentives can be 
        created to encourage the development of privacy-enhancing 
        technologies, such as the World Wide Web Consortium's Platform 
        for Privacy Preferences (P3P).

    <bullet> The Commission, in partnership with the U.S. Department of 
Commerce, will promote private sector business education initiatives 
designed to encourage new online entrepreneurs engaged in commerce on 
the Web to adopt fair information practices.
    <bullet> Finally, the Commission believes it is important to 
continue to monitor the progress of self-regulation, to determine 
whether the self-regulatory programs discussed in the 1999 Report 
fulfill their promise. To that end, the Commission will conduct an 
online survey to reassess progress in Web sites' implementation of fair 
information practices, and will report its findings to Congress.
    The Commission is committed to the goal of full implementation of 
effective protections for online privacy in a manner that promotes a 
flourishing online marketplace, and looks forward to working with the 
Subcommittee as it considers the Commission's 1999 Report.
                               __________

                                ENDNOTES

    1. The Commission vote to issue this testimony was 3-1, with 
Commissioner Anthony concurring in part and dissenting in part 
Commissioner Anthony's statement is attached to the testimony. My oral 
testimony and responses to questions you may have reflect my own views 
and are not necessarily the views of the Commission or any 
Commissioner.
    2. 15 U.S.C. Sec. 45(a).
    3. The Commission does not have criminal law enforcement authority. 
Further, certain entities, such as banks, savings and loan 
associations, and common carriers, as well as the business of insurance 
are wholly or partially exempt from Commission jurisdiction. See 
Section 5(a)(2) of the FTC Act, 15 U.S.C. Sec. 45(a)(2), and the 
McCarran-Ferguson Act, 15 U.S.C. Sec. 1012(b).
    4. 15 U.S.C. Sec. 46(a). However, the Commission's authority to 
conduct studies and prepare reports relating to the business of 
insurance is limited. According to 15 U.S.C. Sec. 46(a): ``The 
Commission may exercise such authority only upon receiving a request 
which is agreed to by a majority of the members of the Committee on 
Commerce, Science, and Transportation of the Senate or the Committee on 
Energy and Commerce of the House of Representatives. The authority to 
conduct any such study shall expire at the end of the Congress during 
which the request for such study was made.''
    The Commission also has responsibility under approximately forty 
additional statutes governing specific industries and practices. These 
include, for example, the Truth in Lending Act, 15 U.S.C. 
Sec. Sec. 1601 et. seq., which mandates disclosures of credit terms, 
and the Fair Credit Billing Act, 15 U.S.C. Sec. Sec. 1666 et. seq., 
which provides for the correction of billing errors on credit accounts. 
The Commission also enforces over 30 rules governing specific 
industries and practices, eg, the Used Car Rule, 16 C.F.R. Part 455, 
which requires used car dealers to disclose warranty terms via a window 
sticker; the Franchise Rule, 16 C.F.R. Part 436, which requires the 
provision of information to prospective franchisees; and the 
Telemarketing Sales Rule, 16 C.F.R. Part 310, which defines and 
prohibits deceptive telemarketing practices and other abusive 
telemarketing practices.
    5. The Commission held its first public workshop on online privacy 
in April 1995. In a series of hearings held in October and November 
1995, the Commission examined the implications of globalization and 
technological innovation for competition issues and consumer protection 
issues, including privacy concerns. At a public workshop held in June 
1996, the Commission examined Web site practices in the collection, 
use, and transfer of consumers' personal information; self-regulatory 
efforts and technological developments to enhance consumer privacy; 
consumer and business education efforts; the role of government in 
protecting online information privacy; and special issues raised by the 
online collection and use of information from and about children. The 
Commission held a second workshop in June 1997 to explore issues raised 
by individual reference services, as well as issues relating to 
unsolicited commercial e-mail, online privacy generally, and children's 
online privacy.
    These efforts have served as a foundation for dialogue among 
members of the information industry and online business community, 
government representatives, privacy and consumer advocates, and experts 
in interactive technology. Further, the Commission and its staff have 
issued reports describing various privacy concerns in the electronic 
marketplace. See, e.g., Individual Reference Services: A Federal Trade 
Commission Report to Congress (December 1997); FTC Staff Report: Public 
Workshop on Consumer Privacy on the Global Information Infrastructure 
(December 1996); FTC Staff Report: Anticipating the 21st Century: 
Consumer Protection Policy in the New High-Tech, Global Marketplace 
(May 1996).
    The Commission has also brought enforcement actions under Section 5 
of the Federal Trade Commission Act to address deceptive online 
information practices. In 1998 the Commission announced its first 
Internet privacy case, in which GeoCities, operator of one of the most 
popular sites on the World Wide Web, agreed to settle Commission 
charges that it had misrepresented the purposes for which it was 
collecting personal identifying information from children and adults 
through its online membership application form and registration forms 
for children's activities on the GeoCities site. The settlement, which 
was made final in February 1999, prohibits GeoCities from 
misrepresenting the purposes for which it collects personal identifying 
information from or about consumers, including children. It also 
requires GeoCities to post a prominent privacy notice on its site, to 
establish a system to obtain parental consent before collecting 
personal information from children, and to offer individuals from whom 
it had previously collected personal information an opportunity to have 
that information deleted. GeoCities, Docket No C-3849 (Feb 12, 1999) 
(Final Decision and Order available at http://www.ftc.gov/os/1999/9902/
9823015d&o.htm)
    In its second Internet privacy case, the Commission recently 
announced for public comment a settlement with Liberty Financial 
Companies, Inc., operator of the Young Investor Web site. The 
Commission alleged, among other things, that the site falsely 
represented that personal information collected from children, 
including information about family finances, would be maintained 
anonymously. In fact, this information was maintained in identifiable 
form. The consent agreement would require Liberty Financial to post a 
privacy policy on its children's sites and obtain verifiable consent 
before collecting personal identifying information from children. 
Liberty Financial, Case No. 9823522 (proposed consent agreement 
available at http://www.ftc.gov/os/1999/9905/1btyord.htm.)
    Since the fall of 1994, the Federal Trade Commission has brought 91 
law enforcement actions against over 200 companies and individuals to 
halt fraud and deception on the Internet. The FTC has not only attacked 
traditional schemes that have moved online, like pyramid and credit 
repair schemes, but in addition, the FTC has brought suit against modem 
hijacking, fraudulent e-mail marketing, and other hi-tech schemes that 
take unique advantage of the Internet. The Commission pioneered the 
``Surf Day'' concept and has searched the Net in tandem with law 
enforcement colleagues around the world, targeting specific problems 
and warning consumers and new entrepreneurs about what the law 
requires. The Commission has also posted ``teaser pages'' online, i.e., 
fake scam sites that give consumers education just when they are about 
to fall victim to an Internet ruse.
    6. The Report is available on the Commission's Web site at http://
www.ftc.gov/reports/privacy3/index.htm.
    7. 1998 Report at 41.
    8. Title XIII, Omnibus Consolidated and Emergency Supplemental 
Appropriations Act, 1999, Pub L No 105-277, 112 Stat 2681,____ (Oct. 
21, 1998), reprinted at 144 Cong Rec H11240-42 (Oct. 19, 1998). The Act 
requires, inter alia, that operators of Web sites directed to children 
under 13 or who knowingly collect personal information from children 
under 13 on the Internet: (1) provide parents notice of their 
information practices; (2) obtain prior, verifiable parental consent 
for the collection, use, and/or disclosure of personal information from 
children (with certain limited exceptions); (3) upon request, provide a 
parent with the ability to review the personal information collected 
from his/her child; (4) provide a parent with the opportunity to 
prevent the further use of personal information that has already been 
collected, or the future collection of personal information from that 
child; (5) limit collection of personal information for a child's 
online participation in a game, prize offer, or other activity to 
information that is reasonably necessary for the activity; and (6) 
establish and maintain reasonable procedures to protect the 
confidentiality, security, and integrity of the personal information 
collected.
    9. 64 Fed Reg. 22750 (1999) (to be codified at 16 C.F.R. pt 312).
    10. Commission testimony on Consumer Privacy on the World Wide Web 
before the House Subcommittee on Telecommunications, Trade and Consumer 
Protection, Committee on Commerce (July 21, 1998) (available at http://
www.ftc.gov/os/1998/9807/privac98.htm). The Commission also presented a 
legislative model that Congress could consider in the event that then-
nascent self-regulatory efforts did not result in widespread 
implementation of self-regulatory protections. Id. at 5-7.
    11. A copy of the Report is attached as an appendix. The Report is 
available on the Commission's Web site at www.ftc.gov/reports/
privacy99/index.html. In addition, the Commission testified on July 13, 
1999 before the Subcommittee on Telecommunications, Trade, and Consumer 
Protection of the House Committee on Commerce on Self-Regulation and 
Privacy Online (www.ftc.gov/os/1999/9907/pt071399.htm). The Commission 
also presented testimony on July 21, 1999 before the Subcommittee on 
Financial Institutions and Consumer Credit of the House Committee on 
Banking and Financial Services on Financial Privacy, the Fair Credit 
Reporting Act, and H.R. 10 (www.ftc.gov/os/1999/9907/fcrahr10.htm). The 
Commission vote to issue that testimony and the Report was 3-1, with 
Commissioner Anthony concurring in part and dissenting in part 
Commissioner Anthony's statement and Commissioner Swindle's concurring 
statement were attached to the documents.
    12. This aspect of the bill is consistent with the model 
recommended by the Commission in its July 21, 1998 testimony.
    13. The report is available at http://www.msb.edu/faculty/culnanm/
gippshome.html [hereinafter ``GIPPS Report'']. The following analysis 
is based upon the Commission's review of the GIPPS Report itself; 
Commission staff did not have access to the underlying GIPPS data.
    14. GIPPS Report, App. A at 5.
    15. Id.
    16. The GIPPS Report discusses findings on the information 
practices of 361 Web Sites drawn from a list of the 7,500 busiest 
servers on the World Wide Web. The list, a ranking of servers by number 
of unique visitors for the month of January 1999, was compiled by Media 
Metrix, a site traffic measurement company. As larger sites are more 
likely to have multiple servers, the largest sites on the Web had a 
greater chance of being selected for inclusion in the sample drawn for 
the GIPPS survey. See GIPPS Report, App. A at 2; App. B at 9 n.iii. The 
Commission's 1998 Comprehensive Sample was drawn at random from all 
U.S., ``.com'' sites in the Dun & Bradstreet Electronic Commerce 
Registry, with the exception of insurance industry sites. 1998 Report, 
App. A at 2. Unlike the Media Metrix list used in the GIPPS sample, the 
Dun & Bradstreet Registry does not rank sites on the basis of user 
traffic.
    17. Online Privacy Alliance, Privacy and the Top 100 Sites: A 
Report to the Federal Trade Commission at 3, 8 (1999) (available at 
http://www.msb.edu/faculty/culnanm/gippshome.html). The following 
analysis is based upon the Commission's review of the OPA Study report 
itself; Commission staff did not have access to the underlying OPA 
Study data.
    18. 1998 Report at 28.
    19. Ninety-three percent of the sites in the GIPPS survey, GIPPS 
Report, App. A at 3, and 99% of the sites in the OPA Study, OPA Study 
at 3, 5, collect personal information from consumers.
    20. The GIPPS results show that thirty-six sites in the sample (or 
10%) posted at least one survey element, or disclosure, for each of the 
four substantive fair information practices. GIPPS Report at 10 and 
App. A at 12 (Table 8C). Thirty-two of these sites (or 89%) also posted 
contact information. Id. Georgetown University Professor Mary Culnan, 
author of the GIPPS Report, reports the number of sites posting 
disclosures for the four substantive fair information practice 
principles and for contact information in two additional ways: as a 
percentage of sites in the sample that collect at least one type of 
personal information (95%); and as a percentage of sites in the sample 
that both collect at least one type of personal information and post a 
disclosure (13.6%). GIPPS Report, App. A at 12 (Table 8C).
    21. Twenty-two sites in the OPA Study (or 22%) posted at least one 
survey element, or disclosure, for each of the four substantive fair 
information practices. OPA Study at 9-10 and App. A at 10 (Table 6C). 
Nineteen of these sites (or 19%) also posted contact information. Id. 
Professor Culnan also reports the number of sites posting disclosures 
for the four substantive fair information practice principles in two 
additional ways: as a percentage of sites in the sample that collect at 
least one type of personal information (222%); and as a percentage of 
sites in the sample that both collect at least one type of personal 
information and post a disclosure (237%). OPA Study, App. A at 10 
(Table 6C).
    22. The Commission's 1998 Report discussed the fair information 
practice principles developed by government agencies in the United 
States, Canada, and Europe since 1973, when the United States 
Department of Health, Education, and Welfare released its seminal 
report on privacy protections in the age of data collection, Records, 
Computers, and the Rights of Citizens. 1998eport at 7-11. In addition 
to the HEW Report, the major reports setting forth the core fair 
information practice principles are: The U.S. Privacy Protection Study 
Commission, Personal Privacy in an Information Society (1977); 
Organization for Economic Cooperation and Development, OECD Guidelines 
on the Protection of Privacy and Transborder Flows of Personal Data 
(1980); U.S. Information Infrastructure Task Force, Information Policy 
Committee, Privacy Working Group, Privacy and the National Information 
Infrastructure: Principles for Providing and Using Personal Information 
(1995); U.S. Dept of Commerce, Privacy and the NII: Safeguarding 
Telecommunications-Related Personal Information (1995); The European 
Union Directive on the Protection of Personal Data (1995); and the 
Canadian Standards Association, Model Code for the Protection of 
Personal Information: A National Standard of Canada (1996). The 1998 
Report identified the core principles of privacy protection common to 
these government reports, guidelines, and model codes: (1) Notice/
Awareness; (2) Choice/Consent; (3) Access/Participation; (4) Integrity/
Security; and (5) Enforcement/Redress 1998 Report at 7-11.
    The Notice/Awareness principle is the most fundamental: consumers 
must be given notice of a company's information practices before 
personal information is collected from them. The scope and content of 
the notice will vary with a company's substantive information 
practices, but the notice itself is essential. The other core 
principles have meaning only if a consumer has notice of an entity's 
information practices and his or her rights with respect thereto. Id. 
at 7.
    The Choice/Consent principle requires that consumers be given 
options with respect to whether and how personal information collected 
from them may be used. Although choice in this context has been 
traditionally thought of as either ``opt-in'' (prior consent for use of 
information) or ``opt-out'' (limitation upon further use of 
information), id. at 9, interactive media hold the promise of making 
this paradigm obsolete through developments in technology. Id. The 
Access/Participation principle requires that consumers be given 
reasonable access to information collected about them and the ability 
to contest that data's accuracy and completeness. Id.
    The Integrity/Security principle requires that companies take 
reasonable steps to assure that information collected from consumers is 
accurate and secure from unauthorized use. Id. at 10. Finally, the 
effectiveness of the foregoing privacy protections is dependent upon 
implementation of the Enforcement/Redress principle, which requires 
governmental and/or self-regulatory mechanisms to impose sanctions for 
noncompliance with fair information practices. Id. at 10-11. The 1998 
Report assessed existing self-regulatory efforts in light of these fair 
information practice principles.
    23. Information about TRUSTe is taken from materials posted on 
TRUSTe's Web site, http://www.TRUSTe.org, and from public statements by 
TRUSTe staff. Several hundred additional companies have joined the 
TRUSTe program but are not yet fully licensed. See ``TRUSTe Testifies 
Before House Judiciary Committee,'' May 27, 1999 (press release 
available at http://www.TRUSTe.org/about/about--committee.html).
    24. Information about BBBOnline is taken from materials posted on 
the BBBOnline Web site, located at http://www.bbbonline.com, and from 
other public documents and statements by BBBOnLine staff.
    25. CPA WebTrust, the online privacy seal program created by the 
American Institute of Certified Public Accountants (AICPA) and the 
Canadian Institute of Chartered Accountants, currently has 19 licensees 
(program description available at http://www.cpawebtrust.org). The 
Electronic Software Rating Board's ESRB Privacy Online program was 
launched on June 1, 1999 (description available at http://
www.esrb.org).
                               __________
                                                 Microsoft,
                                    Washington, DC., July 30, 1999.
Hon. Richard H. Bryan,
U.S. Senate,
Washington, DC.

    Re: The Communications Subcommittee's July 27 Hearing on Privacy on 
the Internet

    Dear Senator Bryan: This is to respond to a statement made by the 
America Online witness at the Subcommittee's July 27 hearing on 
``Privacy on the Internet.'' The statement was made in response to your 
question about AOL's current dispute with Microsoft and others in the 
Internet community over ``instant messaging'' services.
    We understand that you asked AOL witness Jill Lesser whether her 
company's efforts to block the interoperation of AOL Instant Messenger 
with new instant messaging services such as our own--thereby closing 
off the AOL service from competing services--contradict AOL's argument 
that cable operators should open their new digital networks to 
competing internet service providers. The AOL witness defended here 
company's actions by alleging, among other things, that Microsoft had 
not spoken to AOL about our desire to foster interoperability in this 
area.
    Ms. Lesser might not have had all of the facts at her disposal. As 
far back as late 1997, Microsoft and AOL personnel engaged in lengthy 
discussions about Microsoft's interest in working with AOL on new, 
interoperable instant messaging technologies. Those discussions did not 
bear fruit. Subsequently, Microsoft personnel participated in, and 
continue to participate in, an undertaking by the Internet Engineering 
task force to develop interoperability standards for instant messaging. 
IETF is one of the Internet's recognized standards bodies, and its 
actions are based on consensus among interested parties from the 
Internet community. With respect to instant messaging, we understand 
that AOL personnel had been invited on several occasions to participate 
in IETF deliberations on interoperability, but that the company had 
opted not to join.
    Although the AOL misstatement does not relate to Internet privacy, 
we respectfully request that you ask for this letter to be inserted 
into the record of the hearing so that it accurately reflects what has 
transpired on this separate matter. Thank you.
            Sincerely,
                                  Jack Krumholtz, Director,
              Federal Government Affairs Senior Corporate Attorney.
                               __________

        Self-Regulation and Privacy Online: A Report to Congress

                     I. INTRODUCTION AND BACKGROUND

    In June 1998 the Federal Trade Commission issued Privacy Online: A 
Report to Congress (``1998 Report''), an examination of the information 
practices of commercial sites on the World Wide Web and of industry's 
efforts to implement self-regulatory programs to protect consumers' 
online privacy.<SUP>1</SUP> Based in part on its extensive survey of 
over 1400 commercial Web sites, the Commission concluded that effective 
self-regulation had not yet taken hold.<SUP>2</SUP> In both the 1998 
Report and in subsequent testimony before Congress, the Commission 
raised concerns about protecting the privacy of children's personal 
information online and recommended that Congress pass legislation to 
address these concerns.<SUP>3</SUP> In its testimony, the Commission 
also raised concerns about the progress of industry self-regulation, 
but noted that industry leaders had indicated their commitment to work 
toward self-regulatory solutions. Accordingly, the Commission did not 
recommend legislative action in the area of online privacy for 
consumers generally, and instead urged industry to focus on developing 
and implementing broad-based and effective self-regulatory 
programs.<SUP>4</SUP>
    In the ensuing year, there have been important developments both in 
the growth of the Internet as a commercial marketplace and in 
consumers' and industry's responses to the privacy issues posed by the 
online collection of personal information. The Commission has examined 
these developments and now presents its views on the progress made in 
self-regulation since last June, as well as its plans to encourage 
industry's full implementation of online privacy protections.

A. The Growth of Electronic Commerce
    Commerce on the World Wide Web is booming. The United States 
Department of Commerce recently announced that online sales tripled 
from approximately $3 billion in 1997 to approximately $9 billion in 
1998.<SUP>5</SUP> Online revenues of North American retailers in the 
first half of 1998 were approximately $4.4 billion.<SUP>6</SUP> Online 
advertising revenues have grown from $906.5 million in 1996 to $1.92 
billion in 1998.<SUP>7</SUP> In 1998, revenues for Internet advertising 
exceeded those for advertising on outdoor billboards.<SUP>8</SUP> It is 
estimated that almost 80 million adults in the United States are using 
the Internet.<SUP>9</SUP> They are finding a vast array of products, 
services, and information in a marketplace that has experienced 
exponential growth since its beginnings only a few years ago.
    The Web is also a rich source of information about online 
consumers. Web sites collect much personal information both explicitly, 
through registration pages, survey forms, order forms, and online 
contests, and by using software in ways that are not obvious to online 
consumers. Through ``cookies'' and tracking software, Web site owners 
are able to follow consumers' online activities and gather information 
about their personal interests and preferences. These data have proved 
extremely valuable to online companies because they not only enable 
merchants to target market products and services that are increasingly 
tailored to their visitors' interests, but also permit companies to 
boost their revenues by selling advertising space on their Web 
sites.<SUP>10</SUP> In fact, an entire industry has emerged to market a 
variety of software products designed to assist Web sites in collecting 
and analyzing visitor data and in serving targeted 
advertising.<SUP>11</SUP>

B. Consumer Privacy Concerns
    Notwithstanding the substantial benefits that consumers may derive 
from using the Internet, consumers still care deeply about the privacy 
of their personal information in the online marketplace. Eighty-seven 
percent of U.S. respondents in a recent survey of experienced Internet 
users stated that they were somewhat or very concerned about threats to 
their privacy online.<SUP>12</SUP> Seventy percent of the respondents 
in a recent national survey conducted for the National Consumers League 
reported that they were uncomfortable providing personal information to 
businesses online.<SUP>13</SUP> Consumers are particularly concerned 
about potential transfers to third parties of the personal information 
they have given to online businesses.<SUP>14</SUP> It is not surprising 
that only about one-quarter of Internet users go beyond merely browsing 
for information to actually purchasing goods and services 
online.<SUP>15</SUP>

            II. THE COMMISSION'S APPROACH TO ONLINE PRIVACY

    For almost as long as there has been an online marketplace, the 
Commission has been deeply involved in addressing online privacy 
issues.<SUP>16</SUP> The Commission's goal has been to understand this 
new marketplace and its information practices, to assess the impact of 
these practices on consumers, and to encourage and facilitate effective 
self-regulation as the preferred approach to protecting consumer 
privacy online. The Commission's efforts have been based on the belief 
that greater protection of personal privacy on the Web will not only 
benefit consumers, but also benefit industry by increasing consumer 
confidence and ultimately their participation in the online 
marketplace.
    The Commission's 1998 Report discussed the fair information 
practice principles developed by government agencies in the United 
States, Canada, and Europe since 1973, when the United States 
Department of Health, Education, and Welfare released its seminal 
report on privacy protections in the age of data collection, Records, 
Computers, and the Rights of Citizens.<SUP>17</SUP> The 1998 Report 
identified the core principles of privacy protection common to the 
government reports, guidelines, and model codes that have emerged since 
1973: (1) Notice/ Awareness; (2) Choice/Consent; (3) Access/
Participation; (4) Integrity/Security; and (5) Enforcement/
Redress.<SUP>18</SUP>
    The Notice/Awareness principle is the most fundamental: consumers 
must be given notice of a company's information practices before 
personal information is collected from them. The scope and content of 
the notice will vary with a company's substantive information 
practices, but the notice itself is essential. The other core 
principles have meaning only if a consumer has notice of an entity's 
information practices and his or her rights with respect thereto.
    The other core principles are briefly summarized here. The Choice/
Consent principle requires that consumers be given options with respect 
to whether and how personal information collected from them may be 
used.<SUP>19</SUP> The Access/Participation principle requires that 
consumers be given reasonable access to information collected about 
them and the ability to contest that data's accuracy and 
completeness.<SUP>20</SUP> The Integrity/Security principle requires 
that companies take reasonable steps to assure that information 
collected from consumers is accurate and secure from unauthorized 
use.<SUP>21</SUP> Finally, the effectiveness of the foregoing privacy 
protections is dependent upon implementation of the Enforcement/Redress 
principle, which requires governmental and/or self-regulatory 
mechanisms to impose sanctions for noncompliance with fair information 
practices.<SUP>22</SUP>
    The 1998 Report assessed existing self-regulatory efforts in light 
of these fair information practice principles and set out the findings 
of the Commission's extensive survey of commercial Web sites' 
information practices. The survey found that, although the vast 
majority of sites collected personal information from consumers--92% in 
the sample representing all U.S.-based commercial sites likely to be of 
interest to consumers--only 14% posted any disclosure regarding their 
information practices, and only 2% posted a comprehensive privacy 
policy.<SUP>23</SUP> The results of the Commission's census of the 
busiest sites on the World Wide Web were more positive: while 97% 
collected personal information, 71% posted a disclosure and 44% posted 
a comprehensive privacy policy.<SUP>24</SUP> The Commission's survey of 
sites directed to children revealed that 89% collected personal 
information from children, 24% posted privacy policies and only 1% 
required parental consent prior to the collection or disclosure of 
children's information.<SUP>25</SUP>
    The 1998 Report concluded that an effective self-regulatory system 
had yet to emerge and that additional incentives were required in order 
to ensure that consumer privacy would be protected. Noting its 
particular concern about the vulnerability of children, the Commission 
recommended that Congress adopt legislation setting forth standards for 
the online collection of information from children. Furthermore, in 
Congressional testimony last July, the Commission deferred judgment on 
the need for legislation to protect the online privacy of adult 
consumers, but presented a legislative model that Congress could 
consider if industry failed to develop and implement effective self-
regulatory measures.<SUP>26</SUP>

                      III. CONGRESSIONAL RESPONSE

    On October 21, 1998, the President signed into law the Children's 
Online Privacy Protection Act of 1998 (``COPPA'').<SUP>27</SUP> The 
Act, passed by Congress just four months after the Commission's 1998 
Report, requires that operators of Web sites directed to children under 
13 or who knowingly collect personal information from children under 13 
on the Internet: (1) provide parents notice of their information 
practices; (2) obtain prior, verifiable parental consent for the 
collection, use, and/or disclosure of personal information from 
children (with certain limited exceptions); (3) upon request, provide a 
parent with the ability to review the personal information collected 
from his/her child; (4) provide a parent with the opportunity to 
prevent the further use of personal information that has already been 
collected, or the future collection of personal information from that 
child; (5) limit collection of personal information for a child's 
online participation in a game, prize offer, or other activity to 
information that is reasonably necessary for the activity; and (6) 
establish and maintain reasonable procedures to protect the 
confidentiality, security, and integrity of the personal information 
collected.<SUP>28</SUP> The Act directs the Commission to adopt within 
one year regulations implementing these requirements.<SUP>29</SUP>
    On April 20, 1999, the Commission issued a proposed Children's 
Online Privacy Protection Rule and is now in the midst of this 
rulemaking effort.<SUP>30</SUP> The proposed rule requires Web site 
operators to post prominent links on their Web sites to a notice of how 
they collect and use personal information from children under the age 
of 13, and sets out, among other things, standards for complying with 
the Act's notice, parental consent, and access 
requirements.<SUP>31</SUP> As required by the COPPA, the proposed rule 
also includes a safe harbor provision under which industry groups or 
others may seek Commission approval for self-regulatory guidelines. Web 
site operators who participate in such approved programs may be subject 
to the review and disciplinary procedures provided in those guidelines 
in lieu of formal Commission investigation and law 
enforcement.<SUP>32</SUP> The safe harbor would serve both as an 
incentive for industry self-regulation, and as a means of ensuring that 
the Act's protections are implemented in a manner sensitive to 
industry-specific concerns and developments in technology. Commission 
staff is reviewing comments on the proposed rule and will hold a public 
workshop this month to solicit further discussion and comment on the 
issue of verifiable parental consent. The Commission will issue a final 
rule this fall.

         IV. THE STATE OF ONLINE PRIVACY SELF-REGULATION TODAY

    As noted in the Commission's 1998 Report, self-regulation is the 
least intrusive and most efficient means to ensure fair information 
practices, given the rapidly evolving nature of the Internet and 
computer technology. During the past year the Commission has been 
monitoring self-regulatory initiatives to address the privacy concerns 
of online consumers. In some areas, there has been much progress. The 
results of two new surveys of commercial Web sites suggest that online 
businesses are providing significantly more notice of their information 
practices than they were last year. In addition, several significant 
and promising self-regulatory programs, including privacy seal 
programs, are underway.
    There are also major challenges for self-regulation. The new survey 
results show that, despite the laudable efforts of industry leaders, 
the vast majority of even the busiest Web sites have not implemented 
all four substantive fair information practice principles of Notice/
Awareness, Choice/Consent, Access/Participation, and Security/
Integrity. In addition, the seal programs discussed below currently 
encompass only a handful of all Web sites. Thus, it is too early to 
judge how effective these programs will ultimately be in serving as 
enforcement mechanisms to protect consumers' online privacy.
    The Commission believes that there are additional steps that it can 
take, together with industry, and consumer and privacy groups, to build 
upon the progress in self-regulation to date and to work toward full 
implementation of effective online privacy protections. Some recent 
developments and plans for future work to achieve this goal are 
discussed below.

A. Recent Assessments of Web Sites' Compliance With Fair Information 
        Practice Principles
    Professor Mary Culnan of the McDonough School of Business at 
Georgetown University recently announced the results of two industry-
funded surveys of commercial Web sites, conducted during the week of 
March 8, 1999. The Georgetown Internet Privacy Policy Survey 
(``GIPPS'') <SUP>33</SUP> reports findings on the information practices 
of 361 Web sites drawn from a list of the 7,500 busiest servers on the 
World Wide Web.<SUP>34</SUP> Ninety-three percent of the sites in this 
survey collect personal information from consumers, and 66% post at 
least one disclosure about their information practices.<SUP>35</SUP> 
Forty-four percent of these sites post privacy policy 
notices.<SUP>36</SUP> Although differences in sampling methodology 
prevent direct comparisons between the GIPPS findings and the 
Commission's 1998 results,<SUP>37</SUP> the GIPPS Report does 
demonstrate the real progress industry has made in giving consumers 
notice of at least some information practices. On the other hand, only 
10% of the sites in the GIPPS sample are implementing all four 
substantive fair information practice principles of Notice/Awareness, 
Choice/Consent, Access/ Participation, and Security/
Integrity.<SUP>38</SUP> The GIPPS Report findings discussed above are 
summarized in Figure 1.
    Professor Culnan also conducted a census of the top 100 Web sites 
commissioned by the Online Privacy Alliance, a coalition of more than 
eighty online companies and trade associations that formed early in 
1998 to encourage self-regulation in this area (``OPA 
Study'').<SUP>39</SUP> As is true of the GIPPS sample, nearly all (99%) 
of the sites in the OPA Study collect personal information from 
consumers. Ninety-three percent of these sites provide at least one 
disclosure about their information practices, while 81% of these sites 
post privacy policy notices.<SUP>40</SUP> This represents continued 
progress since last year, when 71% of the sites in the Commission's 
1998 ``Most Popular'' sample posted an information practice 
disclosure.<SUP>41</SUP> Only 22% of the sites in the OPA study address 
all four of the substantive fair information practice principles of 
Notice/Awareness, Choice/Consent, Access/Participation and Security/
Integrity, however.<SUP>42</SUP> These OPA Study findings are 
summarized in Figure 1.

                                Figure 1
------------------------------------------------------------------------
                                                 1999 GIPPS    1999 OPA
                                                   Report       Study
------------------------------------------------------------------------
Number of sites in sample.....................          361          100
Number of sites collecting personal                     337           99
 information..................................
Percent of sites in sample collecting personal          93%          99%
 information..................................
Number of sites posting any privacy disclosure          238           93
Percent of sites in sample posting any privacy          66%          93%
 disclosure...................................
Number of sites posting a privacy policy                157           81
 notice.......................................
Percent of sites in sample posting a privacy            44%          81%
 policy notice................................
Number of sites posting a disclosure for all             36           22
 four substantive fair information practice
 principles...................................
Percent of sites in sample posting a                    10%          22%
 disclosure for all four substantive fair
 information  practice principles.............
------------------------------------------------------------------------

    The GIPPS and OPA Study results suggest that the majority of the 
more frequently-visited Web sites are implementing the basic Notice/
Awareness principle by disclosing at least some of their information 
practices. The findings also indicate, however, that only a relatively 
small percentage of these sites is disclosing information practices 
that address all four substantive fair information practice principles. 
Both studies indicate that there has been real progress since the 
Commission issued its 1998 Report. Nevertheless, the low percentage of 
sites in both studies that address all four substantive fair 
information practice principles demonstrates that further improvement 
is required to effectively protect consumers' online privacy.

B. The Online Privacy Alliance <SUP>43</SUP>
    On June 22, 1998, the Online Privacy Alliance (OPA), a coalition of 
industry groups, announced its Online Privacy Guidelines, which apply 
to individually identifiable information collected online from 
consumers.<SUP>44</SUP> Pursuant to these guidelines, OPA members agree 
to adopt and implement a posted privacy policy that provides 
comprehensive notice of their information practices. The notice 
includes a statement of what information is being collected from 
consumers and how it is being used; whether the information will be 
disclosed to third parties; consumers' choices regarding the 
collection, use and distribution of the information; data security 
measures; and the steps taken to ensure data quality and access to 
information. The OPA Guidelines also include provisions on choice, 
feasible consumer access to identifiable information, and data 
security, and call for self-enforcement mechanisms, such as online seal 
programs, that provide consumers with redress.
    The OPA Guidelines have been used by the leading privacy seal 
programs, which have adapted them to fit their own program 
requirements. Unlike the seal programs, however, the OPA does not 
monitor members' compliance or provide sanctions for noncompliance. The 
central focus of OPA's efforts since release of its Guidelines has been 
business education to promote widespread adoption of online privacy 
policies.

C. Seal Programs
    An encouraging development in the private sector's efforts toward 
self-regulation is the emergence of online seal programs. These 
programs require their licensees to abide by codes of online 
information practices and to submit to various types of compliance 
monitoring in order to display a privacy seal on their Web sites. Seal 
programs offer an easy way for consumers to identify Web sites that 
follow specified information practice principles, and for online 
businesses to demonstrate compliance with those principles.
            1. TRUSTe<SUP>45</SUP>
    TRUSTe, an independent, non-profit organization founded by the 
CommerceNet Consortium and the Electronic Frontier Foundation, was 
launched nearly two years ago, on June 10, 1997. The first online 
privacy seal program, TRUSTe currently has more than 500 licensees 
representing a variety of industries.<SUP>46</SUP> Since December 1998, 
TRUSTe's license agreement,<SUP>47</SUP> which governs licensees' 
collection and use of ``personally identifiable information,'' 
<SUP>48</SUP> has taken a more comprehensive approach to privacy by 
requiring licensees to follow standards for notice, choice, access and 
security based upon the OPA Guidelines. The license agreement also 
requires licensees to submit to monitoring and oversight by TRUSTe, as 
well as a complaint resolution procedure.
    The TRUSTe program includes third-party monitoring and periodic 
reviews of licensees' information practices to ensure compliance with 
program requirements. These reviews include ``Web Site reviews,'' in 
which TRUSTe examines and monitors changes in licensees' privacy 
statements and tracks unique identifiers in licensees' databases (a 
practice known as ``seeding'') to determine whether consumers' requests 
to be removed from those databases are being honored; and ``On-Site 
reviews'' in which a third-party auditing firm can be called in, should 
TRUSTe have reason to believe that a licensee is not in compliance with 
the terms of the license agreement. Licensees must provide consumers 
with a way to submit concerns regarding their information practices, 
and agree to respond to all reasonable inquiries within five days. 
TRUSTe also plays a part in resolving consumer complaints. TRUSTe 
provides for public reporting of complaints, and, in appropriate 
circumstances, will refer complaints to the Commission.
            2. BBBONline Privacy Seal Program <SUP>49</SUP>
    BBBOnLine, a subsidiary of the Council of Better Business Bureaus, 
launched its privacy seal program for online businesses on March 17, 
1999. Forty-two sites currently post BBBOnLine seals, and the program 
has received more than 300 applications. In order to be awarded the 
BBBOnLine Privacy Seal, applicants must post a privacy policy that 
comports with the program's information practice 
principles,<SUP>50</SUP> complete a ``Compliance Assessment 
Questionnaire,'' and must agree to participate in a consumer dispute 
resolution system and to submit to monitoring and review by 
BBBOnLine.<SUP>51</SUP>
    The BBBOnLine Privacy Seal Program covers ``individually 
identifiable information,'' <SUP>52</SUP> as well as ``prospect 
information,'' which is identifying, retrievable information that is 
collected by the company's Web site from one individual about 
another.<SUP>53</SUP> The BBBOnLine Privacy Seal Program's consumer 
complaint resolution procedure is bolstered by several compliance 
incentives, including public reporting of decisions, and suspension or 
revocation of the BBBOnLine seal, or referral to federal agencies, as 
sanctions for noncompliance. BBBOnLine has committed to adopting a 
third-party verification system, although this aspect of the program 
has not yet been implemented. The Commission looks forward to assessing 
BBBOnLine's enforcement mechanisms when they are fully in place.
            3. Other Seal Programs
    Several other seal programs have been developed or are under 
development. One is CPA WebTrust, created by the American Institute of 
Certified Public Accountants (``AICPA'') and the Canadian Institute of 
Chartered Accountants and announced in September 1997.<SUP>54</SUP> The 
CPA WebTrust program, which licenses the CPA WebTrust seal to 
qualifying certified public accountants, requires participating Web 
sites to disclose and adhere to stated business practices, maintain 
effective controls over the security and integrity of transactions, and 
to maintain effective controls to protect private customer information. 
Web sites are awarded the CPA WebTrust seal by certified public 
accountants who conduct quarterly audits to ensure compliance with the 
program's standards.
    Although primarily intended to provide assurance for consumers that 
a site displaying the seal is a legitimate business that will process 
transactions and protect sensitive information like credit card 
numbers, CPA WebTrust also has a privacy component. The information 
practice requirements in the latest version of the program, introduced 
in May 1999, conform to the OPA Guidelines. Currently, 19 Web sites 
have been awarded the CPA WebTrust seal.
    Industry sector-specific programs are also beginning to emerge. For 
example, in October 1998 the Interactive Digital Software Association 
(``IDSA'') adopted its own fair information practice guidelines for its 
members' Web sites.<SUP>55</SUP> In addition, on June 1, 1999, the 
Entertainment Software Rating Board (``ESRB''), an independent rating 
system for entertainment software and interactive games established by 
IDSA in 1994, launched ESRB Privacy Online.<SUP>56</SUP> This online 
seal program requires participants to adhere to information practice 
standards that parallel the IDSA guidelines.<SUP>57</SUP> The program 
monitors compliance through a verification system that includes 
unannounced audits and seeding. The program also includes a consumer 
online hotline for reporting privacy violations and alternative dispute 
resolution services to resolve consumer complaints.

                             V. CONCLUSION

    The self-regulatory initiatives described above, including the 
guidelines adopted by the OPA and the seal programs, reflect industry 
leaders' substantial effort and commitment to information practices. 
They should be commended for these efforts. Enforcement mechanisms that 
go beyond self-assessment are also gradually being implemented by the 
seal programs. Only a small minority of commercial Web sites, however, 
have joined these programs to date. Similarly, although the results of 
the GIPPS and OPA studies show that many online companies now 
understand the business case for protecting consumer privacy, they also 
show that the implementation of fair information practices is not 
widespread among commercial Web sites.
    Based on these facts, the Commission believes that legislation to 
address online privacy is not appropriate at this time. We also believe 
that industry faces some substantial challenges. Specifically, the 
present challenge is to educate those companies which still do not 
understand the importance of consumer privacy and to create incentives 
for further progress toward effective, widespread implementation.
    First, industry groups must continue to encourage widespread 
adoption of fair information practices. Companies like IBM, Microsoft 
and Disney, which have recently announced, among other things, that 
they will forgo advertising on sites that do not adhere to fair 
information practices are to be commended for their efforts, which we 
hope will be emulated by their colleagues. These types of business-
based initiatives are critical to making self-regulation meaningful 
because they can extend the reach of privacy protection to small and 
medium-sized businesses where there is great potential for e-commerce 
growth.
    Second, industry should focus its attention on the substance of Web 
site information practices, ensuring that companies adhere to the core 
privacy principles discussed earlier. It may also be appropriate, at 
some point in the future, for the FTC to examine the online privacy 
seal programs and report to Congress on whether these programs provide 
effective privacy protections for consumers.
    Finally, industry must work together with government and consumer 
groups to educate consumers about privacy protection on the Internet. 
The ultimate goal of such efforts, together with effective self-
regulation, will be heightened consumer acceptance and confidence. 
Industry should also redouble its efforts to develop effective 
technology to provide consumers with tools they can use to safeguard 
their own privacy online.
    The Commission has developed an agenda to address online privacy 
issues throughout the coming year as a way of encouraging and, 
ultimately, assessing further progress in self regulation to protect 
consumer online privacy:
    <bullet> The Commission will hold a public workshop on ``online 
profiling,'' the practice of aggregating information about consumers' 
preferences and interests gathered primarily by tracking their 
movements online, and, in some cases, combining this information with 
personal information collected directly from consumers or contained in 
other databases. The workshop, jointly sponsored by the U.S. Department 
of Commerce, will examine online advertising firms' use of cookies and 
other tracking technologies to create targeted, user profile-based 
advertising campaigns.
    <bullet> The Commission will hold a public workshop on the privacy 
implications of electronic identifiers that enhance Web sites' ability 
to track consumers' online behavior.
    <bullet> In keeping with its history of fostering dialogue on 
online privacy issues among all stakeholders, the Commission will 
convene task forces of industry representatives and privacy and 
consumer advocates to develop strategies for furthering the 
implementation of fair information practices in the online environment.

         LOne task force will focus upon understanding the costs and 
        benefits of implementing fair information practices online, 
        with particular emphasis on defining the parameters of the 
        principles of consumer access to data and adequate security.
         LA second task force will address how incentives can be 
        created to encourage the development of privacy-enhancing 
        technologies, such as the World Wide Web Consortium's Platform 
        for Privacy Preferences (P3P).

    <bullet> The Commission, in partnership with the U.S. Department of 
Commerce, will promote private sector business education initiatives 
designed to encourage new online entrepreneurs engaged in commerce on 
the Web to adopt fair information practices.
    <bullet> Finally, the Commission believes it is important to 
continue to monitor the progress of self-regulation, to determine 
whether the self-regulatory programs discussed in this report fulfill 
their promise. To that end, the Commission will conduct an online 
survey to reassess progress in Web sites' implementation of fair 
information practices, and will report its findings to Congress.
    In undertaking these efforts, the Commission will be better able to 
assess industry progress in meeting its self-regulatory 
responsibilities, while fostering the implementation of effective 
protections for online privacy in a manner that promotes a flourishing 
electronic marketplace.
                               __________

                                ENDNOTES

    1. The Report is available on the Commission's Web site at http://
www.ftc.gov/reports/ privacy3/index.htm.
    2. 1998 Report at 41.
    3. 1998 Report at 42; Commission testimony on Consumer Privacy on 
the World Wide Web before the House Subcommittee on Telecommunications, 
Trade and Consumer Protection, Committee on Commerce (July 21, 1998) at 
4-5 [hereinafter ``1998 Privacy Testimony''] (available at http://
www.ftc.gov/os/ 1998/9807/privac98.htm).
    4. 1998 Privacy Testimony at 4. The Commission also presented a 
legislative model that Congress could consider in the event that then-
nascent self-regulatory efforts did not result in widespread 
implementation of self-regulatory protections. Id. at 5-7.
    5. Remarks of Secretary of Commerce William M. Daley, Feb. 5, 1999 
(text available at http://204.193.246.62/public.nsf/docs/commerce-ftc-
online-shopping-briefing).
    6. The Boston Consulting Group, The State of Online Retailing 7 and 
App. A (Nov. 1998).
    7. Internet Advertising Bureau, Advertising Revenue Report (May 
1999) (major findings available at http://www.iab.net/news/content/
1998results.html).
    8. Id.
    9. Intelliquest, Inc., Worldwide Internet/Online Tracking Service 
4th Quarter 1998 Report (results available at http://
www.intelliquest.com).
    10. See Forrester Research, Inc., Media & Technology Strategies: 
Making Users Pay at 4-6 (1998).
    11. See, e.g., Rivka Tadjer, ``Following the Patron Path,'' ZD 
Internet Magazine, Dec. 1997, at 95; Thomas E. Weber, ``Software Lets 
Marketers Target Web Ads,'' Wall St. J., Apr. 21, 1997, at B1.
    12. Lorrie Faith Cranor, et al., Beyond Concern: Understanding Net 
Users' Attitudes About Online Privacy at 5 (1999) [hereinafter ``AT&T 
Study''] (available at http://www.research.att.com/projects/
privacystudy).
    13. Louis Harris & Associates, Inc., National Consumers League: 
Consumers and the 21st Century at 4 (1999).
    14. AT&T Study at 2, 10.
    15. Intelliquest, Inc., Worldwide Internet/Online Tracking Service 
1st Quarter 1999 Report (findings summarized at http://
www.intelliquest.com/press/release78.asp) (28%); Louis Harris & 
Associates, Inc. and Alan F. Westin, E-Commerce & Privacy: What Net 
Users Want at 1 (1998) (23%).
    16. The Commission held its first public workshop on privacy in 
April 1995. In a series of hearings held in October and November 1995, 
the Commission examined the implications of globalization and 
technological innovation for competition issues and consumer protection 
issues, including privacy concerns. At a public workshop held in June 
1996, the Commission examined Web site practices in the collection, 
use, and transfer of consumers' personal information; self-regulatory 
efforts and technological developments to enhance consumer privacy; 
consumer and business education efforts; the role of government in 
protecting online information privacy; and special issues raised by the 
online collection and use of information from and about children. The 
Commission held a second workshop in June 1997 to explore issues raised 
by individual reference services, as well as issues relating to 
unsolicited commercial e-mail, online privacy generally, and children's 
online privacy.
    These efforts have served as a foundation for dialogue among 
members of the information industry and online business community, 
government representatives, privacy and consumer advocates, and experts 
in interactive technology. Further, the Commission and its staff have 
issued reports describing various privacy concerns in the electronic 
marketplace. See, e.g., Individual Reference Services: A Federal Trade 
Commission Report to Congress (December 1997); FTC Staff Report: Public 
Workshop on Consumer Privacy on the Global Information Infrastructure 
(December 1996); FTC Staff Report: Anticipating the 21st Century: 
Consumer Protection Policy in the New High-Tech, Global Marketplace 
(May 1996).
    The Commission has also brought enforcement actions under Section 5 
of the Federal Trade Commission Act to address deceptive online 
information practices. In 1998 the Commission announced its first 
Internet privacy case, in which GeoCities, operator of one of the most 
popular sites on the World Wide Web, agreed to settle Commission 
charges that it had misrepresented the purposes for which it was 
collecting personal identifying information from children and adults 
through its online membership application form and registration forms 
for children's activities on the GeoCities site. The settlement, which 
was made final in February 1999, prohibits GeoCities from 
misrepresenting the purposes for which it collects personal identifying 
information from or about consumers, including children. It also 
requires GeoCities to post a prominent privacy notice on its site, to 
establish a system to obtain parental consent before collecting 
personal information from children, and to offer individuals from whom 
it had previously collected personal information an opportunity to have 
that information deleted. GeoCities, Docket No. C-3849 (Feb. 12, 1999) 
(Final Decision and Order available at http://www.ftc.gov/os/1999/9902/ 
9823015d&o.htm).
    In its second Internet privacy case, the Commission recently 
announced for public comment a settlement with Liberty Financial 
Companies, Inc., operator of the Young Investor Web site. The 
Commission alleged, among other things, that the site falsely 
represented that personal information collected from children, 
including information about family finances, would be maintained 
anonymously. In fact, this information was maintained in identifiable 
form. The consent agreement would require Liberty Financial to post a 
privacy policy on its children's sites and obtain verifiable consent 
before collecting personal identifying information from children. 
Liberty Financial, Case No. 9823522 (proposed consent agreement 
available at http://www.ftc.gov/os/1999/9905/1btyord.htm).
    17. 1998 Report at 7-11. In addition to the HEW Report, the major 
reports setting forth the core fair information practice principles 
are: The U.S. Privacy Protection Study Commission, Personal Privacy in 
an Information Society (1977); Organization for Economic Cooperation 
and Development, OECD Guidelines on the Protection of Privacy and 
Transborder Flows of Personal Data (1980); U.S. Information 
Infrastructure Task Force, Information Policy Committee, Privacy 
Working Group, Privacy and the National Information Infrastructure: 
Principles for Providing and Using Personal Information (1995); U.S. 
Dept. of Commerce, Privacy and the NU: Safeguarding Telecommunications-
Related Personal Information (1995); The European Union Directive on 
the Protection of Personal Data (1995); and the Canadian Standards 
Association, Model Code for the Protection of Personal Information: A 
National Standard of Canada (1996).
    18. 1998 Report at 7-11.
    19. Although choice in this context has been traditionally thought 
of as either ``opt-in'' (prior consent for use of information) or 
``opt-out'' (limitation upon further use of information), id. at 9, 
interactive media hold the promise of making this paradigm obsolete 
through developments in technology. Id.
    20. Id. at 9.
    21. Id. at 10.
    22. Id. at 10-11.
    23. Id. at 23, 27.
    24. Id. at 24, 28.
    25. Id. at 31, 35, 37.
    26. 1998 Privacy Testimony at 5-7.
    27. Title XIII, Omnibus Consolidated and Emergency Supplemental 
Appropriations Act, 1999, Pub. L.105-277, 112 Stat. 2681, ____ (October 
21, 1998), reprinted at 144 Cong. Rec. H11240-42 (Oct. 19, 1998). The 
goals of the Act are: (1) to enhance parental involvement in a child's 
online activities in order to protect the privacy of children in the 
online environment; (2) to help protect the safety of children in 
online fora such as chat rooms, home pages, and pen-pal services in 
which children may make public postings of identifying information; (3) 
to maintain the security of children's personal information collected 
online; and (4) to limit the collection of personal information from 
children without parental consent. 144 Cong. Rec. S12741 (Oct. 7, 1998) 
(Statement of Sen. Bryan).
    28. Title XIII, Omnibus Consolidated and Emergency Supplemental 
Appropriations Act, 1999, Pub. L.105-277, 112 Stat. 2681, ____ (October 
21, 1998), reprinted at 144 Cong. Rec. H11240-42 (Oct. 19, 1998).
    29. Id.
    30. 64 Fed. Reg. 22750 (1999) (to be codified at 16 C.F.R. pt. 
312).
    31. Id. at 22753-58 (Proposed Rule Sec. Sec. 312.4-312.6).
    32. Id. at 22759-60 (Proposed Rule Sec. 312.10).
    33. The report is available at http://www.msb.edu/faculty/culnanm/
gippshome.html [hereinafter ``GIPPS Report'']. The following analysis 
is based upon the Commission's review of the GIPPS Report itself; 
Commission staff did not have access to the underlying GIPPS data.
    34. GIPPS Report at 1; App. B at 4. The list, a ranking of servers 
by number of unique visitors for the month of January 1999, was 
compiled by Media Metrix, a site traffic measurement company. As larger 
sites are more likely to have multiple servers, the largest sites on 
the Web had a greater chance of being selected for inclusion in the 
sample drawn for this survey. See GIPPS Report, App. A at 1; App. B at 
9 n.iii.
    35. GIPPS Report, App. A at 3, 5.
    36. GIPPS Report, App. A at 5.
    37. The Commission's 1998 Comprehensive Sample was drawn at random 
from all U.S., ``.com'' sites in the Dun & Bradstreet Electronic 
Commerce Registry, with the exception of insurance industry sites. 1998 
Report, App. A at 2. Unlike the Media Metrix list used in the GIPPS 
sample, the Dun & Bradstreet Registry does not rank sites on the basis 
of user traffic.
    38. The GIPPS results show that thirty-six sites in the sample (or 
10%) posted at least one survey element, or disclosure, for each of the 
four substantive fair information practices. GIPPS Report at 10. 
Thirty-two of these sites (or 8.9%) also posted contact information. 
Id. and App. A at 12. Professor Culnan also reports the number of sites 
posting disclosures for the four substantive fair information practice 
principles and for contact information in two additional ways: as a 
percentage of sites in the sample that collect at least one type of 
personal information (9.5%); and as a percentage of sites in the sample 
that both collect at least one type of personal information and post a 
disclosure (13.6%). GIPPS Report, App. A at 12 (Table 8C).
    39. Online Privacy Alliance, Privacy and the Top 100 Sites: A 
Report to the Federal Trade Commission (1999) (available at http://
www.msb.edu/faculty/culnanm/gippshome. html) . The following analysis 
is based upon the Commission's review of the OPA Study report itself; 
Commission staff did not have access to the underlying OPA Study data.
    40. OPA Study at 3, 5, and 8.
    41. 1998 Report at 28.
    42. Twenty-two sites in the OPA Study (or 22%) posted at least one 
survey element, or disclosure, for each of the four substantive fair 
information practices. OPA Study at 9-10 and App. A at 10 (Table 6C). 
Nineteen of these sites (or 19%) also posted contact information. Id. 
Professor Culnan also reports the number of sites posting disclosures 
for the four substantive fair information practice principles in two 
additional ways: as a percentage of sites in the sample that collect at 
least one type of personal information (22.2%); and as a percentage of 
sites in the sample that both collect at least one type of personal 
information and post a disclosure (23.7%). OPA Study, App. A at 10 
(Table 6C).
    43. The information included in this section is drawn from the OPA 
Web site (http://www.privacyalliance.org) and OPA members' testimony 
before the Senate Judiciary Committee's Hearing on Privacy in the 
Digital Age: Discussion of Issues Surrounding the Internet on April 21, 
1999. The testimony is available on the OPA Web site, and at http://
www.senate.gov/<difference>judiciary/42199kb.htm.
    44. The Guidelines are available at http://www.privacyalliance.org/
resources/ppguidelines.shtml.
    45. The information in this section is taken from materials posted 
on TRUSTe's Web site, http://www.TRUSTe.org, and from public statements 
by TRUSTe staff.
    46. Several hundred additional companies have joined the TRUSTe 
program but are not yet fully licensed. See ``TRUSTe Testifies Before 
House Judiciary Committee,'' May 27, 1999 (press release available at 
http://www.TRUSTe.org/about/about--committee.html).
    47. Not all of TRUSTe's current licensees are subject to the latest 
version of the license agreement.
    48. ``Personally identifiable information'' is defined as any 
information that can be used to identify, contact, or locate a person, 
including information that may be linked with identifiable information 
from other sources, or from which other personally identifiable 
information can easily be derived.
    49. The information in this section is taken from materials posted 
on the BBBOnline Web site, located at http://www.bbbonline.com, and 
from other public documents and statements by BBBOnLine staff.
    50. The BBBOnLine Privacy Seal Program establishes requirements for 
notice, choice, access, and security. Comprehensive notice disclosures 
are required. Consumers must be allowed to prohibit unrelated uses of 
individually identifiable information not disclosed in the site's 
privacy policy and disclosure to third parties for marketing purposes. 
Consumers must also be permitted access to information about them to 
correct inaccuracies.
    51. License fees to display the BBBOnLine Privacy logo are 
determined by a sliding scale according to the participant's revenues. 
Currently, the annual license fee ranges from $150 for companies with 
under $1 million in sales, to $3,000 for companies with sales over $2 
billion.
    52. ``Individually identifiable information'' is defined as 
information that (1) can be used to identify an individual, (2) is 
elicited by the company's Web site through active or passive means from 
the individual, and (3) is retrievable by the company in the ordinary 
course of business.
    53. ``Prospect information'' would be collected when, for example, 
a visitor to a site orders a gift for another person and supplies that 
person's mailing address.
    It is not clear whether demographic information about a consumer 
that is collected at a site and tied to an identifier is covered by the 
BBBOnline program, although licensees are required to provide notice if 
they merge or enhance individually identifiable information with data 
from third parties for the purposes of marketing products or services 
to the consumer.
    54. Information about CPA WebTrust is available at http://
www.cpawebtrust.org.
    55. Privacy in the Digital Age: Discussion of Issues Surrounding 
the Internet, before the Senate Judiciary Comm., 106th Cong., April 21, 
1999 (prepared statement of Gregory Fischbach).
    56. Information regarding the ESRB privacy seal program is 
available at http://www.esrb.org.
    57. The program guidelines include standards for notice and 
disclosure; choice; limiting data collection and retention; data 
integrity/security; data access; and enforcement and accountability.

    Senator Burns. Thank you, Mr. Chairman. We have been joined 
on the committee this morning by Senator Wyden and Senator 
Dorgan.
    Senator Wyden, do you have a statement or would you like to 
submit a statement?

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR
                          FROM OREGON

    Senator Wyden. Mr. Chairman, I would like to make a 
statement, but I will be very brief.
    This is an excellent panel. Is that acceptable at this 
point?
    Senator Burns. That is acceptable.
    Senator Wyden. Thank you, Mr. Chairman. Let me begin by 
saying how much I appreciate working with you in developing S. 
809. I think it is a balanced bill, and I have been pleased to 
work with you. In going forward with this bipartisan effort 
that you and I have launched, Mr. Chairman, I want to make it 
clear that first I believe in the power of free markets.
    I think I showed with the Internet Tax Freedom Act, with 
the Y2K liability legislation, with what we have done in 
encryption that I feel strongly about the potential of the 
medium, but the reason that I want us to pass S. 809 is that I 
think it would be a great mistake for this country to 
essentially sit idly by and wait for an Exon Valdez style 
invasion of privacy before action is taken, and that is really 
what this legislation is all about.
    Third, what is most telling to me is what the Nation's CEOs 
are saying about this issue in a recent survey by CEO Magazine. 
Sixty percent of the chief information officers in this country 
were unwilling to give personal information about themselves on 
line. I think if anything is telling about the need for a 
thoughtful, balanced bill, it is what the Nation's CEOs and 
their chief information officers are saying about the 
importance of this legislation.
    Finally, the last point I would make is that the folks that 
are working for self-regulation, the many companies that have 
hired some of the most talented lobbyists in the Nation to 
fight privacy regulation, are not the companies that the United 
States Senate ought to be worried about. Those are the 
companies that have again and again reflected responsible 
corporate efforts to try to deal with these issues, and it is 
the bad actors that S. 809 is trying to target, not the 
companies that have formed this coalition, not the companies we 
work with on Internet, tax freedom, or encryption, or Y2K 
liability. I am very hopeful we can go forward with this 
legislation.
    The last point I would make is a comment in response to 
what Bob Pitofsky said, and he as always has given very helpful 
testimony. What we are trying to do in S. 809 is address your 
point with respect to making sure that this law is not outdated 
by the time it goes into effect. Principles like opting out and 
understandable disclosure requirements are the kinds of things 
that have stood the test of time at the Federal Trade 
Commission, and it is those kinds of principles that we want to 
use for the foundation of privacy policy, and speak to the 
important point you are making about making sure that the 
Congress does not do something foolish that is essentially 
outdated by the time it becomes law. I thank you for the chance 
to make that statement.
    Senator Burns. Thank you very much, Senator, and I 
appreciate working with you on this piece of legislation also.
    Senator Dorgan, do you have a statement?

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
                             DAKOTA

    Senator Dorgan. Mr. Chairman, I will submit a statement for 
the record.
    I did want to thank you for the hearing and indicate that 
privacy is of paramount importance to the American people. It 
is a freedom that we take for granted, but it is threatened by 
those who would use information in a brokered capacity from 
Internet sites and other devices to undermine privacy, and I 
think this hearing is right on point.
    I think the legislation that has been developed is 
interesting, and a useful contribution to this debate, and I 
want to thank the commissioners for coming today and for their 
contribution.
    [The prepared statement of Senator Dorgan follows:]

     Prepared Statement of Hon. Byron L. Dorgan, U.S. Senator From 
                              North Dakota

    Mr. Chairman, I am pleased that you have called this hearing on the 
subject of online privacy. In my judgment, the issue of online privacy 
is one of the most important and essential issues related to the 
Internet and e-commerce. It is very important that this Subcommittee 
follow this issue closely and seek appropriate solutions to ensure that 
consumers can have confidence that their privacy will be protected 
online.
    While the Internet and online commerce provides enormous 
opportunity for communication, information collection, and commerce, it 
also provides an equal potential for serious invasion into people's 
rights to privacy. For this reason, the protection of privacy over this 
exciting new medium is of critical importance.
    I greatly appreciate the work that the Federal Trade Commission has 
done on this important subject. However, the recent report on ``Self 
Regulation and Privacy Online: A Report to Congress'' highlights the 
fact that, at the present time, online privacy protections industry 
wide leaves a lot to be desired. I can appreciate the position of the 
majority of the Commissioners that legislation would be premature at 
this time. Nevertheless, I still believe that it is very important that 
Congress closely examine online privacy issues and debate over 
legislation is an important debate to have at this point. The findings 
of the Georgetown Internet Privacy Policy Survey that only 10% of 
Internet sites are implementing a full complement of online protections 
(such as notice/awareness, choice/consent, access/participation, and 
security/integrity) is very disturbing. It would be foolish to declare 
victory at this stage. In fact, we ought to remain very concerned and 
realize that there is a great deal of improvement needed in order for 
consumers to feel confident about privacy online.
    Certainly, the industry has demonstrated that it is not deaf to the 
concerns of protecting privacy. Indeed, the industry has a strong self-
interest in ensuring privacy protection and there is considerable 
evidence of industry-initiated efforts to adopt privacy protections. 
The industry has indeed come to the table to address privacy issues on 
their own to a large degree. But, if consumers loss confidence in their 
ability to protect their privacy online, they will likely leave the 
Internet and e-commerce behind. The government ought to be just as 
concerned about a loss of consumer confidence in privacy protection as 
the industry. That is why much, much, more needs to be done.
    I still have an open mind as to whether or not legislation is 
necessary at this point in time. But, I consider the debate a healthy 
one and I think at a minimum, this Committee ought to monitor the 
progress of the industry to adopt privacy protections. In the meantime, 
it is important that the FTC continue to work closely with industry to 
address online privacy issues. That relationship appears to be 
producing good results, but I remain concerned that that may not be 
sufficient in the long run.
    Thank you Mr. Chairman. I look forward to hearing from today's 
witnesses.

    Senator Burns. Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. Just a brief 
word. I am still unclear as to how I feel about this, and I 
think reasonable people in fact in some ways ought to be 
unclear. I do not think enough people know enough about what 
the potential is for self-regulation, or what the lack of 
potential is for self-regulation.
    I think the Georgetown study which the FTC used, used in 
fact to draw one set of conclusions, and one might argue that 
in fact it drew another set of conclusions, but that aside, it 
laid out five basic criteria that have to be met, and to me it 
is the meeting of the criteria more than the way in which they 
are met, whether it is done by Federal regulation or whether it 
is done by self-regulation.
    Senator Wyden and I disagreed on the passenger bill of 
rights. I thought it could be done by self-regulation, he felt 
it should be done by legislative regulation, so these are in 
some ways, you know, similar, and philosophically they have a 
touch point, but I think the five points are, notice that 
information is being collected, choice of whether to disclose 
information, access to their own, that is the user's own 
information, security so that information is protection, and 
contact information for questions or complaints.
    Now, whether or not in what we hear and talk about today 
the industry feels that they can do that, the record so far is 
not a very good one. On the other hand, the industry is yet a 
very young one, and laws last a long time. The industry changes 
and is capable of changing much more rapidly than are laws 
usually around here.
    So I am reserving my right to hear some debate and decide 
what to do. I do, however, applaud your instinct for looking 
after the consumer, and I thank the chairman.
    Senator Burns. You can probably make up your mind by noon 
today. We do not want to push you too far. [Laughter.]
    Let us continue on with the panel. From the Federal Trade 
Commission, the Hon. Sheila Anthony. We look forward to your 
opinion on this. Thank you for coming this morning.

  STATEMENT OF HON. SHEILA F. ANTHONY, COMMISSIONER, FEDERAL 
                        TRADE COMMISSION

    Ms. Anthony. Thank you, Mr. Chairman, and members of the 
Subcommittee on Communications. I am delighted to be here this 
morning, and I appreciate your holding this hearing to address 
a topic of extreme importance to the American people.
    As the commission's 1999 report to Congress states, only 10 
percent of well-traveled Internet sites in a recent survey have 
privacy disclosures that speak to all four substantive 
information principles, notice, consent, access, and security. 
Even among the top 100 most frequently visited Internet, sites, 
and I would think there are about 7,500 sites that are 
traveled, only some 20 percent have privacy disclosures 
addressing these four principles.
    Some industry leaders have undertaken significant efforts 
to protect online privacy, and let me name a few. Microsoft, 
Dell Computer, Disney Online, IBM, AT&T, Eastman Kodak, Fox 
Broadcasting, the Boston Globe, the San Francisco Chronicle, 
the Wall Street Journal, CyberBills, Educational 
Communications, Inc., Worldtravelcenter.com.
    These self-regulatory efforts constitute a reasonable 
response to the widespread market demand for the protection of 
consumer privacy, and likely play an important role in the 
growth of electronic commerce.
    In addition, the seal programs show promise, but some 
companies have made a business out of collecting, buying, and 
selling individually identifiable information online. I was 
shocked to discover shortly after I joined the commission that 
at least one of the several information brokers operating in 
the marketplace had my name, my husband's name, our address, 
the value of our home, our social security numbers and the 
years they were issued, our mothers' maiden names, the address 
we lived before coming to Washington, our two daughters' names, 
their husbands' names, their social security numbers, and every 
address they ever had lived, including our 3-year-old 
grandchild's social security number and name.
    I might add that there were several mistakes in this 
report. We in the Government, and especially those of us who 
have gone through a confirmation process, and you who have 
stood for election, know what it is to have your private lives 
laid bare, but most Americans do not, nor do they want to.
    I am disappointed that sufficient progress by industry has 
not been made toward the protection of online privacy under a 
self-regulatory approach. Such a lack of progress is 
surprising, given the commission's clear articulation of fair 
information practice principles in our 1998 online privacy 
report.
    Even prior to my arrival at the commission, the agency had 
encouraged industry to adopt voluntary fair information 
practices. Secretary of Commerce Brown plainly expressed the 
fair information principles of notice and consent as long ago 
as 1995. These ideas are not brand new.
    The self-regulatory environment has not advanced the ball 
as far as I would have expected. Thus, consumer privacy remains 
an issue about which 87 percent of online Americans, including 
me, are extremely concerned. Privacy is one of our most 
cherished freedoms. Too often, however, the debate about 
privacy and the protection of personal information that is 
surreptitiously gathered takes on an ethereal quality and looks 
for proof of direct harm. Direct harm is not necessary to 
justify fair information practices, but it is evident, for 
example, in cases of cyber stalking and identity theft.
    The American public deeply values its privacy, quite apart 
from notions of direct harm. The studies of which I am aware 
consistently show a high level of concern about online privacy. 
For example, a study just released in April by Harvard, MIT, 
AT&T labs, and the University of California at Irvine, found, 
as I mentioned earlier, that 87 percent of Internet users were 
concerned about personal privacy threats.
    One year ago, these concerns were held by 81 percent of 
Internet users, so over the years, public concern has 
increased, not decreased.
    In reporting on the status of self-regulation and online 
privacy protection, the commission has fulfilled its promises 
to collect information and report to the Congress. I 
respectfully and affectionately disagree with my colleagues, in 
that I believe the time is ripe for Congress to enact Federal 
legislation to protect online consumer privacy, at least to the 
extent of providing minimal Federal standards.
    As a whole, industry progress has been far too slow. 
Notice, while an essential step, is not enough if the privacy 
practices themselves are toothless.
    I do believe Congress is the appropriate place for the 
debate on this issue, and I note that several bipartisan bills 
are pending in both the House and the Senate, including the 
Online Privacy Protection Act that has been introduced by you, 
Chairman Burns, and cosponsored by Senator Wyden. These bills 
can serve as starting points to craft balanced privacy 
legislation.
    I am concerned that without widespread implementation of 
fair information practices, and absent effective privacy 
protections, several results are inevitable. First, the 
dissatisfaction of the American people will grow both in pitch 
and intensity, as it has in the past.
    Second, a patchwork of State laws to protect online privacy 
will emerge. A number of States, including California, 
Colorado, Connecticut, Delaware, Florida, Louisiana, Maine, 
Massachusetts, Minnesota, Montana, Nevada, New Hampshire, New 
York, Pennsylvania, South Carolina, Tennessee, Virginia, 
Washington, and Wisconsin have moved in that direction.
    Consider the confusing environment that could result for 
consumers online marketers and the courts under such a legal 
patchwork. Consider also the extreme burden on online 
businesses to comply with this patchwork of privacy laws.
    Such businesses would be required to determine the 
jurisdictional reach of each State possessing such privacy 
laws, and to develop compliance strategies to satisfy privacy 
requirements of each jurisdiction. Further, the entire process 
may need to be repeated as line businesses grow and expand 
their product lines and as other States enact their laws. A 
single minimum Federal standard of online privacy would 
decrease the cost and complexity of compliance while 
simultaneously establishing essential privacy protections for 
online American consumers. Further, I believe that Federal 
legislation and meaningful self-regulation should operate hand-
in-hand.
    Third, I am concerned that the absence of online privacy 
protections will continue to undermine consumer confidence and 
hinder the advancement of electronic commerce and trade, 
specifically of trade with the European Union and its 320 
million customers. Some types of personal information, such as 
health and financial information, may require heightened 
privacy protections, but without the widespread adoption of 
fair information practices not even an across-the-board minimum 
standard of protection exists.
    Let me conclude by saying I remain troubled by the results 
of the Georgetown surveys, which show much less progress than I 
had hoped. I am pleased to say the commission will continue its 
involvement in the privacy arena, and our report sets out a 
number of initiatives for the coming year.
    Thank you for the opportunity to share my views.
    [The prepared statement of Ms. Anthony follows:]

 Prepared Statement of Hon. Sheila F. Anthony, Federal Trade Commission

    I support the Commission's 1999 Report to Congress on Self-
Regulation and Privacy (``Report''). The Report commends the seal 
programs and the few responsible industry leaders that have undertaken 
significant efforts to protect online privacy by adopting fair 
information practices in their online dealings with consumers. I agree 
with the report's conclusions that industry leaders must continue to 
encourage widespread adoption of fair information practices; focus 
attention to the substance of web site information practices; and work 
together with government and consumer groups to educate consumers about 
privacy protection on the internet. I also support the Commission's 
agenda to address the public's strong concern about online privacy.
    I am dismayed, however, with the results of the two studies cited 
in the Report. According to the studies, there is an enormous gap 
between the online collection of individually identifiable information 
and the protection of that information by the web site owners' 
implementation of fair information practices of notice, consent, 
access, and security. While 93 to 99 percent of the surveyed sites 
collect personal information from consumers, only 10 to 20 percent of 
these sites have privacy disclosures implementing the four basic 
substantive fair information practices.\1\ It is not hard to see why 
surveys show that the vast majority of Americans are concerned about 
threats to their privacy online.\2\
---------------------------------------------------------------------------
    \1\ See Report at 8-9.
    \2\ See Report at 2-3.
---------------------------------------------------------------------------
    I disagree with the majority's opinion that ``legislation to 
address online privacy is not appropriate at this time.'' \3\ As a 
whole, industry progress has been far too slow since the Commission 
first began encouraging the adoption of voluntary fair information 
practices in 1996.\4\ Notice, while an essential first step, is not 
enough if the privacy practices themselves are toothless. I believe 
that the time is ripe for federal legislation to establish at least 
baseline minimum standards upon which meaningful self-regulation can 
flourish. I note that bipartisan bills are pending in both the House 
and the Senate and could provide a good starting point for crafting 
balanced protective legislation. I am concerned that the absence of 
effective privacy protections will undermine consumer confidence and 
hinder the advancement of electronic commerce and trade.
---------------------------------------------------------------------------
    \3\ See Report at 15.
    \4\ ``Staff Report, Public Workshop on Consumer Privacy on the 
Global Information Infrastructure,'' (December 1996).

    Senator Burns. Thank you, commissioner, and Senator Kerry, 
do you have any questions of this panel? You will submit them, 
okay. Thank you very much. I know you have got other things to 
do. We are just trying to accommodate you.
    Hon. Orson Swindle. Commissioner, we are looking forward to 
your comments this morning. Thank you for coming.

 STATEMENT OF HON. ORSON SWINDLE, COMMISSIONER, FEDERAL TRADE 
                           COMMISSION

    Mr. Swindle. Thank you very much, Mr. Chairman, members of 
the committee. Let me begin by painting a big picture. Last 
month, the University of Texas, backed by Cisco Systems, 
introduced a study of the current status of electronic commerce 
as one of the very first efforts to measure the Internet 
economy. According to the study, the Internet economy generated 
an estimated $301 billion in revenue in 1998 and was 
responsible for over 1.2 million jobs. These estimates are 
based on worldwide sales of Internet-related products and 
services by U.S.-based companies.
    To put the figures in perspective, the Internet economy is 
already bigger than the energy industry, the telecommunications 
industry, and almost as big as the automobile industry. 
According to Secretary of Commerce Daley, retail consumer 
purchases over the Internet were $3 billion in 1997, $9 billion 
in 1998, and are estimated to approach $30 billion this year.
    We are witnessing an incredible economic engine just 
revving up. Consumers are not timidly engaging in this new form 
of commerce. As Chairman Pitofsky testified recently, it is 
remarkable the extent to which people are becoming committed to 
doing commerce on the Internet. Consumers seem to like it.
    The Commission's 1999 report on privacy recently submitted 
to Congress ultimately reached the correct and obvious 
conclusion. No legislative action is necessary at this time. 
Significant self-regulatory progress has been made, but 
continued vigilance is needed if we are to obtain higher and 
higher levels of confidence in protecting personal privacy.
    The path to those higher standards is not through more laws 
and regulations. Rather, industry, advocates for privacy and 
consumers and the Commission should be able to make further 
progress by continuing to work together towards what we all 
agree to be mutually beneficial goals.
    Industry, however, must lead the way, and I am confident 
that it will, and will do so far more effectively than will 
more laws and bureaucratic decisionmaking.
    There is an incredibly exciting new world of economic and 
educational power before us. The rapid convergence of 
technology, information, and entrepreneurship is ushering in 
one of the greatest expansions of freedom, choice and 
independence mankind has probably ever seen, and democracy will 
be better for it. However, without personal responsibility, 
democracy cannot flourish. Consumers definitely have a role to 
play.
    For certain, there are hazards associated with this new 
environment. How we balance protecting consumers and at the 
same time make it possible for this vast potential to develop 
is critical. As reflected in our 1999 report, there is broad 
agreement on the core principles of fair information practices, 
notice, choice, access and security. S. 809 addresses each of 
these principles.
    However, for those who wish to regulate online privacy, I 
ask how will we do it? The devil is always in the details. We 
are coming to realize that technology and cost, not to mention 
the exponential growth of the online world, are serious 
impediments.
    Recent data suggest that there are now approximately 3.6 
million commercial Web sites, and they are increasing at over 
275,000 a month. We have a lot to learn about the Internet 
economy and how to deal with it, as our ongoing rulemaking to 
implement the Children's Online Privacy Protection Act of 1998 
is revealing.
    The old adage of looking before we leap is still wise 
advice. Imposing additional laws and regulations on that which 
we do not yet fully understand could produce incredibly 
negative unintended consequences. Imagine this scenario, if you 
will. First of all, massive numbers of unintended or innocent 
violations of the new law will likely occur. Commercial Web 
sites are increasing at almost 10 percent a month. The 
overwhelming majority of these violations would be by 
entrepreneurs seeking to market a product on the Internet 
without understanding the new requirements, or not possessing 
the technology or the resources to comply.
    The regulators, armed with the new law, would, of course, 
have to enforce it. Imagine the scope of this task and the 
likely effects on entrepreneurs. While this might be a 
nightmare for regulators, it pales in significance to the 
possibility of regulation impeding the growth of this economic 
engine.
    Do I suggest throwing in the virtual towel? Certainly not. 
I suggest a different approach driven by practicality. More law 
and regulation will not solve this problem. It is in the 
interests of businesses, large and small, to provide customers 
with safe transactions and secure privacy and business 
practices to win the confidence of those customers.
    Because we are making progress, and because none of us 
fully understands where electronic commerce, entertainment, 
knowledge, information and education are heading, I strongly 
urge a more cautious approach. The rule of ``do no harm'' seems 
most applicable here. Let us not add more laws and regulations 
at this time. Rather, let us continue to work together and 
allow this new economic engine and privacy policies to evolve.
    For the most part, businesses have the creativity and 
motivation to lead the way. Companies like AOL, IBM, and 
Microsoft, who have led the way, also help countless other 
companies by their example.
    Organizations and seal programs such as the Direct 
Marketing Association, BBBOnline, TRUSTe and others also are 
leading the way, and progress is increasing day by day. 
Continued focus on the problem by the Congress, the commission, 
advocates for consumers and privacy, and leaders in industry 
should bring about the progress we desire and the sound balance 
that is imperative.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Swindle follows:]

          Prepared Statement of Orson Swindle, Commissioner, 
                        Federal Trade Commission

    I have voted to submit ``Self-Regulation and Privacy Online: A 
Report'' (the ``Report'') to Congress, although I have done so with 
great reluctance. I have voted to submit the Report because we promised 
the Congress last summer that we would make a recommendation regarding 
the need for legislation addressing online privacy. I also have voted 
to submit the Report because it ultimately reaches the correct and 
obvious conclusion: no legislative action is necessary at this time.
    I must add, however, that I do not believe the Report accurately 
reflects reality. First, the dated and unfavorable results of the 1998 
FTC Study are prominently described in the first seven pages of the 
Report, while the current and favorable results of the 1999 Georgetown 
survey are relegated to a brief discussion in the middle of the Report. 
Thus, the Report does not present a clear and complete picture of the 
substantial progress industry has made in the past year.
    Second, the Report overemphasizes the failure of industry to 
sufficiently implement all elements of comprehensive ``fair information 
practices.'' The Commission first articulated the elements of these 
four practices in detail just one year ago. Given the recent vintage of 
these elements, I believe industry has made substantial progress on 
them as well.
    Third, the Report only sparingly mentions the leadership on privacy 
issues that IBM, Microsoft, Disney, AOL, The Direct Marketing 
Association, privacy seal organizations, and many others in the private 
sector have continuously demonstrated. Faint praises tend to be 
damning. Industry's leadership in achieving progress should be lauded 
not buried.
    Because the Report provides an inaccurate assessment of the current 
state of online privacy and of the substantial progress attributable to 
industry self-regulation, it is perhaps not too surprising that the no 
legislative action recommendation appears at the very end of the 
Report, almost as if the recommendation is some trivial afterthought. 
The Report instead should have emphasized ``front and center'' that 
cooperative and creative efforts by a public private partnership have 
achieved and will achieve progress far more quickly than more laws and 
regulations, which, while they may have a ``feel good'' quality to 
them, likely will have adverse unintended consequences.
    In summary, I think significant progress has been made, but 
continued vigilance is needed because we are not where we want to be. 
The way to get where we want to be is not through more laws and 
regulation. Rather, industry, privacy and consumer advocates, and the 
Commission should be able to make further progress by continuing to 
work hard and work together. In the event that our joint efforts do not 
produce results, I would caution industry that there are many eager and 
willing to regulate. If industry wants to have the freedom to adopt 
privacy policies in response to market incentives and not government 
regulation, I encourage industry to continue to lead the way.

    Senator Burns. Thank you, commissioner. Now, Commissioner 
Mozelle Thompson, we thank you for coming this morning, and we 
are looking forward to your comments.

 STATEMENT OF HON. MOZELLE W. THOMPSON, COMMISSIONER, FEDERAL 
                        TRADE COMMISSION

    Mr. Thompson. Thank you, Mr. Chairman. I am pleased to 
appear today before the Communications Subcommittee with my 
fellow commissioners to discuss the FTC's latest report on 
online privacy. As you are aware, we have spent a lot of time 
and energy working on this issue, and we welcome the 
opportunity for each of us to share our individual views and 
insights.
    Following our 1998 report, in which the commission 
expressed disappointment about industry progress on self-
regulation, I specifically voiced my concerns about coverage, 
which is the breadth of total Web sites actually posting 
privacy policies, and the development and implementation of 
enforcement mechanisms.
    Now, 1 year later, and 3 years after the FTC first started 
working with industry on Internet issues, I find the record of 
progress is mixed. If we are going to be a leader in the global 
system of electronic commerce and e-commerce is going to 
continue to lead the new economy, we must reach a collective 
understanding on the principles that will provide consumers 
with the confidence they need to accept e-commerce as a way of 
life.
    Those principles include the protection of consumer 
privacy. In that vein, I note that S. 809 incorporates each of 
the fair information principles the commission itself outlined 
in its testimony before the House Commerce Committee in July 
1998.
    During the past year, industry leaders have expended 
substantial effort to build self-regulatory programs. However, 
as the Georgetown and OPA studies clearly show, while many 
leading online companies understand the importance of the 
business case for protecting consumer privacy, implementation 
of fair information practices is not widespread among 
commercial Web sites. In fact, a mere 10 percent of companies 
in the survey have done so.
    Although the OPA does not audit its members for compliance 
with its privacy guidelines, the results of its own study shows 
that only 22 percent of the top 100 Web sites, most of which 
are OPA members, have implemented all four elements of fair 
information practices.
    These findings suggest that even these industry leaders are 
only slowly rising to the challenge they have set. Accordingly, 
the most important challenges to be addressed include first, 
reaching those businesses which have not take steps to protect 
consumer privacy, especially small and medium-sized businesses, 
which we hope will provide the base for real growth in 
electronic commerce and, second, encouraging widespread 
adoption of all of the fair information practices, including 
educating consumers about the value of their own self-
regulatory efforts.
    The activities of the commission, and the ones that we have 
planned for the coming months, are designed to help us pinpoint 
specific problem areas for action. The information we uncover 
in these workshops and task forces will go beyond the simple 
quantitative analysis we have done on a number of sites with 
privacy policies to tell us exactly which aspects of fair 
information practices are not being complied with and why.
    And so, despite my reservations and concerns about the pace 
of industry progress on privacy, I believe it is appropriate 
for us to defer making a legislative recommendation, because 
the commission's upcoming work will assist us in suggesting a 
more tailored legislative response if industry fails to make 
further substantial progress.
    However, I will note that congressional review of privacy 
issues is also helpful, and I feel strongly that there is a 
value to continued hearings and debate about legislative 
proposals. I continue to be hopeful, as well, that industry can 
solve this problem. Recent initiatives by IBM, Microsoft, 
Disney, and the Direct Marketing Association are steps in the 
right direction.
    I would also ask industry to redouble its efforts to 
develop effective technological tools that consumers can use to 
safeguard their own privacy online, because even well-crafted 
legislation will not achieve 100-percent compliance with fair 
information practices.
    Ideally, easy to use technology will empower consumers by 
allowing them to predetermine the circumstances under which 
they will share their personal information. We heard about some 
of these technologies last week during our workshop on 
implementing the Children's Online Privacy Protection Act, and 
I am pleased to note that one of our proposed workshops for the 
coming months focuses specifically on these new tools.
    In sum, achieving a robust level of privacy protection will 
require cooperation between industry, Government, and 
consumers. While we have chosen to let industry lead in solving 
this public policy problem, public confidence in electronic 
commerce will erode if they fail to live up to the challenge.
    Ultimately, Government officials like us are directly 
accountable to the public, and we must also continue to play a 
role in shaping the solutions to the privacy problem. In any 
case, the FTC will continue to pursue its enforcement role 
against those who deceive consumers by misusing their personal 
information.
    I believe that self-regulation will succeed only if 
industry acts on the specific shortcomings documented by the 
recent studies. Moreover, Congress and the Administration must 
remain vigilant, and should not foreclose the possibility of 
legislative and regulatory action if there is not swift and 
significant additional progress.
    Thank you.
    Senator Burns. Thank you very much, commissioner. I just 
have a couple of questions, then we will get into a little 
discussion and interaction here among our colleagues.
    None of the studies referenced in your report provided 
recent data much beyond the top 100 Web sites. Do you have any 
data or experience about what is happening at lower levels, or 
do we go on beyond the 100 that were mentioned in your report, 
and that is for any commissioner who wants to address it.
    Mr. Pitofsky. Mr. Chairman, actually the Georgetown study 
has two sets of conclusions. One deals only with the top 100, 
but the other is a sample of a much broader range of Web sites, 
so that the Georgetown study does examine a very wide range of 
Web sites. It is the broader study that concluded that at least 
right now 66 percent of those Web sites have some kind of 
privacy policy on their screen.
    Mr. Swindle. I think one of the critical points in looking 
at this kind of an evaluation is, as I mentioned, there are 
several million commercial Web sites, and by no stretch of the 
imagination have we looked at all of those, and it sort of 
makes the point I was trying to get to.
    But the sites that we looked at in the survey, or at least 
Professor Culnan looked at in her survey, looked at sites which 
encompassed an extremely high percentage of all the people who 
looked at the Internet, so it is not so much the universe of 
sites as it is where you are touching the most people. I think 
that was the purpose, as I understood it, of the approach in 
the survey, to look and see what is happening on sites where 
the vast, vast majority of people were looking, and I think 
that figure exceeded well over 90 percent.
    Senator Burns. Any other comments?
    Mr. Thompson. Just from the tenor of your question, though, 
I think one of the issues that I would be concerned about, and 
one that I think we want to get at through further study, is 
there a core that we are not getting to, those who are maybe 
well-trafficked but are still not doing what they should be 
doing in terms of privacy policies, and what are the 
impediments there?
    I think that at least from my standpoint would lead me to 
recommend, if necessary, the kind of tailored legislation that 
gets at the problem, but that is one of the issues that I am 
concerned about, especially if we are going to see real growth, 
and we are sensing that now in midsized companies, not just the 
industry leaders, but in a broader base of e-commerce.
    Senator Burns. Can you describe how S. 809 is 
philosophically different from the Children's Online Privacy 
Protection Act that we passed last year that causes you 
concerns? Philosophically, how are we different in that bill 
that we passed a year ago?
    Mr. Pitofsky. I think S. 809 looks in the same direction as 
the children's statute. It has a balance to it that I really 
admire, and it seems to be organized in such a way as to create 
incentives for industry to respond on their own.
    I also like the safe harbor provision that is in the bill.
    My own view is that the idea of commercial Web sites 
invading a family's privacy by taking advantage of kids, of 8, 
9, 10-year-olds, is so outside the acceptable commercial 
behavior that to me, of course, you should have legislation.
    That is intolerable and, indeed, 2 of the 3 major cases 
that we brought challenging companies for their behavior 
invading privacy involved invading privacy of kids. It was 
Senator Bryan and you among others who really led the way in 
getting Congress to act in that area.
    With adults as well, I think invasions of privacy are 
unacceptable. But, we are not talking as we were in the 
children's statute about putting parents in control of their 
children's behavior when they are engaged in commercial 
behavior on the Internet. We are certainly not talking about 
companies essentially saying to the parents, ``Why don't you 
wait outside while we deal with your children?'' While you 
``wait outside'' we will enquire for example, what their 
grandparents give them with respect to stocks last Christmas, 
what is the income of the family, that sort of question.
    That invasion of a family's privacy seems to me utterly 
unacceptable, and that is the reason why we supported 
legislation there. I feel the same about privacy connected with 
financial records, medical records. Here, it is a tougher 
question.
    Senator Burns. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Burns. I guess I went out of order. It should be 
Senator Bryan. I am sorry.
    Senator Bryan. I appreciate that, but I would defer to 
Senator Wyden. He is a cosponsor of the legislation. Go right 
ahead.
    Senator Wyden. I thank my friend for his graciousness.
    Mr. Chairman, so many nice things have been said about S. 
809 in the last half-an-hour I am tempted to say we ought to 
quit while we are ahead and just go forward, but I would like 
to ask about a couple of issues, and let me direct this one to 
you, Mr. Pitofsky.
    The commission said last July, and I quote here, unless 
industry can demonstrate that it has developed and implemented 
broadbased and effective self-regulatory programs by the end of 
this year, additional Government authority in this area would 
be appropriate and necessary, and I would like to begin by 
asking you if you think that the Georgetown study met the test 
that the commission laid out a year ago.
    Mr. Pitofsky. I do not believe that industry self-
regulation is nearly where it has to be in order to persuade 
all of us that legislation is not appropriate.
    I do believe that the progress they made in 1 year is 
surprising to me, and impressive.
    Senator Wyden. If a company publishes a privacy policy 
which provides consumers with no choice, and that company 
collects and resells personal information about their 
customers, in your view does that provide adequate privacy 
protection for the consumer?
    Mr. Pitofsky. I do not think so. I know there is a bill 
that says, put up a privacy policy, it does not matter what it 
says, just put something up there and that will satisfy the 
law. I think consumers are entitled to better than that if we 
are going to go the legislative route.
    Senator Wyden. In your opinion today, does the FTC have the 
authority to take any action in those kinds of cases?
    Mr. Pitofsky. Where they put up no policy at all? I do not 
think we do. We put out an advisory opinion that perhaps we 
could act where the victims were children, but if the victim is 
an adult, we could take that case to the courts and maybe we 
could win it, but it would be beyond the precedent base of our 
unfairness jurisdiction as it now exists.
    Mr. Swindle. Senator Wyden, may I comment on that? You 
characterize this as a consumer having no choice. The consumer 
always has a choice. It is simply to click. That is what is so 
marvelous about the Internet. It is perhaps the ultimate of 
free expression and choice. The consumer does not have to be 
there if they do not like what they see, or they do not like 
the products they get, they do not like the prices, they do not 
like the questions being asked.
    I know I personally, on one of the major newspapers, I log 
on because I read most newspapers by the Internet, the site 
started to ask me a bunch of questions. After I got by my name 
I said, I am not going to answer these questions, so away they 
went, and now I look at it in print form, although the ink 
makes me sneeze, so I am still not too happy with them, but I 
just simply will not deal with the website. Apparently, I have 
forgotten which Senator mentioned that a survey recently of 
major CEOs, 60 percent of them said they do not give personal 
information either. That is choice.
    As to Senator Burns' comment about the philosophical 
differences between the online children's privacy and what we 
are talking about here, I think it is a matter of we are 
dealing with children in one case and adults in another.
    As I commented in my earlier comments, democracy depends on 
individual responsibility, and so we are never without choice, 
and we will never reach perfection in this. No law ever does 
reach perfection, but I would contend, looking at the numbers, 
that we are going to have even a harder time with this one.
    We could always look to the example of the Soviet Union. 
They virtually, or at least claimed to have perfection. They 
had no freedom, but they had perfection. They did not have much 
crime.
    So I think these kinds of things have to be taken into 
consideration.
    Senator Wyden. I think what the debate is about, 
commissioner, is whether people have an informed choice, and to 
me capitalism and making free markets work only can go forward 
when people can get information so they can make an informed 
choice. There is no debate at all about the fact that you can 
click the button.
    The question is, can you have enough information so that 
when you are making those choices with the clicks, they can be 
informed ones, and that is why I come to this as one of the 
coauthors of the Internet tax freedom bill, and Y2K liability, 
and encryption, and a whole host of other things, making it 
very clear I am not some wild-eyed fanatic for regulating the 
Internet and running some kind of one-size-fits-all Federal 
operation from Washington, D.C.
    I am just very troubled by the fact that I do not think in 
a lot of instances people are getting the information to make 
choices, and what Bob Pitofsky essentially said is, he is 
concerned about the problem. We can debate about what to do 
about it, he does not think the commission has the authority to 
do what I think is important for the bad actors that I know you 
are concerned about and I am concerned about, and that is what 
we are wrestling with, and that is what we are trying to strike 
the balance on.
    Now, just a couple of other questions, and any commissioner 
really can get into this. My understanding is that, as of 
today, it is still a small number of Web sites that actually 
belong to one of these seal programs, one of the programs to 
try to have the self-regulation that we have commended the 
larger companies for.
    Now, again, as with all of this, you have to put it in 
context. If you go on aggregate number of hits, it seems to me 
we are just as Bob Pitofsky said, we are making some progress, 
but if we have got a lot of people out there running Web sites 
without any effort to belong to these seal programs, that 
troubles me as well.
    Is it correct that it is a pretty small number of Web sites 
belonging to seal programs?
    Mr. Thompson. I think the answer is yes. I think that is 
one of the challenges for the industry, is to figure out how 
they can broaden that coverage, but it also points out, without 
trying to cast a shadow on S. 809, but some of the areas that I 
would like more information about in order to better, if I were 
making legislative recommendations, to better tailor it. One 
is, what is the size of that core, and is there something in 
legislation that would be more directed at getting at that 
problem? That is number 1.
    Second of all, with regard to the safe harbor, I really 
think that industry members, who are doing a good job, should 
be getting the benefit of that safe harbor, but it is hard to 
tell from at least where I stand at this point how broad that 
safe harbor should be, who it should cover, and under what 
circumstances. That is some of the information I would like to 
find out as our further study commences.
    Senator Wyden. That is a fair comment, and I can tell you 
that Senator Burns, as we worked on the legislation and as he 
and I talked to folks in the industry, it is our desire to 
ensure that there is a wide birth for self-regulation. I mean, 
we want to make sure that that safe harbor is done right, and 
Bob Pitofsky and I have talked about it. We would very much 
appreciate the counsel and the input of the commission and the 
good folks that you have over there to do it right, because we 
want to give a wide birth for that, and to let the broadest 
possible set of self-regulatory efforts go forward.
    A last question I have, and again I am taking time from 
Senator Bryan----
    Senator Burns. I am going to cut you off here.
    Senator Wyden. Can I just ask one other real quick one? 
Given the fact that now the FTC has said they do not have much 
authority--we have got a small number of Web sites belonging to 
a seal program.
    What we are saying is that there really is almost a pattern 
of nonenforcement of what is out there today, and I guess the 
last question for any of you, given the fact that we are trying 
to deal with the bad actors, it seems to me you do need some 
enforcement authority to deal with those kinds of people. Is 
there anything else that might possibly be an enforcement tool 
against people that all four of you would say are sleazy and 
are not in line with the principles that we would like?
    Mr. Thompson. Money. That would help.
    Mr. Pitofsky. Let me start out, first, I hope I have not 
left the impression that we are helpless to address the problem 
created by the irresponsible few on the Internet. That is not 
quite the case. We have brought 91 cases in less than a year 
challenging fraud on the Internet, and several involving 
privacy invasions on the Internet, so if they deceive people, 
they say give us the information and you can count on us, we 
will not abuse the information that you give us, we bring those 
cases.
    Now, second, as more and more companies put a privacy 
policy up on the Internet, to the extent that they do not abide 
by their own policy, that would be deceptive and we would 
challenge that.
    Now, many of them, more than half have privacy policies 
now. My hope is, and maybe I am being unduly optimistic about 
this, is they will have as good a year this year as they did 
last, and we will be up to the point where something like 90 
percent of the companies will have a privacy policy, and if 
they do not observe their own commitments, then we are not 
helpless to act. We would challenge that kind of behavior.
    Mr. Swindle. Senator Wyden, on one point, I think this 
whole process is evolving. As Senator Rockefeller I think said 
earlier, we are just in the embryo stage of this thing, 
realizing that Netscape came along here, the browser, what, in 
1993 or 1994 I believe, and we have gone from having 50 Web 
sites in 1993, I think I heard yesterday at a conference, to 
having 5 million plus now, or 6 million.
    I think we make a mistake by assuming that those who do not 
have privacy policies are bad. That takes us to places I do not 
think we need to go.
    Second, when we judge the progress by the number of people 
who are on the seal programs, or coming under the seal 
programs, BBBOnline, or TRUSTe and so forth--there are many 
extraordinarily good companies, I suspect. I do not have the 
numbers, and I have written myself a note to find out--that 
have privacy policies that are probably very good, but who are 
not members of one of the seal programs. So, I just think we 
have got to look at the big picture here and not just pick out 
one thing and say, BBBOnline has only got X number of members.
    Thank you, sir.
    Ms. Anthony. I would just like to make this point. Federal 
legislation setting out minimum standards and industry self-
regulation are not mutually exclusive. Our own FTC act, which 
requires that advertising be truthful and nondeceptive, which 
the Congress in its great wisdom passed some many years ago, 
still has engendered a very robust self-regulatory program by 
the advertisers of America, and they work with us on a very 
constant basis in seeing that advertising in the United States 
is on sound footing.
    Passing minimum standards here to protect consumer privacy 
does not spell the death knell for self-regulatory efforts. In 
fact, I should hope they would be enhanced from that starting 
point.
    Senator Wyden. I took a lot of time. Thank you, Mr. 
Chairman.
    Senator Burns. I would have to say that this business 
probably is not any different than any other business, and I 
was struck by the comment of Mr. Swindle who says, how do you 
find a balance that you do not kill the enthusiasm of this 
economic engine and still give the consumer the protection that 
he deserves, and that is a very fine line.
    Senator Bryan.
    Senator Bryan. Thank you very much, Mr. Chairman, and to 
each of our distinguished witnesses, thank you very much for a 
very thoughtful dialogue today. I think this is very helpful.
    I continue to be dazzled and amazed with the extraordinary 
explosion of information-gathering capability. In this article 
that I mentioned briefly in my opening comments, it goes on to 
point out that one Web portal acquires 400 billion bytes of 
information each day.
    Now, I think for most Americans the definition of a byte is 
not something that is probably the discussion at dinner time 
conversation, but we are told here it is the equivalent of 
800,000 books that would be placed in a library each day. I 
recognize it as a very difficult concept to fully get our arms 
around and to do the right thing, but let me say, Chairman 
Pitofsky, with whom I have had a wonderful working 
relationship, and I do very much appreciate, it does strike me 
as a kind of a follow up to Senator Wyden's question, that we 
do have a catch-22.
    You are saying, and I think that is correct, that those Web 
sites that publish privacy standards, that if they violate 
that, that you have the ability under, I think it is section 5, 
to enforce that. Yet for the rogues out there in the world, if 
they have no privacy standard, it would seem to me that you 
have no capability at least to operate under the premise of a 
deceptive trade practice.
    Is that not a kind of a catch-22? The very people that we 
probably want to bring on board because there are a number of 
responsible Web operators who are moving in the direction that 
we all want. Let me give you an opportunity to respond to that, 
the catch-22 syndrome.
    Mr. Pitofsky. I think the point you make is very well-
taken. It is a problem. I think I would like to join my 
colleague, Commissioner Thompson. What we want to find out a 
little bit better is, who are those people out there? It is 
possible that the people who are gathering hundreds of 
thousands of pieces of information, they are the ones that have 
privacy policies.
    The 34 percent that do not is somebody operating in their 
backyard on a narrow range selling some food product or some 
record or some book. They do not have the kind of information 
that anybody would buy anyway.
    But we do not know the answer to that. I am not asserting 
that. I am saying, I want to find out more about it.
    Let me just say, I want to share the view of my colleague, 
Commissioner Anthony, that this is not either-or. Self 
regulation and legislation have to mesh. What I am saying is 
that we would know more, be in a better position to decide what 
minimum standards ought to be, after we study this area a 
little more and get some more information.
    Senator Bryan. Mr. Swindle, if I might be able to respond 
to a comment you made and give you an opportunity to respond to 
my comment, you have unfurled the banner of choice. That is the 
essence of the greatness in America, it seems to me. We have a 
lot of choices, and the entrepreneurial genius of the free 
market systems provide us a range of choices that are beyond 
what any of us could have imagined a decade ago, much less a 
half century ago.
    But you said the choice, you can dial up on the Web, and if 
you do not want it, you do not have to, but that does ignore 
one aspect that is particularly troublesome to me, and that is 
this concept of cookies, these Web sites that put these tags 
on. I think most people have no idea that by simply browsing, 
all of a sudden information can be captured with respect to 
them. How do you respond to that issue, because that is not 
choice.
    Mr. Swindle. Senator, I totally agree with you. I think 
what you are speaking of, the consumer's lack of knowledge or 
now the acquiring of knowledge is reflected somewhat in the 
statistics that Commissioner Anthony used a little while ago, 
when she said a survey was taken last year and said that 81 
percent of the people were concerned about the privacy on the 
Internet, and a more recent study said 88 percent are 
concerned.
    I would contend that is because they now have more 
knowledge of what is possible through, as you describe, the 
cookie.
    Again, as I tried to point out, we are in an industry that 
is evolving in every sense of the word. Awareness on the part 
of the public, consumer education, Government regulatory 
agencies trying to understand the phenomenon, businesses trying 
to understand the phenomenon.
    I have been aware of this ``Cookies'' for some time, but 
perhaps I am a little bit better informed by circumstance. 
Certainly not by intellect, I might add, but certainly by 
circumstance, and I am highly offended when one of these sites 
starts asking me a question. I just leave them. I will not do 
it.
    But when you do not know that it is going on you are being 
victimized, and I think if we get more consumer education out 
there, and people become more aware, we will see changes, and 
industry is going to recognize they have got to satisfy their 
customers.
    Senator Bryan. Do we have any idea how much information is 
collected through this cookies device, and what these Web sites 
are doing with it? Are they blending offline information, 
address, social security number, that sort of thing? I will 
just toss that out to any one of you who might care to respond. 
Do we have any information?
    I find this particularly troublesome because in this sense, 
even the fairly sophisticated user of the Internet is captured. 
In other words, it is a gotcha. You dial up, and that 
information is captured. It is not a volitional choice as to 
whether or not you want to do business, or to request 
information from the Web site. Is there any information out 
there that we have?
    Mr. Pitofsky. You asked two questions. One is, do we have 
any sense of how much information is collected surreptitiously, 
not just about what you buy, but what you think of buying, what 
you are browsing. My answer is we do not. At least, I am not 
aware of it. I think frankly this exchange suggests to me that 
in our report we ought to address that issue. Either we know 
that answer, or we should say we do not.
    As to your other question, I think we do know that 
companies are blending online and offline information in 
something called profiling, identity profiling, and that is 
very troublesome, too. Commissioner Anthony read that long, 
long range of information that is being gathered about people. 
I think quite frequently that includes online and offline 
sources of information, and it is a subject that ought to 
trouble all of us.
    Senator Bryan. And finally, let me just ask a question that 
is just a bit off the beat, but I think raises some policy 
considerations.
    Sometime back we had a hearing before this committee on 
broadband technology, and I recall the AOL person who testified 
raised the issue that was described essentially access is 
gained through the telephone system or cable, and that through 
the telephone system we have a common carrier concept. 
Everybody kind of has access to it, and a level playing field, 
whereas with respect to cable that is not the case. The AOL 
representative I thought made a fairly persuasive point that 
that is something we need to take a look at.
    Now I read in the newspaper fairly recently that two of the 
titans in the industry, Microsoft and AOL are going toe to toe 
with respect to this instant messaging concept, and Microsoft 
comes out with the software that will allow their users in 
effect to communicate with the AOL instant messaging 
subscribers, and now AOL counterattacks by blocking access, and 
now Microsoft is indicating that they are going to come back 
with some kind of a counter to that counter.
    Are there not some public policy implications? I mean, if 
we were back in 1876 after Alexander Graham Bell asked Mr. 
Watson to come here, that the idea that somehow we would allow 
in the 20th Century. You cannot gain access to another 
telephone system I think would come as a shock to us.
    What are the policy implications for us there? I am talking 
about consumers, recognizing there are some legitimate 
proprietary interests. I am not sure I have got the answer, but 
you all give a lot of thought to these kinds of things. If I 
could invite your response, and I thank you, Mr. Chairman 
    Mr. Pitofsky. Two reactions. No. 1 is, you are absolutely 
right to put this issue in the much broader context of where we 
are going structurally in communications technology.
    No. 2, I am going to duck and say, we may take a look at 
this question, and if we do I do not think I should be speaking 
out on the issue at this time.
    Senator Bryan. Well, we may read something into that. Thank 
you. [Laughter.]
    I think that is a subliminal message. I would invite 
anybody else to respond. Silence reigns in the valley.
    Senator Burns. Being raised and living west of the 100th 
meridian, and dealing with the era that you were talking about, 
about this, I am afraid we would have another OK Corral to 
settle this.
    Senator Bryan. It could be another Little Big Horn, 
however. [Laughter.]
    Senator Burns. Senator Rockefeller.
    Senator Rockefeller. It is very interesting to me, just 
from the point of view of the nature of Americans, when you 
come to an issue like this. Justice Brandeis was terrified of 
the invasion of privacy when photographs came out, and now we 
are going through exactly the same thing, with the obvious 
difference that the reach of the Internet is far greater, far 
more pervasive, and far more damaging to privacy than obviously 
a photograph. Although photographs have done some fairly 
amazing things in American life.
    I guess the question I would ask is, if less than 10 
percent of Web sites are doing what is felt to be adequate, 
then one would come to the automatic judgment, well then, we 
have to do something about it.
    Then on the other hand 82 percent of the American people 
are worried that their privacy is going to be invaded, and a 
lot of them say they would rather not even get on the Internet 
than take that chance. That would seem to go against the 
interests of the industry because that is like depriving 
themselves of customers if they do not behave as they should.
    Frequently, industry wants to respond to its consumers, 
needs to respond to its consumers, and particularly in an 
industry like this one, where 9 out of 10 startup companies go 
out of business, which is higher than the usual. It is 
incredibly competitive, incredibly important to satisfy your 
users.
    So that leads me to this. It would seem to me there is an 
incentive, which is called the market, more business for 
industry to do better, as, indeed, Microsoft and a few other 
companies are doing better, as the Georgetown studies and 
hearings like this in an incredibly young industry-- remember, 
we did not have any Internet in the Senate until 2 or 3 years 
ago, so this is a very, very young industry. It would seem to 
be in the interest of industry to protect privacy to the extent 
that it can.
    Now, I do not know what that really means, but I would be 
interested in your reaction, Mr. Chairman, and those of the 
other commissioners, of how at this very young stage you come 
to judge what the potential for this industry's behavior in 
response to this problem might be.
    Mr. Pitofsky. That is quite a challenge. My own sense, and 
I speak only for myself, is I think this industry does get it. 
Or at least, let me put it this way, I think the responsible 
leaders of this industry get it, and they know that it is in 
their interest to ensure to consumers that their privacy will 
be protected and to crack down if they can on those other 
companies who do not get it. I think they have worked hard in 
this area over the last year or so.
    Are they going to accomplish all that virtually all of us 
in this room agree is necessary? I do not know, but I do think 
we ought to let this issue work its way out a little bit 
longer. We ought to let a little time go by. If nothing else, 
we will have a better idea of what legislation we really need.
    What is reasonable access? What does that consist of? What 
are security arrangements? How should we set up the safe 
harbors? We know a lot now. I think we will know a lot more in 
6 months, 8 months, 10 months. We will certainly know whether 
this remarkable progress is going to continue.
    Senator Rockefeller. That is very interesting to me. I 
would have said 1 or 2 years, or 3 years, and you are saying 
no, a much shorter time. You are not for the legislative 
approach. You are for the self-regulatory approach.
    But on the other hand, you are saying, if in a period of 6 
to 8 to 10 months we do not see the protection of privacy that 
we feel that we need to meet the criteria, for example, that 
the Georgetown report talks about, then the FTC might change 
its view and take a tougher view.
    Now, that is a very interesting time line. I mean, around 
here it usually takes 3 or 4 years to pass anything, and in 
fact, the chairman of this full committee is totally against 
the bill that the subcommittee chairman is for, and given the 
power of chairmen, the bill may never come up.
    So it is philosophically within the American political 
context interesting to me that, do we go now for what we judge 
to be the right criteria and lay it down, understanding that 
what you put up on your Web site as labeling of your protection 
of your customers does not necessarily mean you have to follow 
through underneath.
    I mean, Meg Widman to me is sort of the perfect example. 
Meg Widman is caught right in between with eBay, because she 
has to have information about her customers in order for her 
customers to trust each other enough in order to do business 
with each other through the medium of auctioning, therefore she 
has to have information. Yet, if she gets caught getting too 
much information, which is--not caught, but if she gets too 
much information and it goes beyond what competing potential 
buyers need, then she could be in some kind of trouble, so it 
is interesting to me that you say 6 or 8 or 10 months might 
tell us what we need to know.
    My question from that obviously has to be, does that mean 
that 9\1/2\ percent of Web sites which now do provide that kind 
of privacy will--that that is going to increase enormously in 6 
or 8 or 10 months, or are there discussions not only in the top 
100 Web sites but in the whole industry? Are they ongoing to 
the extent that one could reasonably say, well, there are going 
to be substantial changes in the industry? The FTC would accept 
that position for the moment if they believe that there will be 
changes?
    Mr. Pitofsky. Let me respond, and I know my colleagues want 
to speak to your excellent questions.
    Our report commits us. We will be back here with a report 
in less than a year. Now, a couple of months have gone by 
already since we wrote our report, so we are going to be back 
here soon. I do not think this is an industry where you wait 
around 3 or 4 years. It moves too quickly, and therefore I 
think we have a responsibility to have a followup report in 
this area.
    Am I convinced that industry's word is good, and they will 
really achieve all these things? I am very interested in their 
commitments and in their hopes and in their ambitions, but no, 
that is not going to be the answer. The answer has to be 
production of a privacy policy that satisfies as many of these 
goals as this group thinks ought to be satisfied.
    I think things are going to get better. I think they will 
continue to improve. The way I put it is, will they get to the 
goal line? I don't know. They have a long way to go.
    Mr. Thompson. I think you raise some excellent questions, 
and raise some of the concerns that I have.
    First of all, one of the challenges that we are seeing is 
whether industry, the leaders in the industry can reach out and 
capture those who are not participating.
    Now, we have to understand the impediments why they are 
not, but let me tell you there are some things going on right 
now that we think are very helpful. For example, when IBM and 
Microsoft say that they are not going to advertise on Web sites 
that do not have a privacy policy, and this is our strategy for 
moving in that direction, that is the kind of business-to-
business initiative that moves in the right direction. That is 
one.
    Second, is when the Online Privacy Alliance and others like 
the DMA say, if you do not have a privacy policy that meets 
these principles by X date, then you will no longer be a member 
of our association, that is another business-to-business kind 
of initiative that we think moves in the right direction.
    Also, when they begin to say we are going to have a 
business education program that is going to have these kinds of 
milestones, those are the kinds of initiatives that are going 
to be important. We have to begin to measure those milestones 
and examine them carefully to see how they fit into a 
legislative recommendation.
    In addition, there are other things going on at the same 
time that are going to be very important to this discussion. 
The fact that technology is going to be improving, we know 
that. There are some companies that we have heard of that want 
to provide consumers with tools so that they can decide how 
they want to use information. That is going to be factored in.
    At the same time we have seen the movement of getting 
better technology to deal with cookies, not just the fact that 
the best that we have now is that when someone puts a cookie on 
your machine they tell you there is a cookie. It does not tell 
you what that cookie does. It does not tell what information 
they are gathering, though we have seen people working on 
technology to give consumers better information about what the 
nature of those cookies are.
    All of those things are coming to a head, and where I share 
the chairman's view is this. Do not forget, 3 years ago there 
was no Amazon.com, so 1 Internet-year people frequently say 
equals 3 years of normal business time, so that if we are 
talking about compressed time frames here, I think that 
industry understands that, and we understand that as well.
    Senator Rockefeller. Commissioner Anthony, I apologize, but 
you might have a different opinion. If so, I would like to hear 
it.
    Ms. Anthony. I think the leaders of business really have 
stepped up to the plate in many instances, but as Senator Wyden 
said earlier today, it is not the leaders of the industry that 
I am so terribly concerned about because they are attempting to 
be responsible.
    It is the vast number of others who are gathering 
personally identifiable information and selling it oftentimes 
to people with whom the visitor to the Web site has not 
contracted for any purpose, or really has no idea that the 
information is being passed on to others.
    I think that is the most offensive thing to me. I cannot 
speak for all Americans, but certainly that is very bothersome, 
very troublesome.
    Senator Rockefeller. Thank you all. Thank you, Mr. 
Chairman.
    Senator Burns. Thank you. I want to thank the commission.
    Mr. Swindle, you said a while ago there is always the 
click. You can always click it off whenever you think----
    Mr. Swindle. It is time to click.
    Senator Burns. Well, I can remember, and so can the rest of 
the members of this committee, when we were talking about the V 
chip, and ratings and things on television, and some 
inappropriate material that we thought should have some way to 
be identified and to be filtered and this type thing. Well, I 
always said there is a V chip on your television right now. It 
is called an on and off button, and I lost that argument, by 
the way.
    But nonetheless, I thank you for your opinion this morning. 
It is really valued, and you have spent an inordinate amount of 
time dealing with this situation, and I appreciate that very 
much.
    Are there any other Members that have other questions of 
the commission this morning?
    I want to again express my appreciation.
    Senator Rockefeller. Can I ask one? You should not have 
asked that.
    Senator Burns. We almost made it, Mr. Chairman. [Laughter.]
    Senator Rockefeller. This in fact interests me very much, 
because recently the FCC--not FTC, but FCC ruled that all 
cellular phones must have the ability to give emergency 
personnel an exact location of a phone's user.
    Just think about that. That means that anybody under a 
circumstance could be identified precisely where they are by 
law, by Government regulation, and that could be seen to be 
dangerous, and with far-reaching consequences.
    I remember a number of years ago an enormous tree, 150-
year-old oak fell on my wife and car, and she broke a lot of 
ribs and had a lot of damage done to her on a crowded parkway. 
It took an hour-and-a-half for an emergency vehicle to get to 
her.
    Now, I am not saying with a crowded parkway that it would 
have been faster, but to know exactly where she was would have 
been good, and yet that also raises questions, I would think, 
with some of you. I am interested in the philosophical tug of 
that, with my apologies to the chairman.
    Mr. Pitofsky. Very quickly, that is a tough one. I do not 
think this issue we have been discussing is nearly as tough as 
the one you raise, because there is a tradeoff on the issue you 
raise between the good things that are accomplished and the 
invasion of privacy. I mean, who wants the world to know 
exactly where you are every minute? I do not see this set of 
issues in that way.
    Here, people are taking personally identifiable 
information, accumulating it, marshaling it, and selling it 
without your permission. I do not see the tradeoff there. That 
should be prevented. The question is, how you do it.
    Senator Burns. I would draw a parallel. I can remember 
buying a toaster one time and it asked me all these silly 
questions when I sent back the warranty. If I wanted to get a 
warranty on that toaster, they asked me all these questions, 
you know, and there was no way to click off on that. I did not 
fill them out, and I did not get the warranty on the toaster 
anyway. I was going to use it for other than toast. [Laughter.]
    I had another idea, and that did not work, either. 
[Laughter.]
    Thank you very much. We appreciate the commission coming 
down this morning, and I will invite the second panel to come 
forward and take the table. We really appreciate your coming 
down today, because we know you have a busy schedule of your 
own.
    We will now hear from the industry, and we would like to 
call to the table Ms. Jill Lesser, Ms. Deirdre Mulligan, Marc 
Rotenberg, and Ms. Christine Varney. They are representatives 
of the industry, and we are looking forward to their testimony.
    OK, as we get situated we are looking forward to the views 
of the industry, and I would like to introduce at this time Ms. 
Jill Lesser, who is vice president, domestic public policy, 
America Online. Thank you for coming this morning. We are 
looking forward to your comments.

           STATEMENT OF JILL LESSER, VICE PRESIDENT, 
             DOMESTIC PUBLIC POLICY, AMERICA ONLINE

    Ms. Lesser. Chairman Burns, members of the subcommittee, 
thank you for the opportunity to discuss online privacy with 
you today. As Chairman Burns said, I am Jill Lesser, and I am 
vice president for domestic public policy at America Online.
    Privacy is, as we heard in the first panel and as we have 
been hearing in the media, an extremely important issue, 
because the online medium is quickly revolutionizing the way 
people learn, communicate, and engage in business. People are 
migrating online to meet their commerce and communications 
needs, and there is an ever-increasing array of services.
    The online environment also offers unique benefits for 
customization and personalization, and consumers can 
communicate specific preferences online that will allow them to 
receive products and information targeted to them.
    For example, AOL members can set up their own online 
preferences, and I stress that they do this voluntarily, 
putting in their zip code from their home town, and they can 
receive weather and receive news stories in their local home 
town paper.
    But the power of the Internet, as you have heard earlier 
today and as we have repeatedly said, can only be realized if 
consumers feel confident that their privacy is protected online 
and that they trust the entities with whom they are doing 
business and communicating.
    We, as a company, have taken many important steps to create 
an environment where our members can be certain that their 
personal information is protected, and we protect the choices 
they make regarding that information. Building on the lessons 
that we have learned, sometimes from difficult experiences, and 
the input we have received from our members and policymakers, 
many of you included, we have created privacy policies that 
clearly explain our policies to our users, what we collect, 
what we do with it, who we share it with, and how they can 
exercise choices.
    The privacy policy that we have lately adopted is based on 
eight core principles, some of which are, we do not read any 
online private communications, we do not use information about 
where our member goes online for anything, and we do not share 
any of that information with others. We give choices to AOL 
users, and we take extra steps to protect kids.
    We also make sure, and I think this is very critical, that 
the privacy policy we have adopted is implemented throughout 
the company and is signed by each and every one of AOL's 
employees, and we keep our users informed about how they can 
protect their own privacy.
    For example, we constantly encourage--indeed, every time a 
member signs on, that they should not give out their personal 
information unless they know with whom they are dealing, and 
should never give out their AOL password to anyone.
    As I said, we take extra steps to protect kids. That 
includes the creation of a kids-only area, and we did, as I 
will discuss later, support Senator Bryan's efforts last year 
in the Children's Online Protection Act, because we do believe 
there was an area of particular concern.
    Going further than just privacy, and also just with respect 
to AOL proper, we have developed one of the strongest examples 
I think of consumer protection and privacy online with our 
Certified Merchant program, where we basically require all of 
our merchants, and that is all the partners who sell to 
consumers within the AOL shopping area, to abide by our 
Certified Merchant program, and that includes adopting their 
own privacy policy or complying with America Online's privacy 
policy in addition to engaging in other forms of consumer 
protection disclosures like making sure people understand what 
return policies are, when products will be shipped, and the 
like.
    As you will hear from Christine Varney, we have been a 
leader in the Online Privacy Alliance, which has undertaken to 
promote market-driven policies in the area of privacy, and we 
also believe strongly that technology holds the key to ensuring 
a safe and secure online environment.
    As an online service provider, we believe it is critical to 
be able to provide the most sophisticated security technologies 
to our members in order that they can help protect their own 
privacy, and we will, as we have in the past, continue to 
advocate strong encryption uses here and abroad.
    Let me comment on the focus of today's hearing, and that is 
S. 809, the Online Privacy Protection Act. We would urge the 
committee, as I think the FTC has done, to proceed with caution 
in considering legislation, but we do not believe that our 
comments indicate that Congress should be any less vigilant in 
tracking industry's progress in identifying areas where 
legislation may be appropriate.
    As I noted earlier, we did support the Children's Online 
Privacy Protection Act because of the unique concerns relating 
to child safety in the online environment. However, even that 
legislation, which was carefully crafted and widely vetted, is 
raising challenging interpretation and implementation issues 
for the Federal Trade Commission and the industry, and we are 
going to continue to work through that process.
    With respect to the specifics of S. 809, I would urge the 
committee to consider focusing not on a regulatory framework, 
but on an enforcement framework. In that way, I think that the 
FTC can be empowered to stop the bad guys, in quotes, and let 
the good guys continue to serve consumers with innovative 
services and products.
    What our research shows is that consumers are most 
interested in an honest exchange. They see the benefit of the 
services they receive online, but they want to ensure that they 
know who will have access to the information and what will be 
done with it, and so I think that focusing on giving the FTC 
the powers they need, as Chairman Pitofsky noted, to basically 
go after those folks who are engaging in fraudulent business 
practices, while not telling the leaders in the industry 
exactly where and how, for example, they need to post privacy 
policies, will be very productive discussion, and we look 
forward to engaging in that dialogue with you, Mr. Chairman, 
and with Senator Wyden and others interested in this important 
issue.
    I appreciate the opportunity to appear here, and I am happy 
to answer any questions.
    [The prepared statement of Ms. Lesser follows:]

  Prepared Statement of Jill Lesser, Vice President, Domestic Public 
                         Policy, America Online

    Chairman Burns, Senator Hollings and Members of the Subcommittee, I 
would like to thank you, on behalf of America Online, for the 
opportunity to discuss online privacy with you today. My name is Jill 
Lesser, and I am the Vice President for Domestic Policy at AOL.
    Privacy is an extremely important issue because the online medium 
is quickly revolutionizing the way we learn, communicate, and do 
business. People are migrating to the Internet to meet their commerce 
and communication needs at an extraordinary rate because it is 
convenient and fast, and offers an ever-growing selection of 
information, goods and services. AOL subscribers can sign on to our 
service and do research, shop for clothes, and buy airline tickets all 
in a matter of minutes.
    In addition, the online environment offers users unique benefits of 
customization and personalization. Consumers can communicate specific 
preferences online that will allow them to receive information targeted 
to their own interests. For instance, AOL members can set their online 
preferences to get the weather forecast for their own zip code, read 
news stories about their own hometown, or receive notices about special 
discounts on their favorite CDs. No other commercial or educational 
medium has ever afforded such tremendous potential for personalization.
    But the power of the Internet can only be fully realized if 
consumers feel confident that their privacy is properly protected when 
they take advantage of these benefits. We know very well that if 
consumers do not feel secure online, they will not engage in online 
commerce or communication--and without this confidence, our business 
cannot grow. For AOL, therefore, protecting our members' privacy is 
essential to earning their trust, and this trust is, in turn, essential 
to building the online medium. We learned this important lesson through 
our own mistakes not too long ago, when an AOL employee wrongly 
revealed the screen name of one of our members to the government.
    Recognizing the importance of this issue, AOL has taken a number of 
steps to create an environment where our members can be certain that 
their personal information and their choices regarding the use of that 
information are being respected: from creating and implementing our own 
privacy policies and educating our members about them, to promoting 
best practices among our business partners, to engaging in industry-
wide initiatives and enforcement mechanisms that will raise the bar for 
all companies who do business online.
    Although the Internet is growing at a tremendous pace, we are still 
only at the beginning of the development of this new medium. Industry 
initiatives are helping to craft the ``rules of the road'' that will 
dictate online business practices, and we believe that it is important 
to see how those rules develop rather than imposing a sweeping 
regulatory framework on the Internet and e-commerce. Therefore, we hope 
to continue working with policymakers, consumer groups, and industry 
colleagues to promote industry-led, market-driven initiatives that will 
build on the progress we have already made and ensure that individual 
privacy is protected online.

                           SETTING AN EXAMPLE

    AOL is committed to protecting consumer privacy. Building on the 
lessons we have learned and the input we have received from our 
members, we have created privacy policies that clearly explain to our 
users what information we collect, why we collect it, and how they can 
exercise choice about the use and disclosure of that information. We 
update our policies and procedures to respond to changes in technology 
or consumer demand, but our commitment to core privacy protections 
remains constant. AOL's current privacy policy is organized around 8 
core principles:
    (1) We do not read your private online communications.
    (2) We do not use any information about where you personally go on 
AOL or the Web, and we do not give it out to others.
    (3) We do not give out your telephone number, credit card 
information or screen names, unless you authorize us to do so. And we 
give you the opportunity to correct your personal contact and billing 
information at any time.
    (4) We may use information about the kinds of products you buy from 
AOL to make other marketing offers to you, unless you tell us not to. 
We do not give out this purchase data to others.
    (5) We give you choices about how AOL uses your personal 
information.
    (6) We take extra steps to protect the safety and privacy of 
children.
    (7) We use secure technology, privacy protection controls and 
restrictions on employee access in order to safeguard your personal 
information.
    (8) We will keep you informed, clearly and prominently, about what 
we do with your personal information, and we will advise you if we 
change our policy.
    We give consumers clear choices about how their personal 
information is used, and we make sure that our users are well informed 
about what those choices are. For instance, if an AOL subscriber 
decides that she does not want to receive any targeted marketing 
notices from us based on his personal information or preferences, he 
can simply check a box on our service that will let us know not to use 
his data for this purpose. Because we know this issue is so critically 
important to our members and users, we make every effort to ensure that 
our privacy policies are clearly communicated to our customers from the 
start of their online experience, and we notify our members whenever 
our policies are changed in any way.
    We also make sure that our policies are well understood and 
properly implemented by our employees. We require all employees to sign 
and agree to abide by our privacy policy, and we provide our managers 
with training on how to ensure privacy compliance. We are committed to 
using state-of-the-art technology to ensure that the choices 
individuals make about their data online are honored. And, we believe 
that our commitment to consumer privacy and the means we give our 
subscribers to exercise their privacy prerogatives gives us a clear and 
meaningful market advantage in attracting and retaining subscribers.
    Finally, we try to keep users informed about the steps they can 
take to protect their own privacy online. For instance, we emphasize to 
our members that they must be careful not to give out their personal 
information unless they specifically know the entity or person with 
whom they are dealing, and we encourage them to check to see whether 
the sites they visit on the Web have posted privacy policies.

                       PROTECTING CHILDREN ONLINE

    AOL takes extra steps to protect the safety and privacy of children 
online. One of our highest priorities has always been to ensure that 
the children who use our service can enjoy a safe and rewarding online 
experience, and we believe that privacy is a critical element of 
children's online safety.
    We have created a special environment just for children--our ``Kids 
Only'' area--where extra protections are in place to ensure that our 
children are in the safest possible environment. In order to safeguard 
kids' privacy, AOL does not collect personal information from children 
without their parents' knowledge and consent, and we carefully monitor 
all of the Kids Only chat rooms and message boards to make sure that a 
child does not post personal information that could allow a stranger to 
contact the child offline. Furthermore, through AOL's ``Parental 
Controls,'' parents are able to protect their children's privacy by 
setting strict limits on whom their children may send e-mail to and 
receive e-mail from online.
    Because of the unique concerns relating to child safety in the 
online environment, AOL supported legislation in the 105th Congress to 
set baseline standards for protecting kids' privacy online. We worked 
with Senator Bryan, the FTC, and key industry and public interest 
groups to help bring the Child Online Privacy Protection Act (COPPA) to 
fruition last year. We believe the enactment of this bill was a major 
step in the ongoing effort to make the Internet safe for children.

                        FOSTERING BEST PRACTICES

    In addition to adopting and implementing our own policies, AOL is 
committed to fostering best practices among our business partners and 
industry colleagues. One of the strongest examples of this effort is 
our ``Certified Merchant'' program, through which we work with our 
business partners to guarantee our members the highest standards of 
privacy and customer satisfaction when they are within the AOL 
environment. AOL carefully selects the merchants we allow in the 
program (currently there are over 150 participants), and requires all 
participants to adhere to strict consumer protection standards and 
privacy policies. The Certified Merchant principles are posted clearly 
in all of our online shopping areas, thereby ensuring that both 
consumers and merchants have notice of the rules involved and the 
details of the enforcement mechanisms, which help to foster consumer 
trust and merchant responsiveness.
    Here are the criteria that our merchants have to meet in order to 
become certified and to display the America Online Seal of Approval 
(some screen shots that show how these criteria appear to subscribers 
on our service are attached to this testimony):
    1. Post complete details of their Customer Service policies, 
including: Contact Information, Shipping Information, Returns Policies, 
and Money-Back Satisfaction Guarantee Information.
    2. Receive and respond to e-mails within one business day of 
receipt.
    3. Monitor online store to minimize/eliminate out-of-stock 
merchandise available.
    4. Receive orders electronically to process orders within one 
business day of receipt.
    5. Provide the customer with an order confirmation within one 
business day of receipt.
    6. Deliver all merchandise in professional packaging. All packages 
should arrive undamaged, well-packed, and neat, barring any shipping 
disasters.
    7. Ship the displayed product at the price displayed without 
substituting.
    8. Agree to adopt privacy policies that comport with AOL's privacy 
policy.
    Through our Certified Merchant program, we commit to our members 
that they will be satisfied with their online experience, and we have 
developed a money-back guarantee program to dispel consumer concerns 
about shopping online and increase consumer trust in this powerful new 
medium. We believe that these high standards for consumer protection 
and fair information practices will help bolster consumer confidence 
and encourage our members to engage in electronic commerce.

                  HELPING TO PROMOTE INDUSTRY EFFORTS

    The online industry as a whole is taking positive steps toward 
protecting consumer privacy. In fact, to improve industry's commitment 
to online privacy, AOL joined with other companies and associations 
last year to form the Online Privacy Alliance (OPA), a group dedicated 
to promoting privacy online.
    As you will hear today, the OPA has worked hard to develop a set of 
core privacy principles--centered around the key concepts of notice, 
choice, data security, and access--and its members are committed to 
posting and implementing privacy policies that embody these principles. 
Since we began our efforts just a few months ago, the OPA has grown to 
include more than 85 recognized industry leaders, and industry efforts 
to protect consumer privacy online have blossomed.
    A recent study conducted by Georgetown University Professor Mary 
Culnan shows that, in a sample drawn from a pool of the 7500 most 
visited websites, more than 65% of the sites have posted a privacy 
policy or a statement about their information practices. This number 
demonstrates a tremendous increase from the number of sites posting 
policies just one year ago, when the FTC conducted a similar study.
    Following closely on the heels of the Georgetown study, the FTC 
released its report to Congress on the status of the industry's efforts 
to protect consumers' online privacy and presented testimony before 
this Subcommittee. Based on the progress of industry itself, the report 
concluded that legislation to address online privacy was not 
appropriate at this time. The FTC credited ``responsible elements in 
the online business community" with accomplishing a great deal in a 
short amount of time. While the report recognized that more needs to be 
done to secure consumers' online privacy, it concluded that industry 
was best positioned to take the leadership role in those efforts 
because it is ``the least intrusive and most efficient means to ensure 
fair information practices online, given the rapidly evolving nature of 
the Internet and computer technology.''
    We concur with the FTC's conclusions; private sector leadership in 
developing fair information practices online is the right approach to 
assuring broad privacy protection in that environment, but we also 
realize that there is still more work to be done. To that end and to 
build on our success to date, the OPA has renewed its commitment to 
reach out to businesses nationwide to explain the importance of 
protecting online privacy and posting meaningful privacy policies.
    We believe that the OPA member companies are setting a new standard 
for online privacy, and that as consumers become more aware of the 
choices available to them, the marketplace will begin to demand robust 
privacy polices of all companies that do business online. But we also 
understand the need for meaningful enforcement of industry standards. 
That's why we abide by the OPA requirement to participate in robust 
enforcement mechanisms through our involvement in the TRUSTe and 
BBBOnline privacy seal programs. We are key sponsors of both the TRUSTe 
and BBBOnline privacy seal programs, and have worked closely with 
industry representatives and members of the academic community to help 
formulate strict standards for seal eligibility.

                          THE CHALLENGES AHEAD

    It is clear that companies are responding to the increasing 
marketplace demand for online privacy, and that the tremendous growth 
of e-commerce reflects positive trends on a variety of consumer 
protection issues, including privacy. But our work has only just begun. 
As technology makes it easier for companies to collect and use personal 
information, the adoption and implementation of robust privacy policies 
will become even more important.
    In part, we believe that technology holds the key to ensuring a 
safe and secure online environment. As an online service provider, we 
believe it is critical for us to be able to provide the most 
sophisticated security technologies to our members so that they can 
take steps to protect their own privacy online. That's why we will 
continue to advocate the widespread availability and use of strong 
encryption, both in this country and abroad.
    The challenges that lie ahead will give us the chance to prove that 
industry and government can work together to promote online privacy. 
But ultimately, it is the consumer who will be the judge of whether 
these efforts are adequate. Because no matter how extraordinary the 
opportunities for electronic commerce may be, the marketplace will fail 
if we cannot meet consumers' demands for privacy protection and gain 
their trust.

                         LEGISLATIVE PROPOSALS

    The focus of today's hearing is legislation designed to extend the 
privacy provisions in COPPA to adults--the Online Privacy Protection 
Act of 1999, S. 809--sponsored by Chairman Burns and Senator Wyden. AOL 
urges the Committee to proceed with great caution in considering this 
or any legislation that would extend regulation of the Internet beyond 
what is currently in force. Not only is generally privacy regulation 
premature, but we are concerned about unanticipated consequences that 
could affect the growth of electronic commerce or otherwise harm 
consumers and/or the industry.
    As the Georgetown study showed and the FTC report confirmed, 
industry led efforts have resulted in a tremendous increase in website 
adoption of privacy policies in a very short amount of time. And, as 
AOL has testified, industry is committed to continuing those efforts to 
achieve even greater progress in the future. Consequently, it is 
premature to consider legislation to address any gaps in self-
regulation until it becomes apparent where such gaps would be. As the 
FTC report concluded, industry-led efforts to address online privacy 
are ``the least intrusive and most efficient means'' to accomplish the 
important public policy objective of creative a secure online 
environment for consumers. Private sector efforts should be given an 
opportunity to mature fully before Congress considers seriously whether 
further privacy legislation is necessary or prudent.
    This is not to say that Congress should be any less vigilant in 
tracking industries' progress and identifying areas where legislation 
is appropriate. For example, as noted previously, AOL supported COPPA 
because of the unique concerns related to child safety in the online 
environment. However, even that legislation, which was carefully 
crafted and widely vetted, is raising challenging interpretation and 
implementation issues for the FTC and for the industry. Just last week, 
the Commission convened a special workshop in an attempt to get a 
better understanding of the myriad issues involved in obtaining 
verifiable parental consent, including whether the federal regulation 
proposed would discourage Internet start ups from offering content 
designed for children.
    With respect to the specifics of S. 809, AOL urges the Committee to 
consider focusing not on a regulatory framework for online privacy, but 
rather on strengthening the FTC's enforcement authority to prevent 
fraudulent business practices. In that way, the ``bad guys'' can be 
stopped and the ``good guys'' can continue to serve consumers with 
innovative services and products. Our research shows that consumers are 
most interested in an honest exchange. They see the benefit of the 
services they receive online, but want to ensure that they know who 
will have access to any information they give out and how it will be 
used.

                                SUMMARY

    We at AOL are committed to doing our part to protecting personal 
privacy online. Our customers demand it, and our business requires it--
but most importantly, the growth and success of the online medium 
depend on it. We appreciate the opportunity to discuss these important 
issues before the Committee, and look forward to continuing to work 
with you on other matters relating to the Internet and electronic 
commerce.

    Senator Burns. Thank you very much. Now we will hear from 
Ms. Deirdre Mulligan, who is staff counsel, Center for 
Democracy and Technology.

   STATEMENT OF DEIRDRE MULLIGAN, STAFF COUNSEL, CENTER FOR 
                    DEMOCRACY AND TECHNOLOGY

    Ms. Mulligan. Thank you so much for the opportunity to be 
here. I want to first thank the chairman and Senator Wyden and 
Senator Bryan for their leadership on the privacy issue and 
also for your work on encryption.
    As you have heard from everyone so far this morning, and my 
guess is you will continue to hear today, there is a fair 
amount of consensus in this room, and I think what I have heard 
from the members of this subcommittee, there has been an 
agreement that consumers are concerned about their privacy. 
Eighty-seven percent of consumers have registered concern--a 
very high percentage of consumers. And I think Senator Wyden's 
earlier comments about very informed consumers, such as chief 
information officers, are incredibly reluctant to participate 
in all of the benefits that this new technology has to offer 
for fear of loss of personal privacy.
    You have heard widespread agreement that abiding by fair 
information practices, or, I would at least say, a narrower 
subset of fair information practices, that have been offered by 
the Federal Trade Commission, would substantially address 
consumers' concerns and help to establish a framework that will 
both promote privacy and enable widespread use of electronic 
commerce.
    You have also heard agreement that it is in businesses' 
enlightened self-interest to proceed in this direction. Yet we 
have also noted that despite some very, very commendable 
efforts, right now we have a less than stellar record on 
actually seeing a widespread and ubiquitous enforcement of 
those policies in the commercial marketplace.
    We will also agree that business practices, best business 
practices, need to continue to move forward, and that the 
private sector does have a role to play in raising the 
benchmark, and that self-regulatory programs will need to be a 
part of this very freewheeling and, as we heard, 3.6 million 
commercial Web sites and growing by 10 percent on a daily 
basis, we need as many cops on the beat as possible.
    So, where will we disagree?
    I think, as Senator Wyden pointed out, and Senator Burns, 
and the discussion around S. 809 indicates, the agreement is 
not about where we should go; the agreement is primarily about 
how best to get there.
    I would like to submit for the record a report that CDT is 
releasing today. And it is called ``Behind the Numbers: Privacy 
Practices on the Web.'' And what we tried to do is actually say 
we have some statistics, from the Georgetown Internet Privacy 
Policy Survey, the Online Privacy Alliance's Survey, from the 
Federal Trade Commission survey last year, that give us some 
indication of where practices are going in the online world.
    What we have found is that while there has been some 
progress, that many of the most deeply held concerns of 
consumers remain unaddressed. For example, 87 percent of 
individuals stated a concern with their privacy online. But a 
third of the highly trafficked Web sites--this is not the 3.6 
million, this is the 7,500 highly trafficked Web sites--remain 
silent on the issue of privacy altogether. Ninety-one percent 
of Internet users and 96 percent of those engaged in e-commerce 
want to know what personal information is collected and used. 
But, again, less than 50 percent of these frequently trafficked 
Web sites are telling consumers this critical information that 
they need to make informed choices.
    Forty percent of business Web sites are not allowing 
individuals to exercise even a very limited right to object to 
companies re-contacting them. This was a critical concern. An 
overwhelming majority of individuals, as people have 
identified, their top concern is their ability to control the 
use of their information. And while we would suggest that an 
opt out, particularly when you are talking about financial 
records, medical records, which are provided on the Web--
individuals are engaging in lots of varied interactions on the 
Web--an opt out model is clearly not what individuals think is 
appropriate when they talk about consent.
    The question is, how do we move forward?
    Part of our survey that I would like to offer for the 
record looked at the self-regulatory enforcement programs. And 
there is some good news. TRUSTe, BBBOnline and WebTrust, which 
are the three that we looked at, are in fact raising the 
standards for what business practices should be, as self-
regulatory programs should do.
    Right now, unfortunately, I think that there is the 
opportunity for an enormous amount of consumer confusion. Two 
of the self-regulatory programs are actually in the process of 
changing their standards. And so, right now, a mark may mean 
that a company is telling consumers what they do. It may mean 
that it is actually adhering to a higher set of fair 
information practices. But the main lesson to consumers is that 
even where there is a trust mark, you have to read the fine 
print, and that caution is certainly wise.
    On the down side, less than 8.5 percent of even the 7,500 
highly trafficked Web sites are using these programs. And I 
would suggest, when you look at the 3.6 million Web sites, that 
are growing by 275,000 a day, that 900 Web sites participating 
in self-regulatory enforcement programs is not going to provide 
the kind of ubiquitous, enforceable privacy protections that 
the FTC has requested and that I think consumers both demand 
and deserve.
    For that reason, I think that S. 809 serves as a good 
starting point for a discussion about how to move forward on 
protecting privacy. I think that as Commissioner Swindle said 
earlier, the third of the Web sites that are not posting 
privacy policies, are they necessarily bad actors? Perhaps not. 
Do they necessarily need some guidance? I would suggest yes.
    Is there a reason why individual companies are not choosing 
to participate in self-regulatory enforcement programs? I 
believe there may be several--one of which may be cost. The 
fact that there is a Federal baseline, with a Federal 
enforcement mechanism, is something that in fact can continue 
to maintain the very low barriers to entry that we have in this 
marketplace.
    So, in moving forward, I look forward to working with the 
Federal Trade Commission, members of both industry and the 
public interest sector, and members of this committee to figure 
out how to craft an appropriate framework that relies on self-
regulation, legislation and technology to address individuals 
privacy concerns.
    Thank you.
    [The prepared statement of Ms. Mulligan follows:]

        Prepared Statement of Deirdre Mulligan, Staff Counsel, 
                  Center for Democracy and Technology

                              I. OVERVIEW

    The Center for Democracy and Technology (CDT) is pleased to have 
this opportunity to testify about privacy in the online environment. 
CDT is a non-profit, public interest organization dedicated to 
developing and implementing public policies to protect and advance 
civil liberties and democratic values on the Internet. One of our core 
goals is to enhance privacy protections for individuals in the 
development and use of new communications technologies. We thank the 
Chairman and Senators Wyden and Hollings for holding this hearing and 
for their commitment to seeking policies that support both civil 
liberties and a vibrant Internet.
    CDT wishes to emphasize three points this morning:
    <bullet> The Internet presents new challenges and opportunities for 
the protection of privacy. Our policies must be grounded in an 
understanding of the medium's unique attributes and its unique 
potential to promote democratic values.
    <bullet> Privacy is a complex value. In the context of this 
discussion, we believe Congress should focus on ensuring that 
individuals' long-held expectations of autonomy, fairness, and 
confidentiality are respected as daily activities move online. These 
expectations exist vis-a-vis both the public and the private sectors.
    By autonomy, we mean the individual's ability to browse, seek out 
information, and engage in a range of activities without being 
monitored and identified.
    Fairness requires policies that provide individuals with control 
over information that they provide to the government and the private 
sector. The concept of fairness is embodied in the Code of Fair 
Information Practices \1\--long-accepted principles specifying that 
individuals should be able to ``determine for themselves when, how, and 
to what extent information about them is shared.'' \2\ The Code also 
requires that those who collect and use personal information do so in a 
manner that respects individuals' privacy interests. Self-regulatory 
efforts designed for the online environment are gradually moving closer 
to the standards for privacy protection set out in the Code of Fair 
Information Practices. However, legislation, as well as robust self-
regulation, is both inevitable and necessary to ensure privacy 
protection is the rule rather than the exception on the Internet. The 
Children's Online Privacy Protection Act, which originated in the full 
Committee, enacted last October provides a model for establishing such 
a legal framework. The Online Privacy Protection Act of 1999 (S. 809), 
with modifications, would provide a similar framework for protecting 
adult privacy and establishing the authority of the Federal Trade 
Commission to punish back actors.
---------------------------------------------------------------------------
    \1\ The Code of Fair Information Practices as stated in the 
Secretary's Advisory Comm. on Automated Personal Data Systems, Records, 
Computers, and the Rights of Citizens, U.S. Dept. of Health, Education 
and Welfare, July 1973:
    There must be no personal data record-keeping systems whose very 
existence is secret.
    There must be a way for an individual to find out what information 
about him is in a record and how it is used.
    There must be a way for an individual to prevent information about 
him that was obtained for one purpose from being used or made available 
for other purposes without his consent.
    There must be a way for the individual to correct or amend a record 
of identifiable information about him.
    Any organization creating, maintaining, using, or disseminating 
records of identifiable personal data must reliability of the data for 
their intended use and must take precautions to prevent misuse of the 
data. Id. at xx
    The Code of Fair Information Practices as stated in the OECD 
guidelines on the Protection of Privacy and Transborder Flows of 
Personal Data http://www.oecd.org/dsti/sti/ii/secur/prod/PRIV--EN.HTM
    1. Collection Limitation Principle: There should be limits to the 
collection of personal data and any such data should be obtained by 
lawful and fair means and, where appropriate, with the knowledge or 
consent of the data subject.
    2. Data quality: Personal data should be relevant to the purposes 
for which they are to be used, and, to the extent necessary for those 
purposes, should be accurate, complete and kept up-to-date.
    3. Purpose specification: The purposes for which personal data are 
collected should be specified not later than at the time of data 
collection and the subsequent use limited to the fulfillment of those 
purposes or such others as are not incompatible with those purposes and 
as are specified on each occasion of change of purpose.
    4. Use limitation: Personal data should not be disclosed, made 
available or otherwise used for purposes other than those specified in 
accordance with the 'purpose specification'' except: (a) with the 
consent of the data subject; or (b) by the authority of law.
    5. Security safeguards: Personal data should be protected by 
reasonable security safeguards against such risks as loss or 
unauthorized access, destruction, use, modification or disclosure of 
data.
    6. Openness: There should be a general policy of openness about 
developments, practices and policies with respect to personal data. 
Means should be readily available of establishing the existence and 
nature of personal data, and the main purposes of their use, as well as 
the identity and usual residence of the data controller.
    7. Individual participation: An individual should have the right: 
(a) to obtain from a data controller, or otherwise, confirmation of 
whether or not the data controller has data relating to him; (b) to 
have communicated to him, data relating to him:
    <bullet> within a reasonable time;
    <bullet> at a charge, if any, that is not excessive;
    <bullet> in a reasonable manner; and,
    <bullet> in a form that is readily intelligible to him; (c) to be 
given reasons if a request made under subparagraphs (a) and (b) is 
denied, and to be able to challenge such denial; and, (d) to challenge 
data relating to him and, if the challenge is successful to have the 
data erased, rectified completed or amended.
    8. Accountability: A data controller should be accountable for 
complying with measures which give effect to the principles stated 
above.
    \2\ Alan Westin. Privacy and Freedom (New York: Atheneum, 1967), 7.
---------------------------------------------------------------------------
    In terms of confidentiality, we need a strong Fourth Amendment in 
cyberspace. But confidentiality protections--both technical and legal--
are growing increasingly porous as technology changes and more 
information resides outside of the home on networks. It is time to 
update and strengthen the Electronic Communications Privacy Act. 
Further, our laws protecting privacy must be extended to take account 
of the global nature of the medium. Finally, to ensure that citizens 
and businesses have the ability to protect their sensitive information 
and communications, the government must change its policy course on 
encryption.
    <bullet> Preserving these core elements of privacy on the Internet 
requires a thoughtful, multi-faceted approach combining self-
regulatory, technological, and legislative components.

                 II. WHAT MAKES THE INTERNET DIFFERENT?

    CDT focuses much of its work on the Internet because we believe 
that it, more than any other medium, has characteristics--
architectural, economic, and social--that are uniquely supportive of 
democratic values. Because of its decentralized, open, and interactive 
nature, the Internet is the first electronic medium to allow every user 
to ``publish'' and engage in commerce. Users can reach and create 
communities of interest despite geographic, social, and political 
barriers. As the World Wide Web grows to fully support voice, data, and 
video, it will become in many respects a virtual ``face-to-face'' 
social and political milieu.
    But while the First Amendment potential of the Internet is clear, 
and recognized by the Supreme Court, the impact of the Internet on 
individual privacy is less certain. Will the online environment erode 
individual privacy-building in national identifiers, tracking devices, 
and limits on autonomy? Or will it breathe new life into privacy-
providing protections for individuals' long held expectations of 
privacy? The Internet poses both challenges and opportunities to 
protecting privacy.
    The Internet accelerates the trend toward increased information 
collection that is already evident in our offline world. The trail of 
transactional data left behind as individuals use the Internet is a 
rich source of information about their habits of association, speech, 
and commerce. When aggregated, these digital fingerprints reveal a 
great deal about an individual's life. The global flow of personal 
communications and information coupled with the Internet's distributed 
architecture presents challenges for the protection of privacy. 
However, Anonymizers, anonymous remailers, and other privacy-enhancing 
tools allow individuals to create zones of privacy--limiting who knows 
what about them and protecting their sensitive communications from 
prying eyes. Computer code and products are becoming increasingly 
critical to the protection of privacy in this distributed environment. 
With privacy-enhancing tools users will be empowered to control their 
personal information in new ways.
    As we move swiftly toward a world of electronic democracy, 
electronic commerce and indeed electronic living, it is critical to 
construct a framework of privacy protection that fits with the unique 
opportunities and risks posed by the Internet. But as Congress has 
discovered in its attempts to regulate speech, this medium deserves its 
own analysis. Laws developed to protect interests in other media should 
not be blindly imported. To create rules that map onto the Internet, we 
must fully understand the characteristics of the Internet and their 
implications for privacy protection. We must also have a shared 
understanding of what we mean by privacy. Finally we must assess how to 
best use the various tools we have for implementing policy--law, 
computer code, industry practices, and public education--to achieve the 
protections we seek.

      THE EROSION OF PRIVACY AND THE PATH TOWARDS ITS RESTORATION

    There are several core ``privacy expectations'' that individuals 
have long held vis-a-vis both the government and the private sector, 
the protection of which should carry over to interactions on the 
Internet. Surveys of Internet users, and would-be Internet users, 
reveal a high level of concern with threats to privacy online. Surveys 
suggest that concern over privacy is keeping individuals off the 
Internet \3\, retarding the growth of e-commerce \4\, and leading 
individuals to engage in privacy-protective behaviors such as providing 
false information.\5\ A recent survey of Internet users found that 87% 
are concerned about threats to their personal privacy.\6\
---------------------------------------------------------------------------
    \3\ A 1998 Business Week Survey found that privacy was the number 
one reason individuals are choosing to stay off the Intemet, coming in 
well ahead of cost, concerns with complicated technology, and concerns 
with unsolicited commercial email. Business Week, March 16, 1998.
    \4\ A TRUSTe and Boston Consulting Group survey conducted in 1997 
found that privacy concerns were leading users to limit their 
engagement in electronic commerce.
    \5\ Id. and see footnote 6.
    \6\ Beyond Concern: Understanding Net Users Attitudes About Online 
Privacy, AT&T, 1999.
---------------------------------------------------------------------------
    The remainder of our testimony will discuss the three critical 
privacy expectations of autonomy, fairness, and confidentiality, 
explore the changes in technology and policies that threaten them, and 
finally outline a plan for their restoration.
The Expectation of Autonomy
            Why is it at risk?
    Imagine walking through a mall where every store, unbeknownst to 
you, placed a sign on your back. The signs tell every other store you 
visit exactly where you have been, what you looked at, and what you 
purchased. Something very close to this is possible on the Internet.
    When individuals surf the World Wide Web, they have a general 
expectation of anonymity, more so than in the physical world where an 
individual may be observed by others. As documented in several surveys, 
individuals value their anonymity and will take steps, such as 
providing false information and refusing to register, to protect it.\7\ 
Online, individuals often believe that if they have not affirmatively 
disclosed information about themselves, then no one knows who they are 
or what they are doing. But, contrary to this belief, the Internet 
generates an elaborate trail of data detailing every stop a person 
makes. The individual's employer may capture this data trail if she 
logs on at work, and it is captured by the Web sites the individual 
visits. This transactional or click stream data can provide a 
'profile'' of an individual's online life.
---------------------------------------------------------------------------
    \7\ The 8th annual poll of the Grahpics, Visualization, and 
Usability Center at the Georgia Institute of Technology found that in 
order to protect their privacy, significant numbers of people falsify 
information online. Particularly, users report regularly falsifying 
registration information. The most common reason for not registering is 
the lack of a statement about how the information will be used. In 
addition, the GW study showed that users would rather not access a site 
than reveal information. (1998)
    The survey Beyond Concern: Understanding Net Users Attitudes About 
Online Privacy found that individuals were reluctant to provide 
identifying information such as credit card numbers but were more 
willing to provide information that did not identify them. AT&T (1999)
---------------------------------------------------------------------------
    Two recent examples highlight the manner in which individuals' 
expectation of autonomy is increasingly challenged in the online 
environment. (1) The introduction of the Pentium III processor equipped 
with a unique identifier (Processor Serial Number) threatens to greatly 
expand the ability of Web sites to surreptitiously track and monitor 
online behavior. The PSN could become something akin to the Social 
Security Number of the online world--a number tied inextricably to the 
individual and used to validate one's identity throughout a range of 
interactions with the government and the private sector. (2) The Child 
Online Protection Act (COPA), passed in October, requires Web sites to 
prohibit minors' access to material considered ``harmful to minors.'' 
Today, when an individual walks into a convenience store to purchase an 
adult magazine, they may be asked to show some identification to prove 
their age. Under the COPA, an individual will be asked not only to show 
their identification, but also to leave a record of it and their 
purchase with the online store. Such systems will create records of 
individuals' First Amendment activities, thereby conditioning adult 
access to constitutionally protected speech on a disclosure of 
identity. This poses a Faustian choice to individuals seeking access to 
information--protect privacy and lose access or exercise First 
Amendment freedoms and forego privacy.
The Path to Individual Autonomy Online
    While the global, distributed environment of the Internet raises 
challenges to our traditional methods of implementing policy, the 
specifications, standards, and technical protocols that support the 
operation of the Internet offer a new way to implement policy 
decisions. In the area of autonomy, focusing on standards and 
applications is crucial. By building systems that respect individuals 
varied needs for identification, pseudonymity, and anonymity--building 
a digital wallet with cash, credit cards, a metro fare card, and a 
driver's license--will help build an online environment that promotes 
autonomy. By building privacy into the architecture of the Internet, we 
have the opportunity to advance public policies in a manner that scales 
with the global and decentralized character of the network. As Larry 
Lessig repeatedly reminds us, ``(computer) code is law.''
    Accordingly, we must promote specifications, standards and products 
that protect privacy. A privacy-enhancing architecture must 
incorporate, in its design and function, individuals' expectations of 
privacy. For example, a privacy-friendly architecture would provide 
individuals the ability to ``walk'' through the digital world, browse, 
and even purchase without disclosing information about their identity, 
thereby preserving their autonomy. Of course, it would also provide 
individuals the opportunity to create relationships that are 
identifiable--or at least authenticated--for engaging in activities 
such as banking. This would be coupled with policies that allow 
individuals to control when, how, and to whom personal data collected 
during interactions is used or disclosed.
    While there is much work to be done in designing a privacy-
enhancing architecture, some substantial steps toward privacy 
protection have occurred. Positive steps to leverage the power of 
technology to protect privacy can be witnessed in tools like the 
Anonymizer, Crowds, and Onion Routing, which shield individuals' 
identity during online interactions, and encryption tools such as 
Pretty Good Privacy that allow individuals to protect their private 
communications during transit. Coupled with rules such as those found 
in the Government Paperwork Elimination Act of 1998, which established 
privacy protections governing personal information collected when the 
public uses electronic signature systems,\8\ technology may evolve in 
ways that support individuals' interest in autonomy.
---------------------------------------------------------------------------
    \8\ Many such systems gather sensitive information in the course of 
providing and guaranteeing an electronic signature. The law prohibits 
companies that collect such information from using or disclosing it 
without the permission of the person involved. Authored by Senators 
Leahy and Abraham, this marks the first attempt to craft a legislative 
approach to dealing with the potential erosion of privacy created by 
electronic signature use.
---------------------------------------------------------------------------
The Expectation of Fairness and Control Over Personal Information
            Who controls the data?
    When individuals provide information to a doctor, a merchant, or a 
bank, they expect that those professionals/companies will collect only 
information necessary to perform the service and use it only for that 
purpose. The doctor will use it to tend to their health, the merchant 
will use it to process the bill and ship the product, and the bank will 
use it to manage their account--end of story. Unfortunately, current 
practices, both offline and online, foil this expectation of privacy. 
Much of the concern with privacy in electronic commerce stems from a 
lack of privacy rules in various sectors of the economy, such as 
financial and health, that handle a treasure trove of sensitive 
information on individuals.
    Whether it is medical information, or a record of a book purchased 
at the bookstore, or information left behind during a Web site visit, 
information is routinely collected without the individual's knowledge 
and used for a variety of other purposes without the individual's 
knowledge--let alone consent.
    Focusing on the online environment, we now have information from 
two studies assessing the state of privacy notices on the World Wide 
Web. Last June, the Federal Trade Commission's ``Privacy Online: A 
Report to Congress'' found that despite increased pressure, businesses 
operating online continued to collect personal information without 
providing even a minimum of consumer protection. The report looked only 
at whether Web sites provided users with notice about how their data 
was to be used; there was no discussion of whether the stated privacy 
policies provided adequate protection. The survey found that, while 92% 
of the sites surveyed were collecting personally identifiable 
information, only 14% had some kind of disclosure of what they were 
doing with personal data.
    The newly released Georgetown Internet Privacy Policy Survey 
provides new data. The Survey was designed to provide an update on the 
state of privacy policies on the World Wide Web. The study shows that 
definite progress has been made in making many more Web sites privacy-
sensitive, but substantive privacy protections are still far from 
ubiquitous on the World Wide Web. While more Web sites are mentioning 
privacy, only 9.5% provide the types of notices required by the Online 
Privacy Alliance, the Better Business Bureau and TRUSTe. Indeed, fair 
information practices on the Web appear to remain the exception, not 
the rule.
    The Georgetown Survey shows that, spurred by surveys documenting 
consumer concern and anxiety, and the work of individual companies \9\ 
and industry self-regulatory entities such as TRUSTe, the Online 
Privacy Alliance, and the Better Business Bureau, an increased number 
of Web sites are providing consumers with some information about what 
personal information is collected (44%), and how that information will 
be used (52%). Companies posting fuller information about their data 
handling \10\ are more likely to make them accessible to consumers. 
Many have a link to such statements from the home page (79.7%).\11\
---------------------------------------------------------------------------
    \9\ For example, IBM recently stated that it would limit its 
advertising to Web sites that post privacy notices.
    \10\ The report calls these ``privacy policies'' as compared to 
``information practice statements.'' ``Privacy policies'' are a more 
comprehensive description of a site's practices that are located in a 
single place and accessible through an icon or hyperlink. A site may 
have a ``privacy policy'' by this definition but still not have a 
privacy policy that meets the elements set out by the FTC or various 
industry self-regulatory initiatives for an adequate privacy policy.
    \11\ In response to the question, ``Is a Privacy Policy Notice easy 
to find?'' surfers in the 1998 survey answered yes for approximately 
1.2% of Web sites. FTC Report, Appendix C Ql9.
---------------------------------------------------------------------------
    However, on important issues such as access to personal information 
and the ability to correct inaccurate information, the Georgetown 
Survey shows that only 22% and 18% respectively of these highly 
trafficked Web sites provide consumers with notice. On the important 
issue of providing individuals with the capacity to control the use and 
disclosure of personal information, the survey finds that 39.5% of 
these busy Web sites say that consumers can make some decision about 
whether they are re-contacted for marketing purposes--most likely an 
``opt-out''--and fewer still, 25%, say they provide consumers with some 
control over the disclosure of data to third parties.\12\
---------------------------------------------------------------------------
    \12\ This number is generated using the data from Q32 (number of 
sites that say they give consumers choice about having collected 
information disclosed to outside third parties)--64--and dividing it by 
256 (the total survey sample (364) minus the number of sites that 
affirmatively state they do not disclose data to third-parties (Q29A) 
(69) and the number of sites that affirmatively state that data is only 
disclosed in the aggregate (Q30) (39)).
---------------------------------------------------------------------------
    Overall, the Georgetown survey reveals that, at over 90% of the 
most frequently trafficked Web sites,\13\ consumers are not being 
adequately informed about how their personal information is 
handled.\14\ At the same time the survey found that over 90% of these 
same busy consumer-oriented Web sites are collecting personal 
information.\15\ In fact, the survey revealed an increase in the number 
of Web sites collecting sensitive information such as credit card 
numbers (up 20%), names (up 13.3%), and even Social Security Numbers 
(up 1.7%).
---------------------------------------------------------------------------
    \13\ Only 9.5% of the most frequently visited Web sites and 14.7% 
of those that collect information had privacy policies containing 
critical information called for by the FTC, the Administration, and 
required by the Online Privacy Alliance, TrutstE and the BBB Online, 
about notice; choice; access; security; and contact information.
    \14\ Last years survey found approximately 2% or Web sites that 
collected data, and less than 1% of all Web sites, had adequate 
notices.
    \15\ 92.9% are collecting some type of personal information.
---------------------------------------------------------------------------
    Thus, while many companies appear to be making an effort to address 
some privacy concerns, the results from the consumer perspective appear 
to be a quilt of complex and inconsistent statements. The number of 
sites that provide consumers with the types of notices required by the 
Online Privacy Alliance, the Better Business Bureau and TRUSTe, and 
called for by the Federal Trade Commission and the Administration, is 
still relatively small (9.5%).
    The posting of privacy notices is not just a private sector issue. 
In a recent CDT study of federal agency Web sites, we found that just 
over one-third of federal agencies had a ``privacy notice'' link from 
the agency's home page. Eight other sites had privacy policies that 
could be found after following a link or two and on 22 of the sites 
surveyed we could not find a privacy policy at all.
    The lack of widespread adherence to Fair Information Practices is 
undermining consumer confidence. A recent survey by the National 
Consumers League found that the majority of online users are not 
comfortable providing credit card (73%), financial (73%), or personal 
information (70%) to businesses online.\16\ Due to privacy concerns 42% 
of those who use the Internet are using it solely to gather 
information, while a smaller 24% actually venture to purchase goods 
online.\17\ A second study found that 58% of consumers do not consider 
financial transactions online to be safe, and 77% do not believe it is 
safe to provide a credit card number through a computer.\18\ Privacy 
has been rightly identified by the Federal Trade Commission, Congress, 
the business community, and advocacy organizations as a critical 
consumer protection issue in e-commerce.
---------------------------------------------------------------------------
    \16\ Consumers and the 21st Century, National Consumers League 
(1999).
    \17\ Id.
    \18\ National Technology Readiness Survey, conducted by Rockridge 
Associates (1999).
---------------------------------------------------------------------------
Establish Rules That Give Individuals Control Over Personal Information 
        During Commercial Interactions
    We must adopt enforceable standards, both self-regulatory and 
legislative, to ensure that information provided for one purpose is not 
used or redisclosed for other purposes without the individual's 
consent. All such efforts should focus on the Code of Fair Information 
Practices developed by the Department of Health, Education and Welfare 
in 1973. The challenge of implementing privacy practices on the 
Internet is ensuring that they build upon the medium's real-time and 
interactive nature to foster privacy and that they do not 
unintentionally impede other beneficial aspects of the medium. 
Implementing privacy protections on the global and decentralized 
Internet is a complex task that will require new thinking and 
innovative approaches.
    The Georgetown Survey supports our belief that a combination of 
means--self-regulation, technology, and legislation--are required to 
provide privacy protections on the Internet. The study, as discussed 
above, shows that some progress has been made in making many more Web 
sites privacy sensitive, but substantive privacy protections are still 
far from ubiquitous on the World Wide Web. Because many Web sites need 
baseline policy guidance and because self-enforcement mechanisms, while 
emerging, may not always provide a viable remedy, we believe that 
legislation is both inevitable and necessary to ensure consumers' 
privacy on the Internet.
    To achieve real privacy on the Internet, we will need more than 
better numbers, redoubled efforts by industry, or a legislative mantra. 
We will need a good-faith concerted effort by industry, consumer and 
privacy advocates, and policymakers to develop real and substantive 
answers to a number of difficult policy issues involving the scope of 
identifiable information, the workings of consent and access 
mechanisms, and the structure of effective remedies that protect 
privacy without adversely affecting the openness and vitality of the 
Internet.
    As the Federal Trade Commission's rulemaking under the Children's 
Online Privacy Protection Act and industry's various efforts at self-
regulation show, these issues are not easy. But armed with the findings 
of the Georgetown Internet Privacy Policy Survey, we believe interested 
parties are in a position to move forward on a three pronged approach--
expanded self-regulation, work to develop and deploy privacy-enhancing 
technologies such as P3P, and legislation-all require a serious 
dialogue on policy and practice options for resolving difficult issues 
in this promising medium.
    In its testimony last July, the Federal Trade Commission stated 
that, `` * * * unless industry can demonstrate that it has developed 
and implemented broad-based and effective self-regulatory programs by 
the end of this year, additional governmental authority in this area 
would be appropriate and necessary.'' \19\ Despite the considerable 
effort of Congress, the Federal Trade Commission, the Administration 
and industry to encourage and facilitate an effective self-regulatory 
system to protect consumer privacy, based on the survey results we do 
not believe that one has yet emerged. Like Commissioner Anthony, we 
believe that industry leadership and self-regulatory programs are a 
critical component of a privacy framework for the Internet, but that 
legislation is also necessary to establish a baseline and ensure 
consumers are protected from bad actors.
---------------------------------------------------------------------------
    \19\ Last years survey found approximately 2 percent or Web sites 
that collected data, and less than 1 percent of all Web sites, had 
adequate notices. Privacy Online: A Report to Congress, Federal Trade 
Commission, June 1998.
---------------------------------------------------------------------------
    Last year, the Federal Trade Commission offered a legislative 
outline that embodied a framework, similar to the one we suggest, 
building upon the strengths of both the self-regulatory and regulatory 
processes. This year several bills have been introduced on a wide range 
of privacy issues.\20\ The Online Privacy Protection Act \21\ 
introduced by Senators Burns and Wyden is substantially similar to the 
model recommended by the Federal Trade Commission last year. (Specific 
comments on the Online Privacy Protection Act can be found in 
subsection 3 below.)
---------------------------------------------------------------------------
    \20\ Electronic Rights for the Twenty-First Century Act of 1999 (E-
RIGHTS) (S. 854), introduced on April 21, 1999 by Senator Leahy (D-VT). 
The Online Privacy Protection Act of 1999 (S. 809), introduced on April 
15, 1999, by Senators Burns (R-MT) and Wyden (D-OR). Internet Growth 
and Development Act of 1999 (H.R. 1685), introduced on May 5, 1999 by 
Representatives Boucher (D-VA) and Goodlatte (R-VA). Consumer Internet 
Privacy Protection Act of 1999 (H.R 313), introduced on January 6, 
1999, by Representative Vento (D-MN). We anticipate additional 
proposals from Senators Kohl, Torricelli, DeWine, and Hatch, and 
Representative Markey.
    \21\ The Online Privacy Protection Act of 1999 (S. 809), introduced 
on April 15, 1999, by Senators Burns (R-MT) and Wyden (D-OR).
---------------------------------------------------------------------------
    Historically, for privacy legislation to be successful, it must 
garner the support of at least a section of the industry. To do so, it 
generally must build upon the work of some industry members typically 
binding bad actors to the rules being followed by industry leaders--or 
be critically tied to the viability of a business service or product as 
with the Video Privacy Protection Act and the Electronic Communications 
Privacy Act. Several companies have staked out leadership positions on 
the issue of online privacy and several self-regulatory programs have 
formed to drive industry best practices online. Numerous surveys have 
documented that consumers are concerned about their privacy in e-
commerce.
    In addition to work on policies, there is important activity in the 
technical community on how to develop the tools necessary to implement 
fair information practices on the World Wide Web. The World Wide Web 
Consortium's Platform for Privacy Preferences (``P3P'') is a promising 
development. The P3P specification will allow individuals to query Web 
sites for their policies on handling personal information and to allow 
Web sites to easily respond. While P3P does not drive the specific 
practices, it is a standard designed to promote openness about 
information practices, to encourage Web sites to post privacy policies 
and to provide individuals with a simple, automated method to make 
informed decisions. Through settings on their Web browsers, or through 
other software programs, users will be able to exercise greater control 
over the use of their personal information. Regardless of how policies 
are established, an Internet-centric method of communicating about 
privacy is part of the solution.
    As Congress moves forward this year, we look forward to working 
with you and all interested parties to ensure that fair information 
practices are incorporated into business practices on the World Wide 
Web. Both legislation and self-regulation are only as good as the 
substantive policies they embody. As we said at the start, crafting 
meaningful privacy protections that map onto the Internet requires us 
to resolve several critical issues. While consensus exists around at 
least four general principles (a subset of the Code of Fair Information 
Practices)--notice of data practices; individual control over the 
secondary use of data; access to personal information; and, security 
for data--the specifics of their implementation and the remedies for 
their violation must be explored. We must wrestle with difficult 
questions: When is information identifiable? How is it accessed? How do 
we create meaningful and proportionate remedies that address the 
disclosure of sensitive medical information as well as the disclosure 
of inaccurate marketing data? For the policy process to successfully 
move forward these hard issues must be more fully resolved. We would 
welcome the opportunity to work with Senators Burns and Wyden, and 
other members of this committee, to explore these issues and develop a 
framework for privacy protection in the online environment. The Online 
Privacy Protection Act could serve as a starting point for this 
discussion. The leadership of Internet-savvy members of this Committee 
and others will be critical as we seek to provide workable and 
effective privacy protections for the Internet.
3. Preliminary Comments on the Online Privacy Protection Act (S. 809) 
        and suggested changes
    The Online Privacy Protection Act is closely modeled on the 
Children's Online Privacy Protection Act enacted last year. It 
establishes baseline practices for commercial Web sites handling 
personal information and provides the Federal Trade Commission with 
authority to enforce violations of the Act.
    Legislation to protect privacy should be based on the Code of Fair 
Information Practices which has served as a model for privacy 
legislation and self-regulatory codes in the United States and across 
the globe for 25 years.
    The Code of Fair Information Practices requires that businesses 
collecting personal information (recordkeepers):
    Be publicly identified and provide a description of the purpose and 
uses they make of personal information.
    Limit the personal information they collect to what is necessary to 
support the purpose of collection. Personal information must be 
collected by lawful and fair means and, where appropriate, with the 
knowledge and consent of the individual.
    Limit the use and disclosure of personal information to the purpose 
for which it was collected, unless the individual has granted consent.
    Ensure that personal information collected is relevant to the 
purpose of collection, accurate, timely, and complete.
    Institute reasonable security safeguards against such risks as 
loss, unauthorized access, destruction, use, modification and 
disclosure.
    Be accountable for complying with fair information practices.
    The Code of Fair Information Practices says that individuals should 
have the right to:
    Access personal information and to correct or remove data that is 
not timely, accurate, relevant, or complete; and, to
    Control the use of personal information. Personal information 
provided to a business may not be used or disclosed for other purposes 
without the consent of the individual or other legal authority.
    To bring the Online Privacy Protection Act (S. 809) in line with 
the Code of Fair Information Practices we recommend the following 
changes.
Section 2(b)(1)
            Individual Control
    To ensure that individuals are able to control the use of their 
personal information, Section 2(b)(1) (A)(ii) should require Web sites 
to gain individuals consent to the use and disclosure of personal 
information for purposes unrelated to the purpose for which it was 
obtained. The range of personal information that will be exchanged on 
Web sites runs from the highly sensitive--financial and health--to 
contact information such as email and address. Surveys indicate that 
individuals desire control over their personal information: consent is 
the surest method of providing consumers with this control. On the 
Internet we believe that the distinction between ``opt-out'' and ``opt-
in'' may become less important as technology enables individuals to 
exercise control over how, when, for what purposes, and under what 
conditions they disclose personal information.
    The bill summary suggests that the intent of the proposal is to 
provide individuals with the ability to ``opt-out'' of having their 
information used and disclosed. However, as currently drafted this 
section does not require Web sites to gain the individual's consent, 
nor does it provide an ``opt-out'' for the collection or use of 
information--it requires an ``opt-out'' be provided where information 
will be disclosed to others. In addition, section (2) of this provision 
could be read to allow Web sites to forego offering individuals even an 
opt-out if in the notice they tell individuals that they disclose 
information.
            Access and Correction
    To ensure that individuals are able to review and correct personal 
information about themselves, section (B)(i) should be amended to 
require Web sites to provide individuals with access to all personal 
information regardless of whether it is used internally, or sold or 
transferred to other companies.
Section 2(b)(2)
            Limits on Disclosure
    We have questions about the purpose of this section. However, at 
this time, we recommend eliminating subsections (A) and (B) and 
amending (C) by changing the word ``permitted'' to ``required.'' Thus 
the provision would allow a Web site to disclose personal information 
where ``required under other provisions of law.''
Section 2(b)(3)
            Limits on Access
    We have questions about the purpose of this section. However, at 
this time, we recommend eliminating subsections (A), (B) and (E). 
Section (C) should be rewritten to limit access to information that is 
trade secret.
            Additional comments
    The scope of the bill is information collected online--this means 
that information collected by Web sites from other sources is not 
governed by the bill. It is unclear whether consumers, and businesses, 
distinguish between interactions conducted online and offline with the 
same entity. As the Committee moves forward, it should consider whether 
the online/offline distinction is meaningful to consumers and the 
business community.
    Several issues have surfaced during the Federal Trade Commission's 
Rulemaking under the Children's Online Privacy Protection Act that 
would benefit from additional consideration by this Committee. They 
include: what does it mean to ``collect'' information in the online 
context; when is information personally identifiable; and, what does it 
mean to ``contact'' an individual online. In addition, the Children's 
Online Privacy Protection Act, and the proposed Online Privacy 
Protection Act, give enforcement authority to the Federal Trade 
Commission while other privacy statutes tend to provide individuals 
with private rights of actions to address grievances. Arguments can be 
made in favor and against each model of oversight and enforcement: 
exploring the effectiveness of each (or a combination thereof) would be 
useful in crafting meaningful remedies for individuals and successful 
oversight mechanisms.

                 C. THE EXPECTATION OF CONFIDENTIALITY

1. Who has access to records in cyberspace?
    When individuals send email they expect that only the intended 
recipient will read it. In passing the Electronic Communications 
Privacy Act in 1986, Congress reaffirmed this expectation. 
Unfortunately, it is once again in danger.
    While United States law provides email the same legal protection as 
a first class letter, the technology leaves unencrypted email as 
vulnerable as a postcard. Compared to a letter, an email message is 
handled by many independent entities and travels in a relatively 
unpredictable and unregulated environment. To further complicate 
matters, the email message may be routed, depending upon traffic 
patterns, overseas and back, even if it is a purely domestic 
communication. While the message may effortlessly flow from nation to 
nation, the privacy protections are likely to stop at the border.
    Email is just one example. Today our diaries, medical records, and 
confidential documents are more likely to be out in the network than 
stored in our homes. As our wallets become ``e-wallets'' housed 
somewhere out on the Internet rather than in our back-pockets, the 
confidentiality of our personal information is at risk. The advent of 
online datebooks, and products such as Novell's ``Digital Me'', and 
sites such as Wellmed.com \22\ which invite individuals to take 
advantage of the convenience of the Internet to manage their lives, 
financial information, and even medical records raise increasingly 
complex privacy questions. While the real ``me'' has Fourth and Fifth 
Amendment protections from the government, the ``Digital Me'' is 
increasingly naked in cyberspace.
---------------------------------------------------------------------------
    \22\ WellMed.com is a proprietary Online Health Management System 
which works by collecting personal health information from individuals, 
analyzing that information to develop unique health profiles which are 
used for a variety of purposes. One service is HealthNow!--``an online 
personal health record enabling secure, confidential, and private 
storage, management, and maintenance of health information by 
individuals and their families. HealthNow affords easy access of 
medical records from one central location anytime and anywhere the need 
arises.''
---------------------------------------------------------------------------
2. Protecting the Privacy of Communications and Information
    Increasingly, our most important records are not ``papers'' in our 
``houses'' but ``bytes'' stored electronically at distant ``virtual'' 
locations for indefinite periods of time and held by third parties. The 
Internet, and digital technology generally, accelerate the collection 
of information about individuals' actions and communications. Our 
communications, rather than disappearing, are captured and stored on 
servers controlled by third parties. Daily interactions such as our 
choice of articles at a news Web site, our search and purchase of an 
airline ticket, and our use of an online date book, such as Yahoo's 
calendar, leave detailed information in the hands of third-parties. 
With the rise of networking and the reduction of physical boundaries 
for privacy, we must ensure that privacy protections apply regardless 
of where information is stored.
    Under our existing law, there are now essentially four legal 
regimes for access to electronic data: (1) the traditional Fourth 
Amendment standard for records stored on an individual's hard drive or 
floppy disks; (2) the Title III-Electronic Communications Privacy Act 
standard for records in transmission; (3) the standard for business 
records held by third parties, available on a mere subpoena to the 
third party with no notice to the individual subject of the record; and 
(4) a statutory standard allowing subpoena access and delayed notice 
for records stored on a remote server, such as the diary of a student 
stored on a university server, or personal correspondence stored on a 
corporate server.
    As the third and fourth categories of records expand because the 
wealth of transactional data collected in the private sector grows and 
people find it more convenient to store records remotely, the legal 
ambiguity and lack of strong protection grows more significant and 
poses grave threats to privacy in the digital environment.
    Congress took the first small step towards recognizing the changing 
nature of transactional data with amendments to the Electronic 
Communications Privacy Act enacted as part of the Communications 
Assistance for Law Enforcement Act of 1994 (``CALEA''). But the ongoing 
and accelerating increase in transactional data and the detail it 
reveals about individuals' lives suggests that these changes are 
insufficient to protect privacy.
    Moreover, the Electronic Communications Privacy Act must be updated 
to provide a consistent level of protection to communications and 
information regardless of where 21 they are stored and how long they 
have been kept. Senator Leahy's recently introduced legislation is an 
effort to restore Fourth Amendment protections to our personal papers. 
Technologies that invite us to live online will quickly create a pool 
of personal data with the capacity to reveal an individual's travels, 
thoughts, purchases, associations, and communications. We must raise 
the legal protections afforded to this growing body of detailed data 
regardless of where it resides on the network.
                               conclusion
    No doubt, privacy on the Internet is in a fragile state. Providing 
protections for individual privacy is essential for a flourishing and 
vibrant online community and marketplace. It is clear that our policy 
framework did not envision the Internet as we know it today, nor did it 
foresee the pervasive role information technology would play in our 
daily lives. Our legal framework for protecting individual privacy in 
electronic communications, while built upon constitutional principles 
buttressed by statutory protections, reflects the technical and social 
``givens'' of specific moments in history. Crafting privacy protections 
in the electronic realm has always been a complex endeavor. 
Reestablishing protections for individuals' privacy in this new 
environment requires us to focus on both the technical aspects of the 
Internet and on the practices and policies of those who operate in the 
online environment.
    However, there is new hope for the restoration of privacy. 
Providing a web of privacy protection to data and communications as 
they flow along networks requires a unique combination of tools--legal, 
policy, technical, and self-regulatory. We believe that legislation is 
an essential element of the online privacy framework and we look 
forward to working with this committee on the Online Privacy Protection 
Act (S. 809) and other proposals. Whether it is setting limits on 
government access to personal information, ensuring that a new 
technology protects privacy, or developing legislation all require 
discussion, debate, and deliberation. We thank the Committee for the 
opportunity to share our views and look forward to working with the 
members and 22 staff and other interested parties to foster privacy 
protections for the Digital Age.

    [Nova Law Review, The Internet and the Law, Winter 1999, Volume 23, 
No.2, provided by Jerry Berman and Deirdre Mulligan, maintained in the 
Subcommittees files.]

    Senator Burns. Thank you, Ms. Mulligan. We appreciate your 
comments very much.
    Now we have got Marc Rotenberg, director, Electronic 
Privacy Information Center, here in Washington, DC. Thanks a 
lot, Marc, for coming this morning.

            STATEMENT OF MARC ROTENBERG, DIRECTOR, 
             ELECTRONIC PRIVACY INFORMATION CENTER

    Mr. Rotenberg. Thank you very much, Mr. Chairman, Senators 
Wyden, Rockefeller, and Bryan, for the opportunity to be here.
    You probably know a bit about EPIC. We conducted the first 
comprehensive Web privacy survey back in 1997. And the FTC 
thought it was such a good idea, they did it the next year. And 
of course we have also been involved in a lot of the campaigns 
and worked with you on the encryption issue.
    I would like to be able to join the chorus this morning, 
and tell you that self-regulation is moving in the right 
direction and more needs to be done, but that is not my honest 
view. My honest view is that self-regulation to protect privacy 
is much like the emperor's new clothes--everybody looks at it, 
says, oh, how nice, how fine, but in fact the new clothes of 
the emperor do not protect his privacy any more than self-
regulation is protecting consumers on the Internet.
    And I can point to several instances in the FTC report to 
try to demonstrate just how serious the problem is today. Much 
is made of this 66 percent number in the Georgetown survey, 
repeated in the FTC report, and widely cited by industry 
leaders as an indication of progress and success. Let me tell 
you what is behind that 66 percent number.
    What that number says is that more and more Web sites are 
telling people that come to their site: We collect personal 
information about you and we use it for marketing and other 
purposes. That privacy notice, more than any other type of 
notice, is what people are seeing increasingly on the Internet 
when they go to Web sites and wonder what is happening to their 
personal information. And at the point that 100 percent of Web 
sites have that privacy notice, there is going to be very 
little privacy on the Internet.
    The reason, simply stated, is a privacy policy is not the 
same as privacy protection. You can have privacy policies that 
say, in effect, we collect your information and do with it 
whatever we wish. That is our policy.
    Now, it is true, of course, if you do not like that policy, 
you do not have to go to that Web site. And I agree with people 
who say, correctly, you always have the choice not to go a site 
that has a bad privacy policy. But, guess what? If Web sites 
across the Internet increasingly adopt those types of privacy 
policies, what is going to happen over time, people will have 
this choice: either to use the Internet for commerce and a 
whole host of other neat things that are great to do and give 
up their privacy, or stay off the Net. That is the choice that 
consumers are increasingly facing, because these privacy 
policies do not actually provide privacy protection.
    Now, you get glimmers of this in the FTC report. At one 
point in the report, the FTC acknowledges that there really are 
not safeguards in place, that less than 10 percent of Web sites 
even have the set of policies that the FTC thinks are 
necessary, let alone whether they are enforced--which was an 
issue not even considered in the FTC report, that I think 
should be considered--are those policies actually being 
followed--but then says, but let us not legislate too soon. It 
is a rapidly changing industry, new technology, we really do 
not understand it, we do not want to make a mistake; let us see 
how things shake out.
    Let me tell you the problem with that approach. If we were 
talking about Y2K protection, if we were talking about the 
development of computer security standards, no one would say, 
let us wait after January 1st, and see what kind of Y2K 
problems we have to deal with. And if we were talking about 
computer security, no one would say, well, let us see how many 
systems are broken into and what our actually damage is before 
we really deal with the issue of making our systems safe to put 
online.
    Good protection means advanced planning. It means 
anticipating problems and developing the policies and 
procedures so that the likelihood of risk, the likelihood of 
misuse, is reduced. And that is what privacy legislation tries 
to do.
    It does not say to businesses, we do not want you to 
succeed or we want to tie your hands or you should not do neat 
marketing or offer great products. It says, if you are going to 
do these things, let us do it in a way where there are some 
basic privacy safeguards in place, so that people know what 
they are getting into when they give up personal information. 
If they have some problems, they have a place to turn.
    I can tell you, we have had a lot of privacy legislation in 
this country directly in response to the development of new 
technologies. We did it in 1994 with the Cable Act. We did it 
in 1986 for the Electronic Communications Privacy Act. We have 
done it for auto dialers, junk faxes.
    The Privacy Act of 1974, the most significant privacy law 
in this country, came about in part because of public concerns 
about the automation of records held by Federal agencies. 
People did not say, well, you know, we should not have a 
Federal Government. I mean, maybe some people said that. But 
they said, if we are going to automate these records, let us 
put in place a legal framework to protect the rights of our 
citizens.
    I think we are in the exact same place as we approach the 
21st century. We have wonderful new tools, wonderful new 
opportunities. Everyone agrees that the Internet is going to be 
a fantastic engine of economic growth. But the real choice, the 
critical choice in the privacy debate is, will American 
consumers be forced to give up their privacy as the cost of 
using the online services?
    I think the answer to that question should be no. I think 
S. 809 is a wonderful, wonderful proposal. I would make some 
changes, but I think it is an excellent start. It sets us in 
the right direction to give consumers the kind of safeguards 
they need online, allow business to go forward, and to make 
sure that we do not wake up tomorrow morning and find that it 
is too late because privacy is gone.
    Thank you very much.
    Senator Burns. Thank you very much for your comments.
    Ms. Christine Varney, senior partner, Hogan & Hartson. 
Thank you for coming today.

STATEMENT OF CHRISTINE VARNEY, SENIOR PARTNER, HOGAN & HARTSON, 
            ON BEHALF OF THE ONLINE PRIVACY ALLIANCE

    Ms. Varney. Thank you for inviting me, Senator. And thank 
you, Senators.
    I just want to put a little bit of history and perspective 
on the table here, and then maybe address some of the specific 
questions that were raised in the previous panel. I have 
submitted written remarks for the record, if that is all right, 
Senator.
    Senator Burns. Your full remarks will be made part of the 
record.
    Ms. Varney. Thank you.
    We have to think back to 1996, when I was at the Federal 
Trade Commission, and we had the first privacy workshop. And 
there was enormous, heated argument among most of the people in 
this room about whether or not you should have to tell people 
what information you collect online and what you do with it. 
And the argument was made at the time, wait a second, that is 
not what we do offline; why should there be a different 
standard online?
    I well remember sitting there with operators of a Web site, 
who had at the time the most popular game for 10-year-olds on 
the Web--and I had a 10-year-old. In order to get to the game--
you could not get to the game unless you answered the following 
questions: How old are you? Do you have any siblings? Where do 
you live? Does mommy go to church? Does daddy go to church? Do 
you go to mommy's church? Do you go to daddy's church?
    Senator Burns. It sounds like my toaster.
    Ms. Varney. Exactly. [Laughter.]
    And the people that were running that game stood up in a 
room of 500 people and fully defended that practice. And I have 
to say, there were half the people in the room in 1996 who 
said, well, you know, that is the standard.
    Since 1996, we have moved to a point where, in industry 
online, there is no serious debate. Everyone agrees that 
privacy is important, that consumers are entitled to know what 
information is collected about them, and are entitled to make 
choices about it.
    So we have come an awfully long way in what you have 
pointed out is a relatively short period of time. Do we have 
further to go? Of course we do.
    Let us look at these numbers that we have all been talking 
about this morning and realize what I think both Deirdre and 
Marc have alluded to is behind them. In the Georgetown survey, 
there was a finding that 66 percent of the sites that they 
looked at had some type of statement about data.
    Well, what are the first two things that we looked at? 
First was did the Web site give some kind of notice? Did they 
explain in some way what they collected? Eighty-seven percent 
did.
    The second thing is, did they give you some sort of choice 
or control, opt out, opt in? Seventy-seven percent did. Now, 
that is fairly high, in my view.
    Where does it go down? It goes down on access. Let us be 
frank about access. There is a division in this country between 
much of industry and many leading privacy thinkers and some in 
government about what constitutes access.
    In the Online Privacy Alliance, we believe that consumers 
have a right to see that data that is held about them is 
accurate and that one mechanism for checking accuracy can be 
access. We do not have a per se access requirement. And I think 
that is still an issue that is being debate and is evolving. I 
do not think we have reached a consensus--at least not 
commercially--on the access issue.
    Security--in the study that was conducted by Georgetown, 
they found that of the sites that had some type of privacy 
notice, 44 percent had some type of security disclosed. We went 
back, and based only on my anecdotal checking, Senators, I can 
tell you, that is a failure of communication. The vast majority 
of Web site operators that I have talked to laughed and said, 
of course, we have security. This is one of our most valuable 
assets. We did not put it in our privacy policy. We did not 
know we were supposed to talk about the security which we 
maintain our databases in, in our privacy policy. We will put 
it in.
    The last one is contact information. And there was a 
relatively low number that had the name of an individual, other 
than the Web master, that you could contact if you wanted 
information about the data that was held on you or the data 
practices at a company. Again, something that these companies 
need to work on.
    About 2 weeks ago, I wrote a letter to every single Web 
site in our own review of the top 500 Web sites that we 
conducted, in connection with Ernst & Young, to every chairman 
of the 500 Web sites, where we could not easily find a privacy 
policy, and said, please, please, please, you need to tell your 
consumers what you are doing with their data, and you need to 
give them choices.
    So it seems to me that the consensus you are hearing here 
is yes, privacy is important; how do we get there? Legislation 
can be one option. But I have heard from each of you different 
concerns. And let me tell you, in my opinion--and I know you 
will check with your own counsel--when Commissioner Anthony 
gave a detailed description of the information that someone 
presented to her about her family and her husband, her 
children, her social security number, guess what? That probably 
came from an entity that collected that information from public 
record sources. And S. 809 would probably not, in my opinion, 
be able to cover that.
    The concerns that you have raised about cookies, Senator 
Bryan--unless you are at a site where you are entering your 
name and address, the concerns that you have raised about 
cookies would probably not be covered by S. 809.
    So, while S. 809 reflects the goals that the Online Privacy 
Alliance has adopted--we have worked with your staff; these are 
things that we believe are important--S. 809 conflicts with the 
current privacy provision of H.R. 10, the banking reform bill, 
if that survives the conference. You would have less protection 
for your financial information. And financial institutions, in 
my reading of the two bills right now, would be largely exempt 
from S. 809.
    So I think what you are hearing from a lot of us is let us 
keep working on this. It is not time to stop working. But I am 
just not sure that catching the bad guys and prosecuting the 
bad guys is going to be accomplished through S. 809 at this 
point in time.
    Thank you very much.
    [The prepared statement of Ms. Varney follows:]

    Prepared Statement of Christine Varney on Behalf of The Online 
                            Privacy Alliance

    The Internet is poised to become an explosive economic growth 
opportunity that will redefine global commerce in the information age. 
That growth cannot and will not occur without consumer confidence. 
Privacy is one of the cornerstones of consumer confidence in the 
Internet.
    Last year numerous companies and associations came together to 
create policies and practices that can make privacy a reality for 
everyone on the Internet. These companies and associations, the Online 
Privacy Alliance, are pleased to submit the attached documents. First 
is the Mission Statement describing the goals of the Online Privacy 
Alliance, second are the Guidelines for Privacy Policies that will be 
adopted by all Online Privacy Alliance members, third are the 
Principles for Children's Online Activities, and fourth are the 
Guidelines for Effective Enforcement of Self-Regulation.
    The Online Privacy Alliance has worked diligently to come up with 
policies that can be applied across many industry sectors. These 
guidelines, principles and statements reflect not only a deep 
commitment to online privacy, but also new policies which the Online 
Privacy Alliance members support. First, the Online Privacy Alliance 
believes that when there is use or distribution of individually 
identifiable information for purposes unrelated to that for which it 
was collected, individuals should be given the opportunity to opt out 
of such unrelated use or distribution. Second, the Online Privacy 
Alliance members believe that sites targeted at children under 13 
should not engage in the collection and maintenance of information from 
children without prior parental consent. Finally, the Online Privacy 
Alliance members believe that self-regulation requires robust 
enforcement and they are committed to ensuring such.
    Over the past year the OPA has worked to expand the adoption of 
effective online privacy policies by organizations doing business 
online. Clearly, the recent Georgetown Internet Privacy Policy Study 
(``The Georgetown Privacy Study'') indicates that significant progress 
has been made in safeguarding privacy online. The fact that close to 66 
percent of sites in the sample posted a privacy disclosure demonstrates 
that adoption and disclosure of privacy policies is becoming the norm 
on the Internet. Last year, the FTC reported that only 14 percent of 
Web sites notified consumers about their privacy policies. Although the 
universe from which the survey samples are drawn differ, it is very 
clear that there has been enormous progress.
    The OPA and its supporting organizations will continue to work to 
ensure that effective online privacy practices are adopted and 
implemented among the private sector. In particular, we will be 
focusing on continuing outreach through business and consumer 
education, while increasing awareness of various privacy assurance 
programs. The Georgetown Privacy Study will serve as a road map to help 
us ensure that robust privacy practices are the norm online. It has 
been a pleasure working with this group and I look forward to 
continuing to work with the Online Privacy Alliance to build consumer 
confidence in the Internet.
                               __________

                        Online Privacy Alliance

                           MISSION STATEMENT

    The Online Privacy Alliance will lead and support self-regulatory 
initiatives that create an environment of trust and that foster the 
protection of individuals' privacy online and in electronic commerce.
    The Alliance will:
    <bullet> identify and advance effective online privacy policies 
across the private sector;
    <bullet> support and foster the development and use of self-
regulatory enforcement mechanisms and activities, as well as user 
empowerment technology tools, designed to protect individuals' privacy;
    <bullet> support compliance with and strong enforcement of 
applicable laws and regulations;
    <bullet> support and foster the development and use of practices 
and policies that protect the privacy of children;
    <bullet> promote broad awareness of and participation in Alliance 
initiatives by businesses, non-profits, policymakers and consumers; and
    <bullet> seek input and support for Alliance initiatives from 
consumer, business, academic, advocacy and other organizations that 
share its commitment to privacy protection.

                           MEMBERSHIP PLEDGE

    As members of the Alliance:
    <bullet> we endorse its mission;
    <bullet> we commit ourselves to implement online privacy policies 
consistent with the Alliance's guidelines; and
    <bullet> we commit ourselves to participate in effective and 
appropriate self-regulatory enforcement activities and mechanisms.

                 GUIDELINES FOR ONLINE PRIVACY POLICIES

    Upon joining the Online Privacy Alliance, each member organization 
agrees that its policies for protecting individually identifiable 
information in an online or electronic commerce environment will 
address at least the following elements, with customization and 
enhancement as appropriate to its own business or industry sector.
1. Adoption and Implementation of a Privacy Policy
    An organization engaged in online activities or electronic commerce 
has a responsibility to adopt and implement a policy for protecting the 
privacy of individually identifiable information. Organizations should 
also take steps that foster the adoption and implementation of 
effective online privacy policies by the organizations with which they 
interact; e.g., by sharing best practices with business partners.
2. Notice and Disclosure
    An organization's privacy policy must be easy to find, read and 
understand. The policy must be available prior to or at the time that 
individually identifiable information is collected or requested.
    The policy must state clearly: what information is being collected; 
the use of that information; possible third party distribution of that 
information; the choices available to an individual regarding 
collection, use and distribution of the collected information; a 
statement of the organization's commitment to data security; and what 
steps the organization takes to ensure data quality and access.
    The policy should disclose the consequences, if any, of an 
individual's refusal to provide information. The policy should also 
include a clear statement of what accountability mechanism the 
organization uses, including how to contact the organization.
3. Choice/Consent
    Individuals must be given the opportunity to exercise choice 
regarding how individually identifiable information collected from them 
online may be used when such use is unrelated to the purpose for which 
the information was collected. At a minimum, individuals should be 
given the opportunity to opt out of such use. Additionally, in the vast 
majority of circumstances, where there is third party distribution of 
individually identifiable information, collected online from the 
individual, unrelated to the purpose for which it was collected, the 
individual should be given the opportunity to opt out.
    Consent for such use or third party distribution may also be 
obtained through technological tools or opt-in.
4. Data Security
    Organizations creating, maintaining, using or disseminating 
individually identifiable information should take appropriate measures 
to assure its reliability and should take reasonable precautions to 
protect it from loss, misuse or alteration. They should take reasonable 
steps to assure that third parties to which they transfer such 
information are aware of these security practices, and that the third 
parties also take reasonable precautions to protect any transferred 
information.
5. Data Quality and Access
    Organizations creating, maintaining, using or disseminating 
individually identifiable information should take reasonable steps to 
assure that the data are accurate, complete and timely for the purposes 
for which they are to be used.
    Organizations should establish appropriate processes or mechanisms 
so that inaccuracies in material individually identifiable information, 
such as account or contact information, may be corrected. These 
processes and mechanisms should be simple and easy to use, and provide 
assurance that inaccuracies have been corrected. Other procedures to 
assure data quality may include use of reliable sources and collection 
methods, reasonable and appropriate consumer access and correction, and 
protections against accidental or unauthorized alteration.
    These guidelines are not intended to apply to proprietary, publicly 
available or public record information, nor to supersede obligations 
imposed by statute, regulation or legal process.
    Other valuable resources available to Alliance members in the 
development of privacy policies include: the OECD's ``Guidelines on the 
Protection of Privacy and Transborder Flows of Personal Data''; the 
U.S. Department of Commerce's ``Staff Discussion Paper of Privacy Self-
Regulation''; and various industry association programs.

              PRINCIPLES FOR CHILDREN'S ONLINE ACTIVITIES

    The Members of the Online Privacy Alliance believe that the 
development of interactive online communications provides tremendous 
opportunities for children. At the same time, it presents unique 
challenges for protecting the privacy of young children. Children under 
13 are special. Unlike adults, they may not be fully capable of 
understanding the consequences of giving out personal information 
online. However, children often understand how to navigate online far 
better than their parents do. Parents will not always have the 
knowledge, the ability or the opportunity to intervene in their 
children's choices about giving out personal information. Therefore, 
companies operating online must protect the privacy of children.
    In connection with online activities of children under 13, the 
Alliance adopts the following principles.
    Companies doing business online that operate sites that are 
directed at children under 13 or at which the age of visitors is known, 
must at those sites:
    <bullet> Not collect online contact information from a child under 
13 without prior parental consent or direct parental notification of 
the nature and intended use of this information, which shall include an 
opportunity for the parent to prevent use of the information and 
participation in the activity. This online contact information shall 
only be used to directly respond to the child's request and shall not 
be used to recontact the child for other purposes without prior 
parental consent.
    <bullet> Not collect individually identifiable offline contact 
information from children under 13 without prior parental consent.
    <bullet> Not distribute to third parties any individually 
identifiable information collected from a child under 13 without prior 
parental consent.
    <bullet> Not give the ability to children under 13 to publicly post 
or otherwise distribute individually identifiable contact information 
without prior parental consent. Sites directed to children under 13 
must take best efforts to prohibit a child from posting contact 
information.
    <bullet> Not entice a child under 13 by the prospect of a special 
game, prize or other activity, to divulge more information than is 
needed to participate in that activity.

           EFFECTIVE ENFORCEMENT OF SELF-REGULATION--SUMMARY

    Effective enforcement of online privacy policies is intended to 
assure an organization's compliance with its privacy policies for the 
collection, use and disclosure of personally identifiable information 
online and provide for consumer complaint resolution. Whether 
administered by a third-party privacy seal program, licensing program 
or a membership association, the effective enforcement of self-
regulation requires: (1) verification and monitoring, (2) complaint 
resolution and (3) education and outreach. The Online Privacy Alliance 
believes the best way to create public trust is for organizations to 
alert consumers and other individuals to the organization's practices 
and procedures through participation in a program that has an easy to 
recognize symbol or seal.

                    THIRD-PARTY ENFORCEMENT PROGRAMS

    Validation by an independent TRUSTed third party that organizations 
are engaged in meaningful self-regulation of online privacy, may be 
necessary to grow consumer confidence. Such validation should be easily 
recognized by consumers, for example through the use of a seal or other 
symbol. The symbol or seal can be used to connote both compliance with 
privacy policies and an easy method for consumers to contact the seal 
provider. Thus, the Online Privacy Alliance supports third-party 
enforcement programs that award an identifiable symbol to signify to 
consumers that the owner or operator of a Web site, online service or 
other online area has adopted a privacy policy that includes the 
elements articulated by the Online Privacy Alliance, has put in place 
procedures to ensure compliance with those policies, and offers 
consumer complaint resolution.

                          PRIVACY SEAL PROGRAM

    Such a privacy seal program (hereinafter ``the seal program'') 
should implement mechanisms necessary to maintain objectivity and build 
legitimacy with consumers. The seal program should utilize a governing 
structure that solicits and considers input from the business 
community, consumer/advocacy organizations and academics in formulating 
its policies. The seal program should strive to create a consistent and 
predictable framework in implementing its procedures. The seal program 
should be independent and should endeavor to make receipt of the seal 
affordable for and available to all online businesses.
    A seal program should include the following characteristics:
    <bullet> Ubiquity.--In order to minimize confusion and increase 
consumer confidence, efforts shall be taken to ensure ubiquitous 
adoption, and recognition of seals through branding efforts, including, 
for example, co-branding with corporations or associations.
    <bullet> Comprehensiveness.--A seal program should be flexible 
enough to address issues related to both sensitive and non-sensitive 
information.
    <bullet> Accessibility.--A seal should be easy for the user to 
locate, use and comprehend.
    <bullet> Affordability.--The cost and structure of a seal should 
encourage broad use and should not be prohibitive to small businesses. 
The cost of a seal will vary based on a number of factors, including 
the extent and complexity of review, size of the business, the amount 
and type of individually identifiable information collected, used and 
distributed, and other criteria.
    <bullet> Integrity.--A seal provider should be able to pursue all 
necessary avenues to maintain the integrity of the seal, including 
trademark enforcement actions.
    <bullet> Depth.--A seal provider should have the ability to handle 
the number and breadth of consumer inquiries and complaints about the 
potential violation of online privacy policies and should have an 
established set of mechanisms to address those inquiries and 
complaints.

                      VERIFICATION AND MONITORING

    A seal program must require that its participants adopt a privacy 
policy that comports with the principles endorsed by the Online Privacy 
Alliance. The scope of this requirement only applies to the 
participating organization and does not apply to the Web pages of 
affiliates or other Web pages linked to or from the participating 
organization's Web page. While these baseline principles should be 
standardized, individual policies accepted by the seal provider should 
allow for sector-specific variations. The seal program must then 
require that an organization put in place either self-assessment or 
accept the seal program's compliance review prior to awarding the seal.
    If a self-assessment system is chosen, it must be pursuant to a 
rigorous, uniform, clearly articulated and publicly disclosed seal 
program methodology under which an organization would be asked to 
verify that its published privacy policy is accurate, comprehensive, 
prominently displayed, completely implemented and accessible; and that 
consumers are informed of the consumer complaint resolution mechanisms 
through which complaints are handled. A statement verifying the self-
assessment should be signed by a corporate officer or some other 
authorized representative of the company. The self-assessment should 
then be reviewed by the seal program to assure compliance with the 
methodology. Specific criteria for when a company should improve the 
implementation of its self-assessment system, adopt further measures, 
or circumstances when a third-party review is required, should be part 
of the seal program's methodology for acceptable self-assessment.
    Periodic reviews should be required by the seal program to ensure 
that those displaying the seal continue to abide by their privacy 
policies and that those policies continue to be consistent with its 
principles. These periodic reviews may include, but are not limited to, 
auditing, random reviews, use of ``decoys'' or use of technology tools 
as appropriate to ensure that sites are adhering to the articulated 
privacy policies.
    In cases where there is evidence that the company is not abiding by 
its privacy policies, the seal provider should establish clear criteria 
for placing that company on probation or beginning procedures for the 
seal's revocation. The seal provider should establish clearly defined 
criteria for when and how a company's seal may be revoked. A company 
should be given notice and the opportunity to request outside review 
before its seal is revoked. Seal revocation should be a matter of 
public record. The seal provider must clearly state the grounds for 
revocation and establish a post-revocation appeals process. In addition 
to the above criteria, the seal provider should also strive to ensure 
the integrity of the seal by monitoring for misuse or misappropriation.

                     CONSUMER COMPLAINT RESOLUTION

    An effective third-party enforcement mechanism must provide its 
participants and consumers a structure to resolve complaints and 
consequences for failure to do so. Thus, a seal program must define the 
scope of complaints subject to the complaint resolution process, have a 
system in place to address complaints, the necessary staff to handle 
the volume of complaints and the organizational depth to resolve them. 
The seal program must provide a variety of easy mechanisms to allow 
consumers to lodge complaints or ask questions. Seal recipients must 
agree to the complaint resolution procedure.
    Under the complaint resolution system, consumers must first be 
required to seek redress for their complaints from the company they 
believed to have aggrieved them, before being granted access to the 
seal program's complaint resolution mechanism. Where complaints cannot 
be adequately resolved by the company, and where the consumer and 
company have exhausted good faith efforts to reach agreement, the 
company should be required to submit to a complaint resolution 
mechanism.
    Complaint resolution outcomes must not be contrary to any existing 
legal obligations of the participating company. Failure of a company to 
agree with the outcome of the seal program's complaint resolution 
should result in previously identified consequences to the company. 
Notwithstanding the complaint resolution process, the consumer, the 
company and the seal provider may pursue other available legal 
recourse.

                         EDUCATION AND OUTREACH

    A seal program must develop and implement policies to educate 
consumers and business about online privacy.
    A seal program must develop and implement policies to encourage 
awareness of the program and online privacy issues with both consumers 
and businesses. Such techniques shall include: publicity for 
participating companies, public disclosure of material noncompliance or 
seal revocation, periodic publication of the results of the monitoring 
and review procedures, or referral of noncomplying companies to the 
appropriate government agencies.

               ONLINE PRIVACY ALLIANCE ASSOCIATION POLICY

    An association that joins the Online Privacy Alliance agrees to:
    <bullet> endorse the Alliance mission statement, including: (1) 
adopting and posting privacy guidelines consistent with the Alliance's 
guidelines and appropriate to the association's membership; and (2) 
participating in self-regulatory enforcement mechanisms appropriate to 
the association's online activities;
    <bullet> encourage its members to adopt privacy guidelines 
consistent with the Alliance's guidelines and appropriate to their 
industry's sector, and to implement appropriate self-regulatory 
mechanisms; and
    <bullet> actively participate in the Alliance's business outreach 
and consumer education programs.
    An association also may administer a seal or other third-party 
self-regulatory enforcement program at its discretion.

                            OTHER MATERIALS

    <bullet> Executive Summary of the Georgetown Internet Privacy 
Policy Survey Conducted by Professor Mary J. Culnan. See http://
www.privacyalliance.org/resources/gipps--summary.shtml
    <bullet> Executive Summary of the OPA Privacy Policy Survey of the 
Top 100 Web Sites Conducted by Professor Mary J. Culnan. See http://
www.privacyalliance.org/resources/100--summary.shtml
    <bullet> Privacy Initiatives by Private Sector: A partial review of 
steps which OPA Supporters have done to help foster consumer confidence 
by protecting personal privacy in cyberspace. See http://
www.privacyalliance.org/resources/privinit.shtml
    <bullet> A Quick Guide to Helpful Tips and Technical Tools for 
safeguarding your privacy online. See http://www.privacyalliance.org/
resources/rulesntools.shtml

    Senator Burns. Thank you. I appreciate that very much.
    But I will have to admit that you make some very strong 
points when you start talking about the banking thing. We sat 
down and talked to some financial people, and even addressed 
their congressional session. And it was interesting to hear 
their comments, and then their comments on S. 809. Nobody said 
this was going to be easy to find that middle ground, but, 
nonetheless, we are attempting to.
    Let me ask the panel if you see any difference in the 
online environment between this year and last year, whenever we 
start talking about, you know, we passed the Children's Privacy 
Act and now, a year later, has the landscape changed? Is there 
a different environment out there now? Have we learned some 
things? Did we do some things wrong? Did we do some things 
right?
    I would like to hear some comments with regard to that. We 
will just start with you, Ms. Mulligan.
    Ms. Mulligan. I would love to. I first want to address the 
Children's Online Privacy Protection Act. And, as you know, 
there is a rulemaking going on now. And I think, as some folks 
have alluded to, there are some very critical issues that have 
surfaced during the Commission's rulemaking. One is, for 
example, what does it mean to collect information in the online 
environment?
    When you surf, you do leave behind logs that every single 
Web site that you visit potentially is collecting information. 
Now, that information, they may not be using it in any way to 
come back to you. They may not be interested at all in who you 
are. But there is just some tricky definitional issues.
    And this has come up in other instances when you have dealt 
with how do you deal with content, and making sure that service 
providers, who are merely a conduit for other people's 
communication, are not held liable for the contents of that 
communication. And so there are some similar issues to look at, 
and make sure that you are actually placing liability on the 
right individuals.
    And there are some other tricky issues--what is 
identifiable data? And one of the things that I think is very 
important as we look at this issue--traditionally, privacy 
statutes have been focused, as far as their enforcement 
techniques, on providing individual citizens with rights of 
action. The Children's Online Privacy Protection Act, the 
Online Privacy Protection Act that you proposed, are actually 
looking at a different model of enforcement and oversight, 
which is an FTC model.
    And I think there are arguments that you can make in favor 
and against both of those. And one of the things that I think 
really needs to be explored a little bit further is which model 
is going to best ensure compliance, which model is going to 
best ensure that harmed individuals actually have some 
recourse, and perhaps it is a combination of the both. But I 
think that is an issue that really could use some more 
exploration. And I think this committee would serve as a useful 
place to have the discussion.
    On the state of the Web and how things are changing, I 
think one of the things that we are seeing as an increasingly 
difficult issue and complex issue is the introduction of things 
that are called identifiers. This has come up with the Pentium 
III PSN unique identifier. And there was an enormous concern 
that it was going to be cookies on steroids; that this was 
going to provide an enormous opportunity for individual's 
actions to be tracked and correlated all across the Web.
    Another issue, which you have both raised--several members 
have raised--is this distinction between online and offline 
information. Is that something that makes sense to consumers, 
and is it something that actually reflects business practices? 
And I think that the verdict is still out on that. And I think 
the online environment, those lines between online and offline, 
while certain companies--and Jill Lesser talked about the fact 
that AOL does not use information about online activities in 
marketing to individuals or anything--that is not necessarily 
the norm.
    And there has been a lot of discussion about a merger 
between DoubleClick, which makes very aggressive use of 
cookies, and links individuals' activities at various Web 
sites, which is what Senator Bryan was referring to, and 
Abacus, which is a very large database of people' preferences 
and purchasing habits at catalogs. And these two companies are 
merging. And what does that mean for our online and our offline 
identities? Are they all of a sudden going to be coming 
together? And what does that mean for consumers?
    So there are a number of pressing issues that I think were 
not on the table probably 2 years ago.
    Senator Burns. Marc?
    Mr. Rotenberg. If I could, Senator, add a few additional 
points. I think it is important to keep in mind that over the 
past year there has been a critical negotiation between the 
United States and Europe over the future of privacy protection. 
And this is very important, I think, for consumers and for 
businesses, because it goes to the whole issue of e-commerce 
and transporter data flow.
    And the Europeans have made clear for a long time that they 
feel quite strongly about the privacy issue. I think part of it 
has to do with the history. I think part of it also has to do 
with the integration of the European countries. But they said 
more than a year ago to the United States that we would need 
strong safeguards in this country for them to feel comfortable 
shipping private records, medical records, financial records on 
European citizens to the United States.
    And our negotiators said, well, we thought self-regulation 
would do the job, and sort of reached the showdown point this 
past June. And the Europeans basically said, we do not think it 
is going to work for us. And we are seeing similar results with 
other countries that are moving increasingly to adopt privacy 
legislation. You are seeing this also, as Commissioner Anthony 
described, across the States. The States are not waiting. They 
are passing legislation. They are hearing from their voters, 
their consumers, that they want some safeguards now.
    So I think you are seeing, one, a lot of political support 
and a lot of political action in support of legislation. The 
second thing I think you are seeing are very new business 
practices, with some very serious privacy repercussions. The 
DoubleClick-Abacus merger, which I describe in some detail in 
my testimony, will radically transform the nature of 
advertising.
    Now, advertising is a very interesting marketing technique. 
Because it is a way for seller to reach potential customers in 
a segmented market and still allow people to protect their 
privacy. In other words, if you are listening to a radio 
station or watching television or thumbing through a magazine, 
you are getting a lot of product information. That does not 
necessarily mean that the person who placed that ad or that 
spot knows that you are hearing it or seeing it.
    Now, that could change on the Internet in a very big way. 
And it has to do with a point that Senator Bryan made earlier 
this morning. And that is the use of cookies. These cookies 
that sit behind the banner ads are part of a big network. It is 
not just the Ford site or the Eddie Bauer site or the Sears 
site. There are big networks, like DoubleClick, that control 
many of the ads that one Web surfer sees as that person goes 
across the Internet. And they are building elaborate profiles.
    Now, DoubleClick said originally, when people started 
asking all sorts of questions, well, what about the privacy 
consequences here? They said, well, our system is going to be 
anonymous; we are not going to collect any personally 
identifiable information. And there are a thousand Web sites on 
the DoubleClick network that say that--anonymous, do not 
collect any personally identifiable information. But now 
DoubleClick says, we are going to merge with Abacus.
    Abacus is the largest catalog database firm in the United 
States. And we are going to join our anonymous profiles of 
those people clicking Web ads with all that data that is 
sitting in there--profile, occupation and information--to 
provide you really great, high-quality, one-to-one marketing. 
That has enormous privacy consequences for the Internet.
    And the problem right now is that we do not have a legal 
way to get a hold of that process. I mean, maybe, on balance, 
it makes sense. I do not think it does. But we need a better 
way to get to those kinds of issues.
    Senator Burns. Senator Bryan.
    Senator Bryan. I thank the chair. Again, a very thoughtful 
panel, very helpful. You have done a fine job, Mr. Chairman.
    Ms. Varney, let me, if I might, just respond. I happen to 
be a conferee on the financial restructuring, S. 900, or H.R. 
10. And, as you know, in the financial restructuring version 
the Senate has passed, there are no privacy provisions. We are 
now told that the provisions in H.R. 10, some industry folks 
are saying that this is a deal breaker, that these kinds of 
provisions will force the industry to back off.
    And let me just say, I, like Senator Wyden and others, I do 
not have a legislative Pavlovian response that there is an 
issue here we have got to legislate immediately. My approach 
certainly would be to work as we did with AOL and direct 
marketers and other Web operators and the FTC to craft 
something, as we did with the Children's Online Privacy 
Protection Act. That is my approach.
    But I have to tell you, this privacy issue is something 
that is very, very significant. With respect to banking, we now 
know that there are major banks--responsible, legitimate 
institutions--that have, in effect, without the knowledge or 
consent of the depositor, have transferred personal 
information, credit card numbers, bank account numbers, to 
telemarketers--some of whom are only one step away from 
incarceration.
    Now, I think that comes as a shock to folks. So, again, I 
am not as sanguine, perhaps, as you are as to how we are going 
to get through this conference on financial restructuring.
    We have a lot of States that are responding to this issue. 
My experience at the State level is where the Federal 
Government fails to act and there is perceived to be a 
legitimate public policy issue, the States get involved. And 
then we get this patchwork of legislation. Would not it make 
sense to have a uniform standard for the business community and 
the private sector, consumer advocates, to, in effect, have a 
baseline, as opposed to getting through a whole patchwork, if 
you would, of different approaches that States might take? Let 
me give you that question.
    Ms. Varney. If I can just clarify. My intention in 
commenting on H.R. 10 was nothing other than to say it is a 
very difficult area. And the possible inconsistencies of H.R. 
10 survive the conference with an S. 809, we have basically 
exempted this huge area of financial services from the 
requirements of S. 809. And I am also very concerned about 
financial data, medical data and children's data, which are 
generally considered to be the most sensitive kinds of data. So 
my comment is only to alert us to the pitfalls here.
    Senator Bryan. OK.
    Ms. Varney. If you think back, Senator, to when the 
financial services industry did come to Congress and say, 
several years ago, we are experiencing tremendous difficulty in 
credit card acceptance because of the myriad of State laws, and 
we would like you to work with us to come up with a national 
law, a Federal standard, to preempt the State laws, so that we 
can have ubiquitous credit card deployment.
    Now, some may think, in retrospect, that that is the reason 
we have so much personal bankruptcy, because they now send 
credit cards to 12-year-olds. But, on the other hand, that was 
an instance where industry did come to you and said, we have a 
problem and we have concluded that the fix is a Federal 
legislative fix and, with your help, we want to address it.
    My sense, from the companies I work with, is that they have 
not excluded that. They have merely said, we are not there yet 
and we would like to look at technological fixes, we would like 
to look at the demands of the consumer in the marketplace. We 
want to see how all of this works.
    My guess is, Senator, that many of my clients--eBay, 
Amazon, Yahoo, AOL--if they got to the point where they felt 
that individual State, possibly conflicting or inconsistent, 
regulation was hindering their ability to do business with 
consumers, they would be here in a heartbeat, asking you to 
work with them to fix the problem.
    Senator Bryan. Mr. Rotenberg, and perhaps Ms. Mulligan, 
with respect to the cookies issue, which I think, as we have 
talked about with the FTC panel, you do not really have a 
choice there. The FTC has indicated, in response to one of my 
questions that we really do not know the extent of the data 
collection. What is the correct public policy for us to pursue, 
either through some type of voluntary industry accord or a 
legislative approach? Is there any legitimate basis for them to 
collect information just based upon your scanning the Web?
    Mr. Rotenberg. Senator, I think the right starting point 
for public policy in this area is the concept of fair 
information practices, which the Commissioners all spoke about 
on the first panel. Fair information practices basically say 
that when a company collects some information, they have some 
responsibilities to you and you have some rights.
    And the problems with cookies, you see, is because that 
data collection is so secretive; people really do not know what 
is going on. Now, I could describe for you many applications of 
cookies which are fantastic to make the Internet work.
    I mean there are certain aspects of the HTTP protocol, 
precisely the fact that it is sort of stateless, and you come 
back to a Web site, having just clicked on a page, the Web site 
does not know who you are. So there has to be some way to sort 
of remember that you were the person who just clicked on the 
page before. And so you use cookies in these settings, for 
example, if you go to an online bookstore and you want to 
purchase something online, and you bought one book and you want 
to buy a second one, the company needs to know that you bought 
the first one. And they use cookies that way, and it makes a 
lot of sense.
    But the banner ads which I described for you, that is a 
whole different thing. That is about building a profile of what 
you are interested in based on where you have been. And you 
really exercise no control.
    If we took the approach that fair information practices 
should be enforced on the Internet, whether it is a purchase or 
cookies or something else, I think the rules would become clear 
pretty quickly. And it would be hard, for example, for Web 
advertisers to collect that data so secretly, but it would 
still be possible for Web merchants to use this same technique 
to fulfill a customer's order.
    That is why, in my view, privacy policies actually make 
things simpler for people. They make it better for consumers 
and for businesses.
    Senator Bryan. Ms. Mulligan, any comment?
    Ms. Mulligan. Yes, I think I would just like to elaborate. 
People talk about fair information practices--it is often just 
kind of waved about. And they are pretty simple concepts. And, 
as Senator Wyden stated earlier, they are pretty tried and 
true. They have been well tested. And basically, individuals 
have the right to access and correct information about them. 
They have the right to control how data is used that they 
provide to someone.
    This means consent. Recordkeepers have responsibilities to 
tell people how they collect information, how they use 
information, to limit how they collect information, so that 
they are not collecting the extraneous information that they do 
not need to give you a warranty on your toaster. That they 
should limit the use and they should honor an individual's 
ability to control that data once they have collected it. That 
they have an obligation to maintain that data in a form that 
protects its quality and to provide it security. And that they 
have an obligation to be accountable to the public for those 
practices.
    I think, as Mr. Rotenberg said, technology can be used in 
both ways that greatly advance our privacy and that advance 
convenience, and they can also be used in ways that undermine 
both individuals' expectations of confidentiality, their 
expectations of privacy, and kind of add to this general sense 
of unease, that someone is watching me.
    I think that the way in which we move forward is by really 
looking at what are the policies that we are trying to advance, 
and not necessarily focusing on a specific technology--although 
there are technologies that I think are critically important 
and I think that this committee's work on encryption and the 
fact that we may have a bill that is looking quite strong going 
to the floor on the House side--I think that there is a lot of 
positive that technology can do, but really focusing on the 
technology may take our eye a little bit off the prize.
    Senator Bryan. Ms. Lesser, let me ask you a question, if I 
may. I catch here on the weekend newspaper that AOL----
    Senator Burns. Excuse me, Senator. Would you do me a favor 
and ask Senator Wyden, once he gets done with his round of 
questioning, could you wrap up the hearing? I have got a kind 
of important meeting that I have got to attend at 11:45, and I 
am a little late now. Can you wrap it up? Thank you very much.
    Senator Bryan. Mr. Chairman, thank you for allowing me to 
ask just one more question, and then I will let Senator Wyden--
--
    Senator Burns. You have got to deal with Wyden now. 
[Laughter.]
    Senator Bryan. We have already had a tradeoff here, I 
think, this morning.
    I noticed in the Saturday paper that you are bidding 
farewell to these core of under-18 volunteers, who have been 
kind of helping you to monitor some of the activities. And I 
want to offer myself. In 18 months, I will be unemployed. You 
are saying that you are looking for someone who has greater 
maturity than the 15- or 16-year-olds. I am not sure that any 
other qualification I might have to bring to bear would have 
any relevancy, but I am older and more mature than the younger 
folks, and so I will look forward to volunteering.
    Ms. Lesser. You are hired.
    Senator Bryan. I am hired. Great.
    Let me ask you the question that I asked the Commissioner. 
That is, I thought AOL made a pretty argument, when we had the 
broadband frequency argument. You were talking about access and 
how, with the telephone network that is available, but with 
some of the policies being pursued by cable operators, that you 
did not. And that struck me. And then, I must tell you, I was 
somewhat surprised when you and Microsoft got into this titanic 
battle of the 800-pound gorillas in the industry.
    Again, as I have commented earlier, Microsoft develops the 
technology on this instant messaging that would enable their 
subscribers to communicate with your subscribers, and then you 
developed the blocking strategy, and now they are trying to 
counter-block.
    It strikes me that there is an inconsistency here. Let me 
give you an opportunity to explain that, and then I will yield 
to my patient friend from Oregon.
    Ms. Lesser. Thank you. And I appreciate the opportunity to 
explain this Senator Bryan. As I think is often the case, the 
devil is in the details, so let me just give you a little bit 
of the details, and take you back to the beginning of when we 
began to offer instant messaging.
    It is, as you may or may not know, a technology that works 
somewhat like E-mail except that it pops up on your screen so 
it really is instant. And we developed the technology, 
actually, over 10 years ago. We quickly realized that it was 
probably the most popular item on AOL. And so what we did was 
we took it from being an AOL proprietary service and we made it 
freely available on the Internet.
    So AOL Instant Messenger, which is the subject of this 
debate if you will, is freely available to everybody on the 
Internet. And over time, we have also been approached by other 
companies--Netscape being one before we were in discussions 
with our acquisition; IBM being another, that there was just a 
story about today where they are integrating our Instant 
Messenger technology into their own software, creating their 
own program, but basing it on our technology.
    With those situations and with others that we have engaged 
in, we have basically a dialogue--does your technology 
interoperate with our technology, because we support openness 
and interoperability? Does it work with our technology in terms 
of scalability? And how does it impact our proprietary servers?
    So there are lots of questions you want to ask first before 
you say absolutely, interconnect, have an interoperable system, 
we support openness. So I think it is a fundamentally 
consistent approach.
    I will say that with respect to this hearing, I think it is 
an interesting issue. Because one of the things that was most 
distressing about the way this happened is that Microsoft did 
not give anybody at AOL any notice that they were going to try 
to interoperate, and did so just after midnight last week. And 
what they did, what their product does, is if you are an AOL 
Instant Messenger subscriber and you would go to sign up for 
Microsoft, it actually says, I noticed that you are a member of 
AOL's Instant Messaging.
    So they are basically picking up the information off our 
server and saying to our consumers, we need your AOL screen 
name and your AOL password, which is a fundamental part of the 
way we maintain security in our system in order for you to be 
able to communicate through MSN's system with AOL's Instant 
Messenger customers.
    So whereas we, every day, every time I sign on, a message 
comes up, saying, do not give your password to anyone and do 
not--and AOL employees will never ask you for your password in 
any situation, this sort of fundamentally undermines that 
security issue, and in fact looks like--the intrusion of 
Microsoft almost looks like the way we look at hackers. Which 
is, you have come in to use our technology in a way that we had 
no notice of.
    So I think what we are going to do, moving forward, is try 
to work with Microsoft, with other companies that want to offer 
Instant Messaging and interoperate, and fully support those 
discussions and hope they move quickly. But, you know, I think 
that there are a lot of details within this particular issue 
that make it more complicated and I think make it not 
inconsistent with the commitment to openness.
    Senator Bryan. I thank you very much. And a number of us 
will stay tuned in as this develops.
    Ms. Lesser. Please, do.
    Senator Bryan. Thank you.
    Senator Wyden. An excellent panel. It has been a long 
morning, and I just have a few questions. Let me start with 
you, Ms. Varney.
    If the chief flight mechanic for Acme Airlines admitted 
that he would not personally risk his life flying for Acme, 
Acme would obviously have a lot of problems selling tickets. 
Now, if 60 percent of the chief mechanics of all the airlines 
were surveyed, and they said, we are not going to fly because 
of safety concerns, the whole industry would have a lot of 
trouble growing their customer base.
    Now, clearly, a flying accident carries more serious 
consequences than the violations of privacy policy. But it 
seems to me the online business community has a not all that 
different problem to my little fictional Acme Airlines. I find 
it absolutely astounding that 60 percent of the chief 
information officers, people who are in the business of making 
profits in this field, are unwilling to give any personal 
information out about themselves. I think that is what this is 
all about.
    What I find very troubling is the good work that your 
companies are doing, the good work that people like me are 
trying to be supportive of, and stay up until the middle of the 
night like we did on the Y2K liability bill, to try to be 
supportive. I think it can really be undermined if we just sit 
and say, well, we will just watch all this self-regulation, and 
maybe it will work and maybe it will not, and we will come back 
when it does. I guarantee you, if there is an Exxon Valdez 
style privacy invasion, a bill will go through here like grease 
going through a goose. It is going to make anything that Conrad 
Burns and I have been talking about look like pretty small 
stuff.
    So how would you respond to the fact that 60 percent of 
these people who make their living in this field will not give 
anything out?
    Ms. Varney. I do not give out personal information online, 
Senator, ever. I do not allow my children to. I simply do not.
    Now, when I go to buy office supplies or when I go to buy a 
book or when I go to buy an album, I look very carefully at 
what the privacy policies are. And I will give the information 
necessary to complete the transaction. And if I do not like the 
privacy policy, I do not shop there. I would not fly Acme.
    I think the point is that there is a lot of choice. And I 
do not disagree with really anything you have said. I think it 
is an ongoing market. I think maybe the only perspective where 
you and I may differ slightly is, where I see the need for the 
debate, I do not think or recommend that you sit idly by and do 
nothing. I think what you are doing is exactly right.
    However, I think we may be slightly premature to focus in 
on a particular piece of legislation for general commercial 
transactions. I am not talking about financial privacy, I am 
not talking about medical privacy, and I am not talking about 
kids' privacy--all of which are highly sensitive data. I am 
talking about general, grown-up, commercial interactions, 
transactions.
    We do have an obligation here--the government, the business 
and the consumer sections--to work together to make sure this 
marketplace works. Business has been doing its part. And I 
think it sends the wrong message to business to say, okay, you 
have spent the last 2 years really working hard to make privacy 
the norm in the online transactional environment, and now we do 
not think you have done the right thing, so we are going to 
create the norm for you. I just do not think we are there yet.
    I agree with you, if the Exxon Valdez happens, we all 
better be up here and we better have our sleeves rolled up and 
better be prepared to deal with it.
    Senator Wyden. The problem for me is that test after test 
is not being met. I read Bob Pitofsky what the Commission said 
a year ago: Unless industry can demonstrate it has developed 
and implemented broad-based and effective self-regulatory 
programs by the end of the year, additional government 
authority in this area would be appropriate and necessary. It 
has been a year later, and I asked Bob Pitofsky if the tests 
were met, and he said no.
    Ms. Varney. Well, I am not sure that I would agree with 
that, Senator. I think that we can talk all day, as we have 
been, about whether or not 14 percent to 66 percent, and 
everything that is underneath it, means there has been 
sufficient progress. Even if there were agreement that there 
were insufficient progress, I think you heard Ms. Lesser say 
that the way to go here is not a regulatory framework, it is an 
enforcement framework.
    So I am not sure that even if we all conceded the point, we 
are in agreement about what to do about it. And I am certainly 
not willing to concede the point.
    Senator Wyden. Well, I am going to let Ms. Lesser speak for 
herself because she always does so very eloquently. I heard her 
say, and I am very comfortable with this as an orientation, 
that what we want to do is make sure that we have got the tools 
to deal with the scalawags, with the bad actors, while not 
weighing down people who are responsible. And that is exactly 
where I want to be. That is what we are trying to do with the 
safe harbor. As I think you know, in the discussions that we 
had with Senator Burns' folks, that was something I felt very 
strongly about, and trying to give the widest possible berth.
    So I want to give you a chance to speak for yourself on 
this point, but I thought that the ground that you staked out 
there was exactly where Senator Burns and I want to be in terms 
of this centrist, pragmatic kind of approach, so that people 
who are working hard and wrestling with these issues on a 
regular basis, as you and a lot of your colleagues are, do not 
find it a burden. In fact, in almost all instances, you accede.
    In fact, probably the only thing I have disagreed with at 
all this morning--and I think she knows that I am very fond of 
her--I was almost going to give Ms. Varney the chutzpah award 
this morning for saying, wait a minute, we have been for self-
regulation, but we want to go even further on financial 
services and cookies than S. 809 has. And I say that in a good-
natured way. And I think you made it clear that that was not 
what you wanted to do.
    But I think we do want to strike the balance that Ms. 
Lesser is talking about. I want to give her a chance to speak 
to that point.
    Ms. Lesser. Thank you, Senator Wyden. I, too, am heartened 
that you want to strike that balance. I am not sure that S. 809 
does that the way it is drafted. And I think that, as you and I 
have talked about, we should continue to work not only with the 
industry and members of Congress, but the FTC and privacy 
advocates, to figure out what the baseline may be.
    What I think has come out in this hearing, however--and 
Christine Varney did emphasize it--is that this issue is a lot 
more complicated than it appears on its face. Certainly 
requiring a notice of privacy policies gets to a fair number of 
problems that we are seeing online, but it does not necessarily 
address all the issues that people have expressed concern 
about.
    The question really is, what are the issues that Congress 
should address? What are the issues that the industry should 
retain flexibility on? What are the issues that technology is 
addressing? And how do we all come together to say there may be 
a role for everybody?
    So, as I have said before, I do not think it is wise for 
any company, particularly America Online, to testify that we 
are opposed to legislation, per se, because that is just not 
true. What we need to do is identify areas where there are--and 
I will maybe over-qualify this--but where there are market 
failures. We did so, with Senator Bryan and others, in the 
children's bill, and we will continue to have that dialogue.
    But as Deirdre Mulligan laid out very eloquently, there are 
many, many unanticipated issues being raised in the context of 
that rulemaking. We may learn from that experience, once that 
rulemaking is over, once the bill is actually in place, so we 
understand the impact on consumers, the impact on the industry, 
and the impact on moving forward. So I think it is an ongoing 
dialogue.
    Senator Wyden. Well, I think that is a fair comment.
    The kind of tools we tried to put in S. 809 are ones that 
we think have stood the test of time, such as the principles 
like opt out and baseline disclosure. And as Senator Burns and 
I have said repeatedly, we do not think this is the last word, 
and we are very anxious to have your continued input.
    A question for Mr. Rotenberg and Ms. Mulligan--I think you 
saw what I was trying to do, particularly with Chairman 
Pitofsky, was to try to expose some of the holes in the 
existing authority of the FTC to deal with these issues. I 
think that, by the end, he said, well, gee, we are not 
completely helpless, and cited a couple of examples. And I 
found that very helpful.
    But, at the end of the day, the point that most troubles me 
is that if we are going to give a broad berth to self-
regulation--and I made it clear that I am doing somersaults to 
try to do that--we have got to have some real enforcement. Both 
of you have made it clear that that is the Achilles heel in 
this self-regulation concept. I think a good way to wrap this 
thing up. I went to school on a basketball scholarship and you 
always want one shot to quit on and today I think it would be 
to have you two tell us what you think a good enforcement 
package would consist of.
    Ms. Mulligan, Mr. Rotenberg, either one of you?
    Mr. Rotenberg. Senator, in the context of my comments on
S. 809, one of the points that I kept coming back to was the 
need for the FTC to give more information to this committee and 
the Congress and the public about what is actually happening. I 
was frankly so frustrated by the FTC report, because there was 
no information there about enforcement, about consumer 
complaints. We submitted a Freedom of Information Act request 
to the FTC, and we have asked for all records regarding the 
privacy investigations, to try to understand what is going on.
    But my starting point--and I think if we do it in the 
context of S. 809--is to have an annual reporting requirement, 
so that you would have information about disposition, what 
happens with privacy complaints, what cases were referred, how 
were those resolved. One of the theories underlying the self-
regulatory approach, as the chairman has described, is that the 
FTC would operate as a backstop. If, for example, an issue 
could not be resolved through a self-regulatory group, like 
TRUSTe, then it would be referred to the FTC under Section 5 
authority, and some further action can be taken.
    That information has to be provided on an annual basis. You 
need some way to evaluate if it in fact is working.
    Senator Wyden. Ms. Mulligan, before we move on--Ms. Lesser, 
Ms. Varney, is that something that companies could live with? 
Is that kind of backstop kind of approach along the lines of 
something Mr. Rotenberg is talking about?
    Ms. Varney. Well, I think in the first instance, what we 
are committed to at the Online Privacy Alliance is getting more 
companies in BBBOnline and TRUSTe and the WebTrust programs. It 
is an interesting discussion, Senator, that I have had with 
your staff and with the Commissioners. When I was a 
Commissioner, I believed that it could be an unfair practice to 
be collecting and using data without telling an individual that 
you are doing it, and giving them whatever rights would be 
concomitant with that. I continue to believe that that may be 
worth exploring.
    Now, Bob Pitofsky was not only my professor at law school, 
he was also the Dean. He is far more experienced in this than I 
am, and he told you point blank he did not think he would win 
that case. But it seems to me that it is worthwhile to think 
about whether or not it is an unfair practice to collect data 
without informing individuals and giving them an opportunity to 
exercise control over the data.
    But, in the first instance, we are committed to building 
the mechanisms in the marketplace.
    Senator Wyden. That actually goes beyond even what Mr. 
Rotenberg called for.
    Mr. Rotenberg. I will sign up for that.
    Ms. Lesser. But I think what Marc is talking about and what 
Christine is talking about both indicate sort of a continuation 
of what I was talking about, which is: What are we really 
looking for? We are really looking to make sure consumers are 
protected, and that when they have complaints or problems arise 
or there are bad actors out there, that there is a mechanism 
for us to both make sure those bad actors stop engaging in 
business; and, second, hold them up as examples.
    Because what we have seen with the FTC's enforcement 
actions related to their deception authority over the past 
couple of years has been a significant move by the industry, 
frankly, to a place where a good part of the industry could 
support the children's bill. Because we all said, despite the 
initial workshop on privacy which I participated in 4 years 
ago, that people were standing up and saying it is not 
necessary for us to provide parental disclosures even--forget 
consent--when we collect information about children--it has now 
really moved to be the perceived industry norm.
    So I think that there is a lot that can be done in the 
enforcement area of the Federal Trade Commission. And it is 
something that you and this committee should examine.
    Senator Wyden. You can swish the last shot of the game.
    Ms. Mulligan. OK. Well, I would like to build on a comment 
that Christine Varney made, and also actually a question that 
Marc has asked the Commission to provide documents on. I 
actually did file a complaint against two Web sites that were 
not telling consumers what they were doing with information, 
and were collecting incredibly detailed health information--
one, targeting consumers with heart problems, collecting the 
most detailed list of medications, how often they take them, 
who prescribes them; and another very large pharmaceutical 
company, running a Web site aimed at asthma patients, 
collecting incredibly detailed information about their health, 
their family's health, with no disclosures of how that 
information was to be used, and very little acknowledgement 
that the company behind the Web site was in fact very large 
company, with many, many different interests in all different 
health care product industries.
    Like Christine, my hope was that the FTC would in fact 
think that they did have jurisdiction to go after Web sites 
that were, I think, misleading consumers by not providing 
information. So, the omission rather than the act.
    However, to my knowledge, there has been no action on that 
complaint. So I, like Christine, think that perhaps the 
Commission has decided that they do not have jurisdiction 
there, as you heard Chairman Pitofsky say.
    On the question of enforcement, I think that when I look at 
legislative models or self-regulatory models in the privacy 
area, there are actually two different things that you are 
aiming to do. One is to instill compliance. The goal is not to 
have a lot of bad actors. I actually think that baseline 
guidance--as Commissioner Swindle said--the third of people who 
are not saying anything about how they handle information, you 
can make the assumption that they are all scalawags or you can 
assume that perhaps an OPA letter has not gotten to them; they 
do not live inside the Beltway and they are one of the 275,000 
new Web sites, and that actually they would benefit from some 
of the knowledge that this committee has generated and that the 
FTC has generated, and that a little direction would go a long 
way.
    The second part is, how do you actually get to the bad 
actors? And as I alluded to earlier, we have a number of 
statutes on the books, and most of those have looked at private 
rights of action as a method of enforcing. Despite the fact 
that I think that privacy, particularly when you are talking 
about sensitive information--somebody has disclosed my medical 
records, I want to go in and sue, right--there is an issue as 
to whether or not many consumers are actually aware of the fact 
that their privacy has been violated.
    So while I think a private right of action can be 
critically important for an individual's vindication, I am not 
certain that it is actually the best way to provide 
enforcement. Because, unlike the FTC, which has a fairly good 
pool of resources to conduct investigations, to actually go in 
and look at what people are doing, the average consumer, kind 
of the harm that is going to actually get them into court 
because of the expense of actually enforcing their rights, I am 
not sure what the right balance is between those two models. 
You may want a little bit of each.
    But I actually think Marc's suggestion that people report 
is something that we have seen. It is a useful oversight 
mechanism, for example, in Federal wiretapping. It provides 
some public accountability. And I think that is critically 
important. But I think that looking at the remedy issue, the 
oversight and the enforcement issues, is something that I would 
like to see some more discussion on. And we are actually right 
now conducting some research, and I will provide it to the 
committee when I have some more findings.
    Senator Wyden. I still have the welts on my back from the 
Y2K litigation debate. So your desire to hold off on further 
discussion of litigation is particularly well received at this 
point.
    Unless you all have anything to add further, know that this 
subcommittee, and myself specifically, having worked with all 
four of you very extensively in the past, really appreciates 
the counsel. This is by no means the last word. This is going 
to be a debate, as you all have said, that evolves. We are 
going to be working closely with all four of you, and we will 
excuse you at this time.
    The subcommittee is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              

     Prepared Statement of The Center for Democracy and Technology

            Behind the Numbers: Privacy Practices on the Web

    The state of privacy on the Internet is the topic of much 
discussion. Much of the focus to date has been on the numbers--how many 
Web sites mention privacy? How many are allowing consumers the ability 
to opt-out? We believe it is time to focus on whether the policies in 
the marketplace reflect Fair Information Practices--the corner stone of 
information privacy--and perhaps more importantly, to decide whether 
they respond to consumers privacy concerns.
    In considering the state of privacy protection at commercial Web 
sites, this report takes a three-part approach.
    <bullet> First, the report reviews survey data about individuals' 
expectations of privacy on the Internet and in commercial interactions. 
The survey data suggests that adherence to the Code of Fair Information 
Practices on the Internet would substantially address individuals' 
privacy concerns.
    <bullet> Second, based upon the Georgetown Internet Privacy Policy 
Survey data, the report further analyzes the quality of privacy 
policies posted by some of the most frequently trafficked Web sites. 
The report finds that very few Web sites are abiding by the sub-set of 
Fair Information Practices called for by the Federal Trade Commission.
    <bullet> Third, the report examines the private sector mechanisms 
for overseeing and enforcing privacy polices. The report finds that the 
seal programs--BBBOnline, TRUSTe and WebTrust--do not require companies 
to comply with the full set of Fair Information Practices and, because 
some programs have multiple versions, individuals must read the fine 
print if they want to know what protections and rights the programs 
afford them.
    The report concludes that Fair Information Practices continue to be 
the exception rather than the rule on the World Wide Web; private 
sector enforcement programs cover a very small segment of commercial 
Web sites; and individuals' concerns with their privacy online remain 
only partially answered.
     1. what do we know about individuals' expectations of privacy?
    Over the past four years we've witnessed an increase in surveys 
seeking to identify and document the public's attitudes toward privacy. 
Recent surveys document a growing concern with individual privacy on 
the Internet. Surveys have documented that the privacy of personal 
information is of critical concern to those on the Internet and those 
who have chosen not to come online. Surveys have also found a 
connection between individuals' willingness to engage in online 
commerce and their concerns with privacy. Privacy concerns continue to 
escalate with a recent report finding that nearly 90 percent of 
respondents were concerned about threats to their personal privacy 
online.

Privacy is becoming an increasingly important issue to Internet users
    <bullet> Eighty-seven percent of Net users are concerned about 
threats to their personal privacy while online. (AT&T survey Beyond 
Concern: Understanding Net Users' Attitudes About Online Privacy, 1999)
    <bullet> Privacy now overshadows censorship as the number one most 
important issue facing the Internet. (The 8th semi-annual poll of the 
Graphics, Visualization, and Usability Center at the Georgia Institute 
of Technology, 1997)
    <bullet> Tracking people's use of the Web (32 percent), and the 
sale of personal information (42 percent), were cited as the most 
pressing privacy issues on the Internet. (Center for Democracy and 
Technology Privacy Survey, 1998)
    <bullet> A survey of parents found that their biggest concern 
overall, about their children's use of the Internet, was the abuse of 
personal information--an issue more troubling to them than credit card 
fraud, unsolicited email, and exposure to pornography and/or strangers. 
Sixty-five percent said that their children had been solicited to buy 
goods or services on the Web while more than half said their children 
have been asked to provide personal information at a site in order to 
access content. (FamilyPC Special Report: Annual FamilyPC Internet 
Survey Results, 1998)

Privacy concerns hinder e-commerce
    <bullet> The majority of online users are not comfortable providing 
credit card (73 percent), financial (73 percent) or personal 
information (70 percent) to businesses online. (National Consumers 
League, Consumers and the 21st Century, 1999)
    <bullet> Forty-two percent (42 percent) of those who access the 
Internet or the World Wide Web are using the Net only to gather 
information about products and services while a much smaller 24 percent 
are going online to purchase goods or services. (National Consumers 
League, Consumers and the 21st Century, 1999)
    <bullet> Fifty-eight percent (58 percent) of consumers do not 
consider any financial transaction online to be safe, 67 percent are 
not confident conducting business with a company that can only be 
reached online, and 77 percent think it is unsafe to provide a credit 
card number over the computer. (National Technology Readiness Survey, 
conducted by Rockridge Associates, 1999)
    <bullet> Many individuals have reported providing false information 
when registration is required. (The 9th semi-annual poll of the 
Graphics, Visualization, and Usability Center at the Georgia Institute 
of Technology, 1998)

Individuals want to know how their personal information is being used
    <bullet> Very strong majorities (91 percent) of Net users, and (96 
percent) of those who buy products and services online, say that it is 
important for business Web sites to post notices explaining how they 
will use the personal information customers provide when buying 
products or services on the Web. (AT&T survey, Beyond Concern: 
Understanding Net Users' Attitudes About Online Privacy, 1999)
    <bullet> 66.7 percent of respondents cite the lack of information 
about how their personal data will be used as the reason for not 
filling out registration forms online. (The 10th semi-annual poll of 
the Graphics, Visualization, and Usability Center at the Georgia 
Institute of Technology, 1998)
    <bullet> 41.7 percent of Internet users want to know what 
information is being collected and 45.8 percent want to know how it 
will be used before they decide to withhold or supply demographic 
information. (The 10th semi-annual poll of the Graphics, Visualization, 
and Usability Center at the Georgia Institute of Technology, 1998)
    <bullet> According to another survey, the most important factor to 
respondents in deciding whether to provide information is whether or 
not information will be shared with other companies and organizations. 
Other highly important factors in providing information on a Web site 
include whether information is used in an identifiable way, the kind of 
information collected, and the purpose for which the information is 
collected. (AT&T survey Beyond Concern: Understanding Net Users' 
Attitudes About Online Privacy, 1999)

Individuals want control over how their personal information is used
    <bullet> Eighty-seven percent of respondents objected to a Web site 
selling information about them to other businesses. (AARP survey ``AARP 
Members' Concerns About Information Privacy.'')
    <bullet> Similar concern was registered in the context of mergers, 
where 71 percent of respondents believed that merging companies should 
obtain written permission prior to sharing information. (AARP survey 
``AARP Members' Concerns About Information Privacy.'')
    <bullet> 74.3 percent of Internet users believe that content 
providers (Web sites) do not have the right to resell their personal 
information. (The 10th semi-annual poll of the Graphics, Visualization, 
and Usability Center at the Georgia Institute of Technology, 1998)
    <bullet> 90.5 percent of Internet users believe that individuals 
should have complete control over which Web sites have access to 
demographic information. (The survey found individuals want the control 
over the sale of their names and addresses by magazines to which 
they've subscribed.) (The 10th semi-annual poll of the Graphics, 
Visualization, and Usability Center at the Georgia Institute of 
Technology, 1998)

Internet users value their anonymity and are concerned about being 
        tracked online
    <bullet> Individuals are often very uncomfortable providing 
identifiable information such as credit card numbers and social 
security numbers. (AT&T survey Beyond Concern: Understanding Net Users' 
Attitudes About Online Privacy, 1999)
    <bullet> 88 percent of Internet users say they value the ability to 
visit Web sites anonymously. (The 10th semi-annual poll of the 
Graphics, Visualization, and Usability Center at the Georgia Institute 
of Technology, 1998)
    <bullet> 82.4 percent of Internet users disagree with the 
advertising agency practice of compiling usage behavior across Web 
sites for direct marketing purposes.
    <bullet> Tracking people's use of the Web (32 percent) was cited as 
a pressing privacy concern on the Internet. (Center for Democracy and 
Technology Privacy Survey, 1998)

        II. PRIVACY EXPECTATIONS AND FAIR INFORMATION PRACTICES

    Individuals' privacy expectations, identified by the survey data 
above, are reflected in the Code of Fair Information Practices--broadly 
recognized principles designed to ensure that individuals are able to 
``determine for themselves when, how, and to what extent information 
about them is shared.'' \1\ Proposed in 1973 by a United States 
government advisory committee set up to examine the impact of 
computerized records on individual privacy,\2\ the Code has never been 
enacted as such, but remains a sound and enduring baseline for 
evaluating the information handling practices of businesses and the 
government.\3\
---------------------------------------------------------------------------
    \1\ Alan Westin. Privacy and Freedom (New York: Atheneum, 1967), 7.
    \2\ Report of the Secretary's Advisory Committee on Automated 
Personal Data Systems, Records, Computers and the Rights of Citizens, 
U.S. Dept. of Health, Education & Welfare, July 1973.
    \3\ Recent statements on protecting privacy from various branches 
of the United States government, such as the Department of Commerce's 
Guidelines for Effective Self-regulation, the Federal Trade 
Commission's 1998 Report to Congress, and the Children's Online Privacy 
Protection Act all center on elements of the Code.
---------------------------------------------------------------------------
    The Code of Fair Information Practices \4\ can be summarized as 
follows:
---------------------------------------------------------------------------
    \4\ Having discussed the Code of Fair Information Practices with 
many non-experts, we drafted this version in an effort to make it more 
accessible and self-explanatory. Comments and criticisms are welcome. 
For the standard text see Note 1.
---------------------------------------------------------------------------
Individual Rights
    Access and Correction.--The individual has the right to see 
personal information about herself and to correct or remove data that 
is not timely, accurate, relevant, or complete.
    Control.--The individual has the right to control the use of 
personal information. Personal information provided to a record keeper 
may not be used or disclosed for other purposes without the consent of 
the individual or other legal authority.
Record Keeper Responsibilities
    Openness.--Record keepers who collect or maintain information about 
individuals must be publicly known, along with a description of the 
purpose and uses they make of personal information.
    Limited Collection.--Record keepers who collect or maintain 
personal information must collect only what is necessary to support the 
purpose of collection. Personal information must be collected by lawful 
and fair means and, where appropriate, with the knowledge and consent 
of the individual.
    Limited Use.--The use and disclosure of personal information must 
be limited to the purpose for which it was collected, unless the 
individual has granted consent.
    Data Quality.--Record keepers must ensure that personal information 
collected is relevant to the purpose of collection, accurate, timely, 
and complete.
    Security.--Record keepers must institute reasonable security 
safeguards against such risks as loss, unauthorized access, 
destruction, use, modification and disclosure.
    Accountability.--Record keepers must be accountable for complying 
with fair information practices.
    Adherence to Fair Information Practices in the marketplace would 
address many of the documented privacy concerns of individuals in the 
online environment. The following section of the report examines the 
state of Fair Information Practices at commercial sites on the World 
Wide Web.

            III. THE QUALITY OF WEB SITES' PRIVACY POLICIES

    What do we know about the quality of commercial Web sites privacy 
policies? Do they conform to Fair Information Practices? Two surveys 
conducted approximately a year apart give us some information about 
whether Web sites are posting privacy policies and, if they are, what 
these policies say.\5\ Using the data from the most recent survey 
conducted by Mary Culnan--the Georgetown Internet Privacy Policy 
Study--we can produce some useful information about the extent to which 
privacy policies are being posted and how closely they align with Fair 
Information Practices and the sub-set of Fair Information Practices 
that have been called for by the Federal Trade Commission--Notice 
(openness); Choice (use and disclosure limitation); Access (access and 
correction); Security; and Enforcement (accountability).
---------------------------------------------------------------------------
    \5\ Very little data is available about whether companies are 
adhering to the privacy policies they post.
---------------------------------------------------------------------------
A. Overview of the Reports
    In June 1998, the Federal Trade Commission's ``Privacy Online: A 
Report to Congress'' found that despite increased pressure, businesses 
operating online continued to collect personal information without 
providing even a minimum of consumer protection. The report looked only 
at whether Web sites provided users with notice about how their data 
was to be used; there was no discussion of whether the stated privacy 
policies provided adequate protection. The survey found that, while 92 
percent of the sites surveyed were collecting personally identifiable 
information, only 14 percent had some kind of disclosure of what they 
were doing. Approximately 1.9 percent of Web sites provided the type of 
notice that the FTC considered appropriate.
    The newly released Georgetown Internet Privacy Policy Survey 
(GIPPS) provides new data. It finds that 92.8 percent of Web sites are 
collecting personally identifiable information and approximately 9.5 
percent of Web sites that collect personally identifiable information 
provide the type of notices called for by the FTC and required by the 
guidelines of the Online Privacy Alliance, the Better Business Bureau 
and TRUSTe. Approximately two-thirds of the sites made some statement 
about their collection or use of information--for example ``your order 
will be processed on our secure server'' or ``click here if you do not 
want to receive email from us''--while one-third made no statements 
about privacy at all. The survey documented an increase in the number 
of Web sites collecting sensitive information such as credit card 
numbers (up 20 percent), names (up 13.3 percent), and even Social 
Security Numbers (up 1.7 percent).
B. A Closer Look at the Findings
    The questions in the Georgetown Internet Privacy Policy Survey 
reflect a subset of Fair Information Practices. Regardless, the data 
provides some useful information about the state of privacy practices 
on the Web. The survey data suggests that \1/3\ of Web sites are silent 
on their use of personal information while \2/3\'s are taking steps 
toward addressing users' privacy concerns. The policies being posted on 
the Web are far from complete. Less than 10 percent met the test 
established by the Federal Trade Commission--a sub-set of Fair 
Information Practice principles.
    <bullet> Privacy policies are the exception not the rule on the 
Internet. Less than 10 percent of Web sites are meeting the standards 
called for by the FTC and required by seal programs.
    <bullet> While data is not available, based on the GIPPS survey we 
believe that few Web sites are adhering to the full set of Fair 
Information Practices.
    <bullet> A small portion of Web sites participate in self-
regulatory enforcement programs. According to CDT's analysis, only 8.5 
percent of the sites surveyed (and a much smaller percentage of all 
sites on the World Wide Web) participate in one of the independent 
assessment programs discussed below.
    <bullet> Roughly half of Web sites surveyed are providing visitors 
with some information about how personal information is collected, 
used, or disclosed.
    <bullet> A third of Web sites are not providing individuals with 
any information about how personal data is handled.
    <bullet> Approximately a third of Web sites surveyed are telling 
visitors about their use (or not) of cookies.
    <bullet> Nearly 60 percent of Web sites that collect information 
are providing individuals the limited ability to object to its use for 
re-contacting.
    <bullet> However, no data is available about the number of Web 
sites that allow individuals to limit other uses of their personal 
information.
    <bullet> Approximately 50 percent of Web sites that collect 
information allow individuals to limit its disclosure to third parties.
    <bullet> However, no survey data is available on whether Web sites 
allow individuals to limit disclosure to affiliates--a growing concern 
in the privacy arena.
    <bullet> Forty-five percent of Web sites inform consumers that 
their information is secure during transmission. But a smaller 18 
percent provide security assurances for information once it is 
collected.

          IV. PRIVACY SEAL PROGRAMS--OVERSIGHT AND ENFORCEMENT

    One proposal for overseeing and enforcing privacy practices in the 
private sector is the use of Seal programs. Generally, the programs 
emphasize providing consumers with: (1) notice of a company's 
practices; (2) the ability to opt-out of information sharing; and (3) 
assurance that appropriate security is used to protect their personal 
information. The programs center on a contract between the seal program 
and the licensed seal holder. The seal is issued in exchange for the 
company's agreement to abide by a specific set of standards for 
handling personal information and to permit some form of oversight of 
the agreement. All use the threat of seal revocation and, in certain 
cases, referral to appropriate legal authorities to assure compliance.

A. Overview
    CDT examined three seal programs: BBBOnline; TRUSTe; and, WebTrust. 
As of January 1, 2000, all of the seal programs will require licensees 
to comply with a similar subset of fair information principles. 
However, at the current time, the quality of privacy practices required 
of seal holders by the three programs varies substantially. Because two 
of the seal programs (TRUSTe and WebTrust) are in the process of 
raising their standards, a consumer cannot tell by the seal exactly 
what protections are offered. This undermines the simplicity the seals 
are supposed to provide.
    <bullet> The BBBOnLine seal relies on its well-recognized name and 
in-house dispute processes. The core of the BBBOnline program is a 
statement of compliance completed by companies and then reviewed by 
BBBOnline staff. BBBOnline staff initially handles disputes. If 
unsuccessful, the staff convenes a quasi-independent panel to hear the 
complaint, the findings of which are made public. Remedies for harmed 
consumers are decided on a case-by-case basis, but consumers cannot 
receive monetary damages. BBBOnLine currently has 48 licensees and more 
than 400 applications are in process.
    <bullet> TRUSTe has recently revised its license agreement. 
Currently, consumers cannot tell by looking at the posted seal which 
standard a company is abiding by, creating the potential for consumer 
confusion. Licenses run a range between what is called the TRUSTe 3.0 
agreement, through a set of 4.0 agreements to TRUSTe 5.0. The TRUSTe 
3.0 agreement assures users of little more than the fact that companies 
are notifying consumers of their practices. By October 1999, all of the 
3.0 agreements will expire, but until January 1, 2000, when all TRUSTe 
licensees will be adhering to the higher (5.0) set of information 
practices, a TRUSTe seal could mean anything in between the 3.0 and 5.0 
agreement. TRUSTe requires licensees to complete a self-certification 
statement that is reviewed by TRUSTe staff. To check compliance, TRUSTe 
seeds Web sites with personal information, conducts random spot checks 
of its licensees, and conducts independent audits in some instances. 
TRUSTe staff generally handles consumer complaints. There is no program 
for directly addressing the interests of aggrieved consumers. TRUSTe 
currently has 830 licensees and is receiving more than 100 applications 
a month.
    <bullet> WebTrust is in the process of revising its license 
agreement. Currently, the license emphasizes the security of the 
information practices and not privacy. By December 15, 1999, all 
licensees will be adhering to a higher set of fair information 
practice. In addition to requiring a self-assessment by companies, 
WebTrust requires companies' policies and practices to be continually 
verified through on site audits by CPAs. An independent arbitration 
board handles disputes. The arbiter is free to award consumers with 
whatever remedies are considered appropriate, including money. WebTrust 
has awarded 22 seals and at least 40 more are in process. 150 CPA firms 
worldwide are able to award seals.

[GRAPHIC] [TIFF OMITTED] T1813.002

[GRAPHIC] [TIFF OMITTED] T1813.003

[GRAPHIC] [TIFF OMITTED] T1813.004

[GRAPHIC] [TIFF OMITTED] T1813.005

[GRAPHIC] [TIFF OMITTED] T1813.006

B. Do the Seal programs ensure compliance with Fair Information 
        Practices? Can individuals enforce their privacy rights?
    While the Seal programs' standards are, according to the GIPPS, 
higher than the current practices at the vast majority of Web sites, 
they fall short of meeting the Fair Information Practice Principles. As 
stated above, enforcement program participants make up only a small 
portion of the Web sites online. And even if a site is a member of a 
seal program, consumers should be wary--for today understanding what a 
seal means requires reading the fine print. Two sites with the same 
seal could have vastly different policies. While the seal programs will 
each have a single standard for companies to meet by January 2000, 
today it is clearly wise to cautious. Even with standardized 
requirements consumers will have to read the small print to find out 
the practices of a specific site and exactly what rights they may or 
may not have.
    In addition, as a recent complaint against Microsoft filed with 
TRUSTe illustrated the scope of the self-regulatory enforcement 
programs is narrow. They only have the ability to monitor and enforce 
privacy practices on the companies Web site. Where a consumer has an 
online, but not Web site based, privacy complaint or an offline privacy 
complaint, the seal programs are unable to address them.
    The threat of seal revocation is likely to encourage participants 
to more actively monitor their own behavior to ensure compliance, 
however seal revocation does not provide the individual who is harmed 
with relief. At this time it is unclear whether the private sector 
mechanisms for addressing consumer complaints and handling disputes 
will provide individuals with an effective method of protecting their 
privacy.
    Overall, the Seal programs have raised the bar in the private 
sector by establishing stronger--but still short of complete--practices 
for handling personal information. However, they fall short of meeting 
the Fair Information Practice Standards and responding to consumers' 
concerns. Today the three programs have enrolled a total of 900 Web 
sites--a very small slice of the hundreds of thousand commercial sites 
on the World Wide Web.
                   v. conclusions and recommendations
    Whether the measuring tool is the policies of the Online Privacy 
Alliance, the seal programs, the FTC's pared down version of the Code 
of Fair Information Practices, or the full Code of Fair Information 
Practices--privacy practices at the vast majority of commercial Web 
sites are not making the mark.
    The survey data above documented specific concerns of individuals 
using the Internet. In analyzing the state of privacy practices on the 
Web, it appears that consumers concerns are receiving an incomplete 
response from Web sites. Eighty-seven percent of individuals stated a 
concern with their privacy online--but a third of highly trafficked Web 
sites remain completely silent on how they handle personal information. 
91 percent of Internet users, and (96 percent) of those engaged in 
ecommerce want to know what personal information is collected and 
used--but less than 50 percent of frequently trafficked Web sites 
provide individuals with this information. An overwhelming majority of 
individuals want to decide how their information is used--but 40 
percent of business Web sites are not allowing individuals to exercise 
even a limited right to object to companies recontacting them. 74.3 
percent of Internet users believe that content providers (Web sites) do 
not have the right to resell their personal information--but of the 53 
percent highly trafficked Web sites that say they share or sell 
personal information less than 50 percent allow consumers to opt-out of 
this practice. Individuals are concerned about their use of the World 
Wide Web being tracked and profiled--but only 31 percent of these high 
traffic Web sites informed individuals about their use (or non-use) of 
cookies. Consumers are not being provided with adequate information 
about the use of personal information and they are not being provided 
with the ability to determine for themselves how their personal 
information is used.
    The seal programs have improved their requirements, however they 
too fall short of the Code of Fair Information Practices. And together 
their reach continues to be quite small--covering approximately 900 Web 
sites. It remains unlikely that the ``bad actors'' will participate in 
self-regulatory programs. A ubiquitous oversight and enforcement 
program has not emerged.
    In light of these statistics on the behavior of highly trafficked 
Web sites, consumers have good reason to be concerned for their privacy 
online. Thanks to the actions of leading companies, privacy and 
consumer advocates, and various parts of the government, some progress 
is evident on all fronts. However ubiquitous and enforceable privacy 
protections across the World Wide Web have not materialized. We 
continue to believe that legislation is both necessary and inevitable 
to make individual privacy on the Internet the rule rather than the 
exception. We believe that the GIPPS survey data indicates that many 
Web sites need some baseline policy guidance. The relatively low 
participation in self-enforcement programs indicates that, on their 
own, they will not be a viable option for the vast majority individuals 
with privacy complaints. If we fail to create a privacy framework that 
addresses individuals' privacy concerns we stand to undermine its 
enormous potential to support a vital online community and marketplace.

                                <all>

</pre></body></html>
